<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSALS FOR THE COAST GUARD AND NOAA</title>
<body><pre>[Senate Hearing 112-712]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-712
 
 THE PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSALS FOR THE COAST GUARD 

                                AND NOAA

=======================================================================



                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
78-811                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                     John Williams, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           JOHN BOOZMAN, Arkansas
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2012....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Rockefeller.................................     5
    Prepared statement...........................................     8
Statement of Senator Lautenberg..................................     6
    Prepared statement...........................................     7
Statement of Senator Wicker......................................    30
Statement of Senator Ayotte......................................    33
Statement of Senator Cantwell....................................    35

                               Witnesses

Admiral Robert J. Papp, Jr., Commandant, U.S. Coast Guard........     9
    Prepared statement...........................................    11
Jane Lubchenco, Ph.D., Under Secretary of Commerce for Oceans and 
  Atmosphere; and NOAA Administrator, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........    17
    Prepared statement...........................................    18

                                Appendix

Hon. John F. Kerry, U.S. Senator from Massachusetts, prepared 
  statement......................................................    49
Response to written questions submitted to Admiral Robert J. 
  Papp, Jr. by:
    Hon. John D. Rockefeller IV..................................    50
    Hon. Maria Cantwell..........................................    54
    Hon. Amy Klobuchar...........................................    63
    Hon. Mark Begich.............................................    65
    Hon. Olympia J. Snowe........................................    65
    Hon. Marco Rubio.............................................    67
Note regarding written questions submitted to Dr. Jane Lubchenco.    67


 THE PRESIDENT'S FISCAL YEAR 2013 BUDGET PROPOSALS FOR THE COAST GUARD 
                                AND NOAA

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We will go ahead and start the meeting. 
Thank you very much for being here.
    Both Admiral Papp and Administrator Lubchenco, thank you 
very much for attending today's hearing on the Fiscal Year 2013 
budget proposal both by Coast Guard and NOAA.
    Let me first start this hearing by acknowledging the recent 
loss of some members of the Coast Guard family. The crew of the 
helicopter CG-6535 were lost last week while on training flight 
over Mobile, Alabama. Their loss reminds us of the risk that 
men and women of the Coast Guard take every day to protect us.
    We are keeping in our thoughts and prayers the families and 
friends of Lieutenant Commander Dale Taylor, Lieutenant Thomas 
Cameron, Chief Petty Officer Fernando Jorge, and Petty Officer 
Third Class Andrew Knight.
    Also last week, the Midwest suffered from a series of 
deadly tornadoes. We also are remembering the families of the 
40 friends and neighbors lost in those storms.
    These events remind us of the sacrifice made every day on 
our behalf. Today, the Coast Guard cutter ALEX HALEY, based in 
Kodiak, Alaska, is patrolling the Bering Sea in heavy seas, 
conducting fisheries law enforcement and search and rescue 
missions.
    While she is out there, there is likely to see a crew of 
the NOAA ship OSCAR DYSON, also based in Kodiak. The OSCAR 
DYSON routinely spends more than 300 days a year deployed 
without multiple crewing.
    All of these people are missing birthdays, first steps, 
piano recitals so they can protect us, our economy, and our 
environment. This is what the Coast Guard and NOAA do every 
day. It is up to us here to ensure they have the tools they 
need to do their job well.
    Both the Coast Guard and NOAA delivered for the American 
people in 2011. We are pleased to have again Admiral Robert 
Papp, the 24th Commandant of the Coast Guard, joining us today.
    The Coast Guard continues to be successful in 
recapitalizing their ship and aircraft fleet. The third 
national security cutter, the STRATTON, completed her sea 
trials and will soon be commissioned. And the first of the 
Sentinel class of the fast rescue cutters, the BERNARD C. 
WEBBER, arrived in her home port of Miami, and we are looking 
forward to her sister ship coming to Ketchikan some day.
    And in December and January, the world watched as the 
icebreaker HEALY helped deliver much-needed fuel to the iced-in 
City of Nome, Alaska. We are grateful for their assistance, and 
I am glad that the world got to see how important the Coast 
Guard icebreakers are to the people of Alaska.
    I am also so pleased to see the administration finally 
making concrete plans to build a new heavy icebreaker. But I am 
most glad to see the Coast Guard has a 5-year capital 
investment plan for $860 million to actually build this asset, 
which is vital for America to realize its full Arctic 
potential.
    I am also pleased to welcome NOAA Administrator Jane 
Lubchenco. NOAA has also had a big year. Matter of fact, even 
big as of just a few minutes ago, as we were just talking 
about.
    You launched the Suomi NPP weather satellite, and look 
forward to it becoming fully operational. The high-resolution 
data will help us become a weather-ready nation, ready for 
tornadoes, hurricanes, flash floods, and winter storms.
    It could not come at a better time with a record number of 
billion-dollar weather disasters last year. I will tell you, in 
our state, as I started to leave, it was snowing once again 
heavy volume.
    Over and over again last spring and even just last week, we 
saw NOAA weather forecasts saving lives with advanced warnings. 
While the deadly storms in Alabama took a horrific toll last 
spring, thanks to NOAA forecasts, the schools and businesses 
were closed that day.
    We saw the same impacts in Alaska, when a huge hurricane-
force winter storm struck the western edge of our state. Thanks 
to accurate forecasts, coastal communities were prepared, and 
the loss of life was minimized.
    Our marine fisheries also turned a corner in 2011. For the 
first time ever, all federally managed fisheries have an annual 
catch limit and accountability measures. This means we are 
implementing science-based management for all stocks and are on 
the road to end overfishing.
    Alaskans have known the value of science-based fishery 
management for a long time. We are glad to see the rest of the 
country following our lead.
    I could go on and on about the Coast Guard and NOAA and 
what they do for the American people and Alaskans every day. I 
know each service is facing a tough fiscal environment and has 
to make difficult choices about what to fund. I am particularly 
concerned about how growth in NOAA satellite requirements is 
impacting the agency's key ocean science missions.
    Thank you both for being here today to begin this process.
    Finally, I would like to acknowledge my gracious Ranking 
Member, Olympia Snowe, for her many years of service. And you 
came to the Senate to get things done, and I know this is your 
last year. She thought it might be a little easier as she moves 
on, but we are going to keep her very busy.
    There are a lot--matter of fact, we are going to increase 
her load.
    [Laughter.]
    Senator Begich. But she is an incredible colleague, 
partner, and focused on the issues of the oceans, fisheries, 
and NOAA, and the many other works of the Commerce Committee.
    Let me see if Senator Snowe has some comments, and then I 
will ask Senator Rockefeller.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, for those gracious 
words.
    Thank you very much for calling a very critical hearing 
today to address one of the most substantive areas of our 
concern in oversight of the Coast Guard as well as the National 
Oceanic and Atmospheric Administration budget requests. It is 
so important that we ensure the resources provided by the 
American taxpayers are put to their highest and best use in as 
cost-efficient a manner as possible.
    After the tragic crash of the Coast Guard helicopter 6535 
and the loss of four crew members during a nighttime training 
mission in Mobile Bay last week, we are reminded of the 
tremendous risk as well as the critical services provided by 
the Coast Guard. The brave men and women of this service risk 
their lives daily to secure the lives and property of our 
nation's mariners, and it is incumbent upon Congress to ensure 
that the assets that they rely on to carry out their work and 
return them to shore safely are equal to the task.
    Yet once again, we find ourselves here to discuss how the 
Coast Guard will continue to carry out its diverse mission set 
with vessels such as the high-endurance cutter, which averages 
43 years of service life, 25 years longer than their Navy 
equivalents.
    In order to effectively answer the now-perennial question 
of how the Coast Guard can do more with less, Congress must 
have a clear picture of the risks involved in various 
acquisition strategies and programs.
    As the Coast Guard assumes the role of lead system 
integrator for its major acquisition program, formally known as 
Deepwater, it is imperative that the service increase its 
capacity to manage this complex project and to communicate its 
actions with crystal clarity to Congress.
    The administration's Fiscal Year 2013 request seeks 3.9 
percent less than the Fiscal Year 2012 enacted discretionary 
spending level overall, but a staggering 18.6 percent reduction 
in the Acquisitions, Construction, and Improvement line.
    The Fiscal Year 2013 operations budget request reflects an 
increase of only 0.5 percent over last year, yet fuel prices 
continue to climb. So we must ask whether this request is 
adequate to meet the increasingly complex needs of our nation's 
homeland security, marine safety, and environmental response.
    Admiral Papp, the GAO has concluded that the Coast Guard 
out-year budget planning is unrealistic, leading to ongoing 
challenges for your capital investment planning and fleet mix 
analyses. Today, I look forward to hearing from you what steps 
the Coast Guard is taking in response to the GAO's 
recommendations and to understand how this year's request will 
impact the future of the Coast Guard's acquisitions program, 
especially with regard to the National Security Cutter and the 
Offshore Patrol Cutter programs.
    This hearing is especially timely with regard to NOAA's 
budget as well, Dr. Lubchenco, as I am sure you understand, 
having just returned from the 37th Annual Maine Fishermen's 
Forum. I really appreciate the fact that you and your staff 
were able to hear directly from the New England fishermen the 
needs of their businesses now and for the future, and I am just 
delighted you were able to be there. I received a great deal of 
positive feedback from your attendance at that critical forum.
    My colleagues and I have ongoing concerns about the 
enforcement and the administration issues identified by the 
Inspector General's update last month regarding the National 
Marine Fisheries Service's Office of Law Enforcement and the 
agency's mismanagement of the Asset Forfeiture Fund. However, 
reducing uncertainties in fisheries science is the central 
objective if we are to achieve a stable economic and regulatory 
environment for our nation's fishermen, and that is where our 
focus should be today.
    As I understand you heard from many of the attendees at the 
Fishermen's Forum, cost-effective catch monitoring and strong 
enforcement remains a key priority for the industry. While the 
NOAA budget requests an increase of $2.9 million for the 
Observer program and increases for improved fishery surveys and 
stock assessment, this budget still may not have a net positive 
impact on fishery science.
    For example, reductions to, or elimination of, key funding 
lines such as the Interjurisdictional Fisheries Act, which will 
be zeroed out, and the Atlantic Cooperative Coastal Act, which 
will be reduced by 14 percent, will accordingly force the 
elimination of key monitoring programs and resource management 
capacity at the state and local level.
    Reductions to fishery management councils will likely mean 
fewer opportunities for stakeholders to weigh in on the 
management decisions that affect their livelihoods and could 
slow the already-lagging management process even further.
    The President's 2013 budget proposal for NOAA requests $5.1 
billion. Two-fifths of this proposal will go to the National 
Environmental Satellite Data and Information Service to fund an 
8.7 percent increase over the 2012 enacted level, bringing this 
year's request to $2 billion.
    Meanwhile, many other offices and programs would experience 
reductions or level funding. A number of valuable programs have 
been proposed for termination.
    The administration's request relies far too heavily on the 
elimination of grant programs and federal-state partnership 
programs to pay for the increases, meritorious though they may 
be, required by other programs. Regrettably, NOAA's budget 
seems to minimize the exceptional value these small programs 
provide to our coastal community and its economy.
    Every dollar spent in the Federal budget on competitive 
grants and federal-state partnerships is multiplied by matching 
funds. Many of the jobs in coastal communities are indirectly 
placed at risk by cuts proposed in this budget request.
    In closing, I just want to emphasize how greatly I value 
the tradition we have here in the Committee and the 
Subcommittee in particular of working in a bipartisan fashion. 
I see the Chair of the Committee as well, who always operates 
in working across the aisle, and I am very pleased to work with 
you, Mr. Chairman, on addressing so many of these key issues 
that are important to our industry and, of course, to our Coast 
Guard.
    I want to thank you both for being here today.
    Senator Begich. Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Thank you, Mr. Chairman.
    I just want to say one sentence, and then the second one is 
really the question that I will not be able to make because I 
will not be here. First, I want to reiterate what the chairman 
said about the loss in terms of the Coast Guard and the losses 
that occur in so many ways, just the risk of duty, of saving 
lives.
    You take care of people, and fate does not always take care 
of you. I guess that is true in most of our lives.
    The reduced funding that the Coast Guard is up against does 
not please me. A 3.9 percent is not 8 percent, but it is an 
awful lot when you do not have anything to begin with, and you 
are trying to get a fleet together and put your operation 
exactly the way you want it to be.
    There is new attention, I think, toward the Coast Guard. 
There certainly is on this committee. We really value it, and 
we cherish it. And we want to nurture it, help it in any way 
that we possibly can.
    My second and last statement will just be a thought, and 
that was that earlier this year, the President proposed 
reorganizing aspects of the Federal Government. And I guess 
there is nothing wrong with that. There could be some good 
things about that.
    He has not said it himself personally, but OMB officials 
have explained that NOAA would be consolidated within the 
Department of the Interior. I am appalled by that thought. I am 
appalled by it. And I want to serve notice that I will do 
everything I can to make sure that it does not happen.
    And that is not because of territorial concerns, 
jurisdictional concerns. It simply does not make any sense. The 
work of NOAA is so integrated, obviously, into the oceans and 
the estuaries and into climate, the reporting of climate, the 
technology of that, fishing and all of its respects, the 
decline of fishing--of fish, if not fishing.
    I just want to make sure that NOAA's day-to-day performance 
stays on track. It is an excellent group led by an excellent 
leader, and it just strikes me as yesterday, and Senator 
Lautenberg was here, we had four heads, like yourselves, sort 
of brilliant heads of other agencies--NSF, NIST--like that. 
They are all getting big increases, and I am really glad they 
are.
    I am really glad they are because the National Science 
Foundation can do a great deal. NIST can do a great deal. NASA 
can do a great deal. And Dr. John Holdren, of course, is 
marvelous and presides over much good.
    But I just--I cannot live with the thought of NOAA being 
moved to the Department of the Interior. I do not know whose 
idea it was. I do not know how we can stop it, but I pledge to 
you I will do everything I possibly can.
    And that is just not to make you happy, Dr. Lubchenco, but 
it is to make the country better. To keep NOAA where it is, to 
keep it on track in a very distinguished operation.
    I thank the Chair.
    Senator Begich. Senator Lautenberg, did you have a quick 
opening before we go to individuals to testify?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I will try to make it quick.
    Senator Begich. I will leave it at that.
    Senator Lautenberg. In any event, thanks, Mr. Chairman, for 
giving us a chance to sit with our friends from NOAA and the 
Coast Guard. And as Commandant Papp knows, I have been a fan of 
the Coast Guard for a long time. And I am always amazed at 
their ability to carry out functions that continue to expand 
their responsibility and very often in the face of cuts in 
resources to do it.
    So carry on, Commandant. We like what you do, and 
especially, we like the fact that New Jersey is a home for the 
service. And I look at a couple of other States that are 
seaside, and Mr. Chairman, I know that in West Virginia, you 
got a giant-sized port that people do not think exists there.
    [Laughter.]
    Senator Lautenberg. Now do I get more time? Anyway, our 
oceans are not just beautiful environmental resources. They are 
sources of vital strength in America. And New Jersey, for 
instance, we have got coastal businesses generating almost 
500,000 jobs and pumping $50 billion a year into the state's 
economy.
    And during 2011--and I will not prolong this, Mr. 
Chairman--but I do want to say that during 2011, the Port of 
New York and New Jersey, largest on the east coast, supported 
more than 270,000 jobs, $37 billion in business income. And it 
has never been more important to support the agencies that 
safeguard our shores than at this time, as we try to grow 
ourselves back into a steadier economic presence.
    And the Coast Guard plays such an important role in keeping 
our interests safe. And as I said, the agency is consistently 
asked to do more with less.
    So I am disappointed that some steep cuts mandated by last 
summer's debt deal, which I opposed, forced a reduction in the 
budget request for Coast Guard. The brave men and women of the 
Coast Guard never let us down, and it is critical that the 
resources be there that they need to complete the missions that 
we have assigned them.
    The budget request for NOAA would provide a 3 percent 
increase for that agency's critical work. However, the budget 
proposes eliminating the fisheries lab at Sandy Hook. And it is 
a peninsula along the New Jersey coast, NOAA operates the labs 
that perform research on critical issues like ocean 
acidification, poisoning marine life, destroying ecosystems.
    These are serious, critical issues, and we must not stand 
by and let it happen. Make no mistake, closing this lab will 
undermine NOAA's ability to carry out its mission to conserve 
and manage America's coastal and marine resources.
    Mr. Chairman, I close with this. Sandy Hook is also a 
unique facility because it is so near one of the largest 
centers of population in our country, near New York City. It 
allows us to study the effect of human populations on the 
fisheries and ocean environments.
    The administration has proposed moving Sandy Hook to a town 
with a small population, fewer than 1,000 people. And marine 
scientists at Rutgers recently said, and I quote, ``These are 
much different areas. They are certainly not as urban. They do 
not face the same problems that we face here in New Jersey 
with, again, this large population.''
    So, Mr. Chairman, I have little to add, but I would ask 
consent to put my full statement in the record.
    Senator Begich. Without objection.
    Senator Lautenberg. Thank you.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,

    Our oceans aren't just critical environmental resources--they're 
also vital sources of America's economic strength.
    In New Jersey, coastal businesses generate almost five hundred 
thousand jobs and pump fifty billion dollars into the state's economy 
each year. During 2011, the Port of New York and New Jersey--the 
largest on the East Coast--supported more than two hundred and seventy 
thousand jobs and thirty seven billion dollars in business income. This 
is why it's never been more important to support the agencies that 
safeguard our shores.
    The United States Coast Guard plays an essential role in keeping 
our oceans safe, yet the agency is consistently asked to do more with 
less. I am disappointed that the steep cuts mandated by last summer's 
debt deal--which I opposed--have forced a reduction in the budget 
request for the Coast Guard. The brave men and women of the Coast Guard 
never let us down, and it's critical that we give them the resources 
they need to complete their missions.
    The budget request for the National Oceanic and Atmospheric 
Administration would provide a 3 percent increase for the agency's 
critical work. However, the budget proposes eliminating the fisheries 
lab at Sandy Hook, a peninsula along the New Jersey coast. This NOAA-
operated lab performs research on critical issues like ocean 
acidification, which is poisoning marine life and destroying 
ecosystems. Make no mistake: closing this lab will undermine NOAA's 
ability to carry out its mission to conserve and manage America's 
coastal and marine resources.
    Sandy Hook is also unique because it is near New York City, which 
allows us to study the effect of human populations on fisheries and 
ocean environments. The Administration has proposed moving the Sandy 
Hook research to a town with fewer than one thousand people. A marine 
scientist at Rutgers University recently said, ``Those are much 
different areas; they're certainly not as urban. They just don't face 
the same problems we face here in New Jersey.''
    This proposal to eliminate the lab comes just a few months after 
the Administration recognized the lab for a half-century of significant 
scientific achievements. During that time, the lab has built vital 
research partnerships with New Jersey fishermen and local universities. 
Closing its doors would put an end to those valuable and longstanding 
relationships.
    I've written to President Obama and urged him to reconsider his 
decision. I've also written to the Appropriations Committee--and I am 
hopeful we can all work together to make sure this lab is able to 
continue the important work it does.
    I look forward to hearing from our witnesses about the valuable 
contributions they make to the protection of our oceans--and I stand 
ready to work with them to ensure their continued success.

    Senator Begich. Thank you very much.
    Let me, as without objection, Senator Rockefeller's 
statement will be in the record also.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    The importance of National Oceanic and Atmospheric Administration 
(NOAA) in helping Americans and West Virginians prepare for and respond 
to dangerous weather was on display during last week's weather events. 
News reports indicate that agencies had nearly perfect predictions and 
issued timely warnings about the path of storms.
    This is an example of the valuable role NOAA plays. In my state, we 
did not lose any lives, and I credit that in part to the fact that we 
were warned that severe weather was on the way. Yet, the storms caused 
tremendous property damage, and I am working with the Administration to 
secure Federal aid to facilitate speedy restoration for my state. Other 
areas of the country weren't as lucky. In the South and Midwest, a 
deadly rash of tornadoes ripped through communities. I offer my 
sorrowful condolences to the families who have been impacted.
    A few weeks ago, a bill I authored was signed into law that will 
build a nationwide, wireless communications network designed to connect 
West Virginia's and our Nation's first responders during emergencies. 
After the recent weather events, I know we can all appreciate how 
critical it is to make sure our firefighters, police officers, and EMS 
workers have the tools they need to get the job done in times of 
emergency. I intend to work with NOAA to make sure this law is 
implemented with as few costly implications to their current satellites 
and radio operations as possible.
    Last year, deadly weather killed more than a thousand people across 
the Nation and caused over $53 billion in property damage. These events 
demonstrate the need to further improve our weather and warning systems 
that help Americans make better decisions during emergencies.
    I'm pleased the Administration is now working more aggressively to 
keep weather satellites on track and on budget, but I'm troubled by the 
proposed cuts to local forecasting jobs across the country, as well as 
the decision to forego several cost-effective weather technology 
innovations that would significantly improve storm predictions. The FY 
2013 budget request for NOAA is $5.1 billion. I have questions about 
several of the proposed program terminations, particularly with regard 
to weather services and restoration programs.
    We are also here today to discuss the President's request of $9.97 
billion to fund the Coast Guard's operating expenses, ongoing surface 
and air asset fleet recapitalization, and other needs. The Coast Guard 
has served this Nation with distinction and honor throughout its nearly 
220 year history. I love baseball, so I'm big on stats. Here are a few 
Coast Guard stats from 2011: Lives saved by Coast Guard Search and 
Rescue: 3,804; pounds of narcotics interdicted: 205,000; and number of 
crewmembers and passengers screened prior to arrival in U.S. ports: 
28.7 million.
    As evidenced by the stats I mentioned, Americans have largely come 
to expect an unmatched level of excellence and professionalism from the 
Coast Guard both at home and abroad. They deserve all the support we 
can give them.
    Both the Coast Guard and NOAA are agencies that Americans depend on 
in times of need, they are crucial to our safety, and I look forward to 
our witnesses' testimony so we can learn more about their funding needs 
for the coming fiscal year.

    Senator Begich. Let us start the conversation. First, we 
will start with Admiral Papp, Commandant of the United States 
Coast Guard. Please?

  STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Papp. Well, thank you, Chairman Begich.
    Chairman Rockefeller, thank you as well, Senator 
Lautenberg, and then, finally, Ranking Member Senator Snowe. 
And thank you, ma'am, for your many years of service, both in 
the Senate and being such a great friend to the United States 
Coast Guard.
    I want to thank you all for the very kind words about the 
crew of 6535.
    There are a couple of things that only the Commandant of 
the Coast Guard can do, and that is usually associated with 
speaking for the entire Coast Guard family. Tomorrow, I will 
travel down to Mobile, Alabama, to the aviation training center 
to speak to the families of the lost crew members and also our 
greater Coast Guard family that will assemble there.
    But the other thing is the Commandant of the Coast Guard 
needs to speak to the needs of our Coast Guard family as well, 
and doing the former really strengthens me even more to speak 
to the latter, which I am doing today.
    Now, this is another storm for us to face, but we have 
weathered many storms over our 222 years in the Coast Guard, 
and we have adapted to operate in times of peace and conflict 
and continually responded to meet the emerging maritime 
challenges.
    Today is no different. The Coast Guard men and women are 
confronting a diverse array of maritime threats--transnational 
smuggling, illegal fishing on the high seas, increasing human 
activity driven by the economic opportunity of ice-diminished 
Arctic Ocean, and the scourge of piracy.
    Just this past weekend, the Coast Guard cutter NORTHLAND 
was on patrol off South America when its embarked helicopter 
sighted a vessel with three outboard engines and numerous bales 
located on deck. The go-fast vessel refused to stop, even after 
the helicopter fired warning shots.
    So the marksman put some rounds into the outboard engines 
and stopped it, and we recovered 54 bales of pure cocaine. 
Sixteen hundred kilos, nearly 2 tons of cocaine taken out of 
the system, worth an estimated street value of $42 million if 
it reached our country.
    Contrast this situation to when cocaine does make it ashore 
in Central America. It is broken down into much smaller loads, 
sometimes just a kilo, for transport and sale, and it makes it 
significantly harder for land-based law enforcement to 
interdict it. And as it travels, it creates a cascading wave of 
destabilization, crime, and social harm that spills across our 
Southwest borders and into our streets.
    I provided a slide which shows some of the threat factors 
that the Coast Guard deals with. These threat factors mostly 
represent our sea lanes of trade from other countries which 
support American prosperity, but they are also there for 
transnational criminal organizations as well.
    Illicit trafficking is just one of the many maritime 
threats our nation is facing, and if we do not have the tools 
to confront these threats, it poses a significant risk to 
America's maritime prosperity because 95 percent of our trade 
is carried out by sea. This is why responsibly rebuilding the 
Coast Guard and providing our hard-working Coast Guardsmen with 
the tools they need to do their job remains my absolute top 
budget priority.
    Now the good news is since September 11, 2001, because of 
your support, we have taken numerous risks to mitigate our 
risks inside the ports and along the near shore environment. We 
have invested in more small boats, more capable aircraft, and 
more people to operate them. We have deployed a rescue distress 
communications system that is throughout most of the 
continental United States now, including the Great Lakes.
    We have unified our field commands through the creation of 
sector commands to fully integrate and leverage our prevention 
and response activities. Using the authorities under the 
Maritime Transportation Security Act, we have enhanced our 
regulatory inspection and compliance programs, and we have 
built out a highly effective, deployable specialized forces 
security operations in groups that can move between the ports. 
We have also strengthened our partnerships with the many 
Federal, state, and local agencies that we operate alongside.
    So while there will always be work to do, I can say without 
a doubt that in my nearly four decades of service in the Coast 
Guard, our shore, boat, and patrol forces are the best 
resourced that I have ever seen them. But we never want to wait 
until the threats get into our ports or on our shores before we 
deal with them. That is purely playing defense. What we need to 
do is play offense, too, and that is to intercept the threats 
before they reach our shores.
    So back to the cutter NORTHLAND. The condition of our 
offshore forces, especially our major cutters, is a much 
different story. Despite our best efforts from our crews and 
the support of this committee, the state of our major cutter 
fleet, most of which is in excess of 40 years of age, is deeply 
concerning to me.
    Our legacy high-endurance cutters are only achieving about 
70 percent of their programmed underway hours because of major 
mechanical failures. Compounding this challenge is the fact 
that the United States Navy, whom we partner with to patrol 
offshore regions like the transit zone, is also reevaluating 
its fleet size and its patrol commitments.
    Navy ships such as the Perry class frigates, which are 
critical to the counterdrug mission, are leaving the service. 
This is also cause for concern because the key to interdicting 
threats offshore is maintaining a persistent presence. If we do 
not have the major cutters that are capable of operating 
independently in the transit zone and along the trade routes, 
we cannot mount a response. It is just that simple.
    Over the last year, over 700 metric tons of cocaine moved 
through the Western Hemisphere transit zone. But despite having 
actionable intelligence, every week we know that drugs are 
being missed on the water because we lacked a major cutter to 
disrupt and interdict the smugglers.
    Other maritime threats were also on the rise. The expanding 
global population is placing pressure on our fish stocks and 
increasing the demand for fossil fuel. As a maritime nation and 
as an Arctic nation, we require major cutters to patrol and 
ensure stewardship of these other deep sea resources.
    This is why we must continue to build our national security 
cutters such as the sixth, which is in this budget, as quickly 
as possible. I am extremely grateful to the President and the 
Secretary for supporting not only Number 6, but also giving us 
the money to kick off a replacement for our polar icebreakers.
    Keeping these projects moving along lowers our costs. It 
maintains momentum that has allowed us to put national security 
cutters 4 and 5 on contract for nearly the same price. There 
are at least two other reasons for our recent acquisition 
successes. Number one, your strong support and encouragement 
and, number two, our highly capable acquisitions workforce.
    And today, we are poised to build ships and aircraft like 
never before. What we need now is the money. And many of our 
acquisition programs are mature. We have overcome the learning 
curves. We have taken advantage of opportunities, and we are 
reaping the benefits of refined production processes and 
trained builders. In order to deliver our new assets as fast 
and inexpensively as possible, we need to keep the production 
lines running.
    Beyond our major cutters, we have also delivered the first 
fast response patrol boat, and we have 11 more on order. We 
have delivered 13 maritime patrol aircraft. The last two 
arrived ahead of schedule. And we have also delivered 83 of our 
response boats medium to our boat stations.
    The ships and aircraft we are building today will define 
the Coast Guard's ability and capability for the next 50 years, 
the capability we need to remain true to our motto, ``Semper 
Paratus''--``always ready''--as we enter our third century of 
service to the Nation.
    So I thank you for this opportunity to come and talk about 
the needs of our Coast Guard family, and I look forward to 
answering your questions.
    Thank you.
    [The prepared statement of Admiral Papp follows:]

     Prepared Statement of Admiral Robert J. Papp, Jr., Commandant,
                            U.S. Coast Guard
Introduction
    Good morning Mr. Chairman and distinguished members of the 
Committee. Thank you for the continuing support you have shown to the 
men and women of the United States Coast Guard, including the funding 
provided in the Fiscal Year (FY) 2012 Consolidated Appropriations Act 
to recapitalize the aging fleet and sustain front-line operations.
    This year marks our 222nd year of protecting Americans on the sea, 
America from threats delivered by the sea and the sea itself. 
Throughout this period, our unique authorities, capable assets and 
determined personnel have adapted to meet the Nation's evolving 
maritime safety, security and stewardship needs. We are locally based, 
nationally deployed and globally connected.
    I am here today to discuss the Coast Guard's FY 2013 Budget 
Request. Before discussing the details of the request, I would like to 
take this opportunity to discuss some of the Coast Guard's recent 
operational successes, our value and role in the Department of Homeland 
Security, and in service to the Nation.
    Over the past year, Coast Guard men and women--Active Duty, 
Reserve, Civilian and Auxiliarists alike--continued to deliver premier 
service to the public. In the Midwest, Coast Guard Disaster Assistance 
Response Teams were among the first responders to residential areas 
impacted by severe flooding. In the Western Caribbean, Coast Guard 
Medium Endurance Cutters and Seagoing Buoy Tenders interdicted and 
supported the multi-agency recovery of Self-Propelled Semi-Submersible 
vessels. These ``drug subs'' are designed for one specific purpose--to 
deliver multi-ton loads of pure cocaine bound for our shores, streets 
and schools. While the use of drug subs is increasingly popular in the 
Eastern Caribbean, these interdictions mark the first time we have 
encountered drug subs in the Western Caribbean. In the Arctic, the 
Coast Guard icebreaker HEALY and her crew broke their way through 800 
miles of Bering Sea ice to enable the Motor Vessel Renda to deliver 1.3 
million gallons of fuel to the 3,600 people of Nome, Alaska after 
extreme weather and ice formation precluded safe delivery of this vital 
commodity.
    Last year, the Coast Guard responded to 20,510 Search and Rescue 
cases and saved over 3,800 lives; seized over 75 metric tons of cocaine 
and 18 metric tons of marijuana destined for the United States; seized 
40 vessels, detained 191 suspected smugglers; conducted over 10,400 
annual inspections of U.S. flagged vessels; conducted 6,200 marine 
casualty investigations; conducted more than 9,000 Port State Control 
and Security examinations on foreign flagged vessels; and responded to 
3,000 pollution incidents.
    I am pleased to advise you that the Coast Guard recently accepted 
delivery of the lead Sentinel Class Fast Response Cutter, the BERNARD 
C. WEBBER. Sixty years ago, on February 18, 1952, Boatswain's Mate 
First Class Webber and his three-man 36-foot motorized lifeboat crew 
rescued 32 souls, one by one, from the 503-foot Tank Vessel Pendleton 
after it broke in two in a Nor'easter off Cape Cod featuring 60-foot 
seas, 70-knot winds and blinding snow. Petty Officer Webber's 
seamanship, courage and leadership serve as an enduring reminder of the 
Coast Guard's value to the Nation.
    The FY 2013 Budget represents a critical inflection point--the 
ships, boats and aircraft we are investing in today are vital to 
ensuring the Coast Guard remains ready to respond to maritime threats 
and hazards, well into the future. Indeed, these resources will not 
just shape, but in a large part will define the Coast Guard's next 
fifty years of capability. We are also exercising resource and 
operational stewardship while simultaneously preparing for the future. 
We recently completed a review of doctrine, policy, and our operations 
and mission support structure to ensure we are focusing resources and 
forces where they are most needed. This prioritization is reflected in 
our FY 2013 budget submission, which focuses on balancing current 
operations with our need to recapitalize for the future. However, we 
must do so in a manner that sustains our capability to safeguard lives, 
protect the environment and facilitate safe and secure commerce 
throughout our Maritime Transportation System--a system which carries 
95 percent of all U.S. foreign trade and accounts for nearly $700 
billion of the U.S. gross domestic product and 51 million U.S. jobs.
    The Coast Guard's value and role:

  <bullet> We protect those on the sea: leading responses to maritime 
        disasters and threats, ensuring a safe and secure Maritime 
        Transportation System, preventing incidents, and rescuing those 
        in distress.

  <bullet> We protect America from threats delivered by the sea: 
        enforcing laws and treaties, securing our ocean resources, and 
        ensuring the integrity of our maritime domain from illegal 
        activity.

  <bullet> We protect the sea itself: regulating hazardous cargo 
        transportation, holding responsible parties accountable for 
        environmental damage and cleanup, and protecting living marine 
        and natural resources.
FY 2013 Request
    In recognition of the current fiscal environment, the Coast Guard's 
FY 2013 Budget strikes the optimal balance between current operations 
and investment in future capability to sustain the Coast Guard's 
ability to execute its missions, and address the most pressing 
operational requirements. This budget request includes investment in 
new assets which are critical to ensure the Coast Guard remains capable 
of carrying out its missions today and well into the future. 
Accordingly, the Coast Guard's FY 2013 Budget priorities are to:

  <bullet> Responsibly Rebuild the Coast Guard

  <bullet> Efficiently Preserve Front-line Operations

  <bullet> Strengthen Resource and Operational Stewardship

  <bullet> Prepare for the Future

    Highlights from our request are included in Appendix I.
Responsibly Rebuild the Coast Guard
    The Coast Guard continues to focus resources on recapitalizing 
cutters, boats, aircraft, and Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance systems, 
critical to sustaining the ability to accomplish missions well into the 
future. This budget request fully funds the sixth National Security 
Cutter, strengthening the Coast Guard's long-term major cutter 
recapitalization effort to replace its aged, obsolete High Endurance 
Cutter fleet as quickly as possible. The FY 2013 investments are 
critical to replacing and sustaining aging in-service assets, and are 
key to maintaining future capability.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Coast Guard Cutter WAESCHE conducts at-sea refueling operations 
for the first time in the ship's history.

Efficiently Preserve Front-line Operations
    To ensure the Coast Guard remains ready to meet the Nation's safety 
and security requirements, the FY 2013 Budget request provides a 
balance between sustaining front-line operational capacity and 
rebuilding the Coast Guard. The FY 2013 Budget provides funding to 
operate and maintain Coast Guard assets and sustain essential front-
line operations. Key investments include funding the operation of new 
assets delivered through acquisition programs and investment in 
military workforce pay and benefits.
Strengthen Resource and Operational Stewardship
    The FY 2013 Budget meets essential mission needs while 
simultaneously preparing for new and exigent demands. Through a 
comprehensive internal review of doctrine, policy, operations and 
mission support structure, the Coast Guard has focused resources and 
forces where they are most needed, while recognizing the current fiscal 
challenges. The FY 2013 budget also proposes administrative and 
programmatic reductions to improve efficiency and service delivery, 
while continuing investment in Coast Guard activities that provide the 
highest return on investment.
Prepare for the Future
    The Coast Guard continuously identifies and prepares for emerging 
maritime threats facing the Service and the Nation. The FY 2013 Budget 
request recognizes the criticality of the Arctic as a strategic 
National priority, given increasing presence and interest by other 
Nations, the preponderance of natural resources available in this 
region, and increasing maritime commercial and recreational activity.
Conclusion
    The role of the Coast Guard has never been more important. As we 
have done for well over two centuries, we remain ``Always Ready'' to 
meet the Nation's ever-broadening maritime needs, supported by the FY 
2013 request. I request your full support for the funding requested for 
the Coast Guard in the President's FY 2013 Budget. Again, thank you for 
the opportunity to testify before you today. I am pleased to answer 
your questions.
              Appendix I--Fiscal Year 2013 Budget Request
Responsibly Rebuild the Coast Guard
Surface Assets [$879.5M (0 FTE)]
    The budget provides $879.5 million for surface asset 
recapitalization and sustainment initiatives, including:

  <bullet> National Security Cutter (NSC)--Provides production funding 
        for the sixth NSC; NSCs will replace the aging fleet of High 
        Endurance Cutters, first commissioned in 1967. The acquisition 
        of NSC-6 is vital for performing DHS missions in the far off-
        shore regions, including the harsh operating environment of the 
        Pacific Ocean and Bering Sea, as well as providing for robust 
        homeland security contingency response.

  <bullet> Fast Response Cutter (FRC)--Provides production funding to 
        procure Fast Response Cutters (FRC) 19-20. These assets replace 
        the aging fleet of 110-foot patrol boats, and provide the 
        coastal capability to conduct Search and Rescue operations, 
        enforce border security, interdict drugs, uphold immigration 
        laws, prevent terrorism, and ensure resiliency to disasters. 
        Hulls #17--20 will be procured in FY 2013 using FY 2012 and FY 
        2013 funds, maintaining FRC production at the current rate.

  <bullet> Offshore Patrol Cutter (OPC)--Continues initial acquisition 
        work and design of the OPC. The OPC will replace the Medium 
        Endurance Cutter class to conduct missions on the high seas and 
        coastal approaches.

  <bullet> Medium Endurance Cutter (MEC)--Completes the Mission 
        Effectiveness Program for the 270-foot MECs at the Coast Guard 
        Yard.

  <bullet> Survey and Design--Initiates survey and design work for a 
        mid-life availability on the 175-foot Coastal Buoy Tender 
        class.
Air Assets [$74.5M (0 FTE)]
    The budget provides $74.5 million for the following air asset 
recapitalization or enhancement initiatives, including:

  <bullet> HC-144--Funds production of the 18th HC-144A Maritime Patrol 
        Aircraft. The HC-144A fleet will provide enhanced maritime 
        surveillance and medium airlift capability over the legacy HU-
        25 aircraft that they replace. The HU-25s will all be removed 
        from service by the end of their planned service life, in FY 
        2014.

  <bullet> HH-65--Funds sustainment of key components requiring 
        recapitalization.
Asset Recapitalization--Other [$76.5M (0 FTE)]
    The budget provides $76.5 million for the following equipment and 
services:

  <bullet> Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance (C4ISR)--Deploys standardized 
        C4ISR capability to newly fielded NSCs, C-130s and MPAs, and 
        develops C4ISR capability for other new assets.

  <bullet> CG-Logistics Information Management System--Continues 
        development and prototype deployment to Coast Guard operational 
        assets and support facilities.

  <bullet>  Nationwide Automatic Identification System (NAIS)--
        Continues recapitalizing the existing interim NAIS system in 58 
        ports and 11 coastal areas by replacing it with the permanent 
        solution design and technology via the core system upgrade.
Shore Units and Aids to Navigation (ATON) [$69.4M (0 FTE)]
    The budget provides $69.4 million to recapitalize shore 
infrastructure for safe, functional and modern shore facilities that 
effectively support Coast Guard assets and personnel:

  <bullet> Station New York Boat Ramp--Constructs a boat ramp for 
        launching small boats at Station New York, NY, for both the 
        Station and Maritime Safety and Security Team New York.

  <bullet> Air Station Barbers Point--Constructs an aircraft rinse rack 
        facility to properly and effectively rinse C-130 aircraft at 
        Air Station Barbers Point.

  <bullet> Major Acquisition Systems Infrastructure--Commences 
        construction of piers and support facilities for three FRC 
        homeports; construction of an MPA training facility at Aviation 
        Technical Training Center in Elizabeth City, NC; construction 
        of MPA maintenance facility hangar at the Aviation Logistics 
        Center at Elizabeth City, NC.

  <bullet> ATON Infrastructure--Completes improvements to short-range 
        aids and infrastructure to improve the safety of maritime 
        transportation.
Personnel and Management [$117.4M (842 FTE)]
    The budget provides $117.4 million to provide pay and benefits for 
the Coast Guard's acquisition workforce.
Efficiently Preserve Front-Line Operations
Pay & Allowances [$88.9M (0 FTE)]
    The budget provides $88.9 million to fund the civilian pay raise 
and maintain parity of military pay, allowances, and health care with 
the DOD. As a branch of the Armed Forces of the United States, the 
Coast Guard is subject to the provisions of the National Defense 
Authorization Act, which includes pay and personnel benefits for the 
military workforce.
Annualization of Fiscal Year 2012 [$54.2M (260 FTE)]
    The budget provides $54.2 million to continue critical FY 2012 
initiatives.
Operating and Maintenance Funds for New Assets [$47.6M (139 FTE)]
    The budget provides a total of $47.6 million to fund operations and 
maintenance of shore facilities and cutters, boats, aircraft, and 
associated C4ISR subsystems delivered through acquisition efforts. 
Funding is requested for the following assets and systems:

  <bullet> Shore Facilities--Funding for the operation and maintenance 
        of shore facility projects scheduled for completion prior to FY 
        2013.

  <bullet> Response Boat-Medium--Funding for operation and maintenance 
        of 30 boats.

  <bullet> Interagency Operations Center (IOC)--Funding for the 
        operation and maintenance of the Watch Keeper system.

  <bullet> Rescue 21 (R21)--Funding for the operation and maintenance 
        of the R21 System in Sector Sault Ste. Marie and Sector Lake 
        Michigan.

  <bullet> FRC--Operating and maintenance funding for FRCs #8-9 and 
        funding for crews #9-10. These assets will be homeported in Key 
        West, FL. Funding is also requested for shore-side maintenance 
        personnel needed to support FRCs.

  <bullet> HC-144A MPA--Operating and maintenance funding for aircraft 
        #14-15 and personnel funding to operate and support aircraft 
        #15-16.

  <bullet> Air Station Cape Cod Transition--Funding to complete a 
        change in aircraft type allowance, and programmed utilization 
        rates.

  <bullet> Training Systems for Engineering Personnel--Funding to 
        support NSC and FRC training requirements at Training Center 
        Yorktown.

  <bullet> HC-130H Flight Simulator Training--Funding to support 
        aircraft simulator training for HC-130H pilots, flight 
        engineers, and navigators.
St. Elizabeths Headquarters Consolidation [$24.5M (0 FTE)]
    Provides funding to support the Coast Guard's relocation to the DHS 
consolidated headquarters at the St. Elizabeths Campus in Washington, 
D.C. Funding supports the systematic move of equipment, employees, and 
work functions to the new headquarters location, beginning in the third 
quarter of FY 2013.
Strengthen Resource and Operational Stewardship
Asset Decommissionings
    In FY 2013, in addition to the planned decommissioning of legacy 
assets, the Coast Guard will make targeted operational reductions to 
prioritize front-line operational capacity and invest in critical 
recapitalization initiatives.
High Endurance Cutter (HEC) Decommissionings [-$16.8M (-241 FTE)]
    The Coast Guard will decommission the fourth and fifth of the 
original fleet of twelve HECs. With the average cutter age at 43 years, 
the HEC fleet has become increasingly difficult to maintain and sustain 
operationally. The decommissioning of two HECs is critical to support 
ongoing major cutter recapitalization efforts. National Security 
Cutters, including the sixth NSC which is fully funded by this budget 
request, replace the aging HEC fleet.
110-ft Island Class Patrol Boat Decommissionings [-$2.0 M (-35 FTE)]
    The Coast Guard will decommission three 110-ft patrol boats in FY 
2013. The 110-ft patrol boats are being replaced by the FRC.
High Tempo High Maintenance Patrol Boat Operations [-$33.5M (-206 FTE)]
    The Coast Guard will terminate the High Tempo High Maintenance 
(HTHM) operations program that facilitates augmented operation of 8 in-
service 110-foot patrol boats. Termination of this program coincides 
with commissioning of new FRCs which will mitigate this lost capacity.
Close Seasonal Air Facilities [-$5.2M (-34 FTE)]
    The Coast Guard will improve the efficiency of domestic air 
operations by closing Seasonal Air Facilities and realigning rotary 
wing capacity to provide three medium-range H-60 helicopters to the 
Great Lakes region to replace the H-65s currently in service. Due to 
limited demand for services and improved endurance from the H-60, the 
Coast Guard will discontinue operations at two seasonal Coast Guard Air 
Facilities at Muskegon, MI, and Waukegan, IL.
HU-25 Aircraft Retirements [-$5.5M (-20 FTE)]
    The Coast Guard will retire the three remaining HU-25 aircraft 
assigned to Coast Guard Air Station (CGAS) Cape Cod to allow for the 
transition to HC-144A aircraft. In FY 2013, the Coast Guard will 
deliver and place in full-operational status three HC-144A aircraft at 
CGAS Cape Cod.
Management Efficiencies
    The budget proposes administrative and programmatic efficiencies to 
improve service delivery, while continuing investment in Coast Guard 
activities that provide the highest return on investment.
DHS Enterprise-Wide Efficiencies [-$56.3M (-24 FTE)]
    The Coast Guard will seek efficiencies and cost reductions in the 
areas of IT infrastructure, government vehicles, professional services 
contracts, non-operational travel, GSA leases, permanent change of duty 
station relocation costs for military personnel, and logistics services 
by consolidating/centralizing functions in geographically concentrated 
areas.
Programmatic Reductions
    In FY 2013, the Coast Guard will make targeted reductions in base 
program areas. These base adjustments recognize changes in requirements 
for selected activities and redirect resources toward higher-
priorities, including critical recapitalization projects and essential 
frontline operations.
Headquarters Personnel and Support Reduction [-$12.7M (-131 FTE)]
    The Coast Guard will eliminate 222 Headquarters positions through 
attrition and implementation of a civilian hiring freeze in the 
Washington, D.C. area. This reduction preserves the Coast Guard's 
critical capabilities to conduct front-line operations; mission 
support; and development and implementation of national policies and 
regulations.
Recruiting Program Reduction [-$9.8M (-39 FTE)]
    The Coast Guard will make reductions to the Recruiting program and 
Selective Reenlistment Bonuses, which are not needed based on the 
current employment outlook.
Other Targeted Program Reductions [-$6.2M (-62 FTE)]
    The Coast Guard will make targeted reductions to the Intelligence 
workforce, Organizational Performance Consultants, and non-reimbursable 
Detached Duty billets.
Targeted Operational Reductions [-$3.7M (-32 FTE)]
    Based on an internal review and assessment of operational risk, the 
Coast Guard proposes to make targeted operational reductions by 
reorganizing the international Mobile Training Team, consolidating PWCS 
Airborne Use of Force (AUF) capability at Elizabeth City, NC; and San 
Diego, CA, and eliminating the Vintage Vessel National Center of 
Expertise.
Prepare for the Future
Polar Icebreaker [$8.0M<SUP>*</SUP> (0 FTE)]
---------------------------------------------------------------------------
    \*\ Note: Funding amounts within this section are included in 
totals listed within the Responsibly Rebuild the Coast Guard section.
---------------------------------------------------------------------------
    Initiates survey and design of a new Polar Icebreaker to ensure the 
Nation is able to maintain a surface presence in the Arctic well into 
the future.
Alaska Shore Facilities [$6.1M* (0 FTE)]
    Provides funding to recapitalize and expand helicopter hangar 
facilities in Cold Bay, AK, and recapitalize aviation re-fueling 
facilities at Sitkinak, AK. These investments will sustain the Coast 
Guard's ability to establish effective presence in the Bering Sea and 
Aleutian Chain--the ``gateway'' to the Arctic.

    Senator Begich. Thank you very much, Admiral Papp.
    Let me now ask Administrator Jane Lubchenco, Under 
Secretary of Commerce for Oceans and Atmosphere, Administrator 
of the National Oceanic and Atmospheric Administration. You 
have a long title.
    Dr. Lubchenco. I do, indeed.
    [Laughter.]
    Senator Begich. Dr. Lubchenco?

STATEMENT OF JANE LUBCHENCO, Ph.D., UNDER SECRETARY OF COMMERCE 
  FOR OCEANS AND ATMOSPHERE; AND NOAA ADMINISTRATOR, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Lubchenco. Chairman Begich, Ranking Member Snowe, 
Chairman Rockefeller, Senator Lautenberg, I, too, would like to 
begin by extending NOAA's condolences to the families who lost 
loved ones, both in the recent Coast Guard tragedy, as well as 
last week's tornadoes.
    NOAA is proud to be the nation's first line of preparedness 
against severe weather. 2012 now ranks in the top 5 years for 
the number of tornadoes from January 1 through March 2, since 
detailed records began in 1950.
    Last week, our forecasters were able to give communities 3 
days to prepare for Friday's storms, and lifesaving warnings 
were issued an average of 16 minutes prior to each tornado 
striking. These events underscore the importance of our 
commitment to a weather-ready nation.
    I am honored to be here today to discuss the President's 
Fiscal Year 2013 budget. Tough choices are required, and NOAA 
has prioritized our activities. Our budget reflects our 
dedication to providing some of the most critical lifesaving 
and job-supporting services that American citizens and 
communities rely upon.
    NOAA had outstanding accomplishments in 2011. You have 
mentioned some. Here are three more. NOAA and the other natural 
resource damage trustees reached an unprecedented agreement 
with BP to provide $1 billion for early restoration projects in 
the Gulf of Mexico.
    NOAA also put in place annual catch limits and 
accountability measures for almost all 528 federally managed 
fish stocks and complexes. There is still work to be done, but 
the nation's fisheries are on the long path to sustainability.
    And NOAA skillfully forecasted Hurricane Irene's track as 
she threatened the east coast.
    These and other accomplishments set the stage for our 
Fiscal Year 2013 request, which totals $5.1 billion. This is an 
increase of $154 million, 3 percent above Fiscal Year 2012.
    We sought administrative savings and made tough choices to 
enable our top priorities. NOAA anticipates reaching our Fiscal 
Year 2012 target of $68 million in administrative savings, and 
an additional $16 million is targeted for Fiscal Year 2013.
    One of the greatest challenges facing NOAA is the 
continuity of our satellite operations. We greatly appreciate 
the broad, bipartisan congressional support these programs 
received last year.
    The Joint Polar Satellite System and the Geostationary 
Operational Environmental Satellite R Series programs are two 
of our highest priorities. We have done everything possible to 
contain costs. Funding is critical to minimize the duration of 
the expected gap between the recently launched Suomi NPP 
satellite and JPSS.
    2011 rewrote the record books on extreme weather. In 
response, the National Weather Service recently launched an 
initiative called Weather-Ready Nation that envisions a society 
prepared for and responding to weather events. The 2013 budget 
requests $972 million for the National Weather Service.
    The Fiscal Year 2013 request also includes $413.8 million 
for the Office of Oceanic and Atmospheric Research, focusing on 
the highest-priority services for building a weather-ready 
nation. This also requires NOAA ships and planes, which are 
critical data acquisition platforms.
    Our coastal communities are major contributors to the 
economy. Commercial and recreational fishing industries play a 
key role supporting 1.5 million full and part-time jobs and 
contributing $79 billion to GDP in 2010.
    We request $880 million for NOAA fisheries, including an 
increase of $4.3 million to expand stock assessments. Vibrant 
coastal communities depend upon healthy oceans and thriving 
maritime commerce. NOAA's request includes $478 million for the 
National Ocean Service. Port activities alone are responsible 
for 8.4 million American jobs and nearly $2 trillion in 
economic output.
    I greatly appreciate the opportunity to be here today and 
to talk about our budget. I also want to say what a special 
pleasure it is to be here with Admiral Papp. The interactions 
between NOAA and the Coast Guard are very positive and I think, 
indeed, a model for interagency collaboration. We have great 
interactions, great synergies, nicely complementary missions.
    Thank you very much.
    [The prepared statement of Dr. Lubchenco follows:]

    Prepared Statement of Jane Lubchenco, Ph.D., Under Secretary of 
 Commerce for Oceans and Atmosphere; and NOAA Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
    Chairman Begich, Ranking Member Snowe, and members of the 
Committee, thank you for your leadership and the continued support you 
have shown the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA). I am honored to be here as the Under 
Secretary of Commerce for Oceans and Atmosphere and Administrator for 
NOAA to discuss the FY 2013 President's Budget. The FY 2013 budget is 
essential to ensuring that we can meet the Nation's demands for 
accurate weather prediction today and in the future, safe, navigable 
waterways, well managed coastal resources, sustainable fisheries, and 
robust climate analysis and prediction services. To ensure that we can 
deliver on these core services, we have prioritized our activities, 
made limited targeted investments, reduced or terminated activities 
that while important could not be accommodated in the current fiscal 
environment without threatening our capacity to deliver our core 
services and sought out administrative efficiencies to ensure that 
every dollar is maximized.
    President Obama has spoken about moving America forward and laying 
out a blueprint for an economy that is built to last. Secretary Bryson 
has answered this charge, tasking the Department of Commerce to assist 
Americans by fostering economic recovery and increasing U.S. 
competitiveness. As part of the effort, NOAA will strengthen our core 
foundational programs, such as the Nation's next generation weather 
satellites; promote sustainable fisheries and the fishing industries; 
invest in weather and ocean science; and work to sustain coastal 
resources, communities, and economies. We will work towards a society 
that is prepared for, and responds to, weather-related events, and we 
will provide timely access to environmental information from satellites 
and other scientific technologies.
    Just as every citizen depends on NOAA for timely weather 
information, from the 5-day forecast to life-saving weather alerts, so 
too do businesses rely on NOAA. NOAA weather services help airlines 
save millions of dollars and operate safely by avoiding severe weather. 
Marine shipping companies (transporting 78 percent of the goods into 
and out of the United States \1\) and fishermen (putting healthy 
seafood on our plates or enjoying a family day out on the water) all 
trust NOAA's nautical charts and tide and current data to operate 
safely and efficiently. Farmers rely on our long-range forecasts to 
decide which crops to plant and when. Coastal communities rely on 
NOAA's stewardship of fisheries and coastal resources to support local 
industries, such as tourism and fish processors. The list goes on and 
on. It is hard to imagine a sector of the economy that does not depend 
on NOAA in one way or another. We support stewardship that makes 
economic sense for a healthy environment and economy, and invest in 
science for today for a better tomorrow.
---------------------------------------------------------------------------
    \1\ U.S. International Trade and Freight Transportation Trends. May 
2003.
---------------------------------------------------------------------------
    The FY 2013 President's Budget will:

  (1)  Provide life-saving and job-supporting services needed to 
        prepare and protect American citizens, communities, businesses 
        and infrastructure;

  (2)  Provide the core scientific information underlying our mission, 
        and

  (3)  Invest in the resiliency of our vibrant coastal communities.

    The NOAA budget reflects difficult choices and continues our 
commitment to find efficiencies in our operations while seeking new 
partnerships.
FY 2013 Budget Request and FY 2011 Highlights
    The NOAA FY 2013 proposed budget totals $5.1 billion, an increase 
of $153.9 million, or 3.1 percent above FY 2012. NOAA's staff of 
dedicated professionals, working with extramural researchers, 
industries, and domestic and international partners, are expanding 
meteorological prediction capabilities; enhancing our knowledge of 
climate change; improving coastal resource management; continuing to 
chart our seas and coasts; and enhancing environmental stewardship. 
NOAA is committed to understanding and monitoring our oceans and 
atmosphere, predicting changes in the Earth's environment, and 
conserving and managing ocean and coastal resources, while making sure 
that we deliver as economically as possible the highest level of 
service.
    President Obama has called upon the entire Federal Government to be 
more efficient and effective. As a result, the Department of Commerce 
continues to seek ways to improve the efficiency of programs without 
reducing their effectiveness. Building on NOAA's FY 2012 savings of 
$67.7 million, an additional $15.8 million in savings is targeted for 
FY 2013.
    NOAA had numerous outstanding accomplishments in FY 2011. NOAA and 
the Natural Resource Damage co-trustees reached an unprecedented 
agreement with British Petroleum (BP) to provide $1 billion for early 
restoration projects in the Gulf of Mexico, as a down payment for 
economic and ecological recovery from the 2010 Deepwater Horizon oil 
spill. NOAA put in place annual catch limits and accountability 
measures for almost all 528 federally-managed fish stocks and 
complexes, ensuring that the Nation's fisheries are on the long path to 
sustainability. NOAA skillfully forecasted Hurricane Irene's track with 
a 48-hour track error of 71 nautical miles--20 percent better than the 
5-year mean of 90 nautical miles. And NOAA's National Weather Service 
(NWS) forecasters were able to issue warnings well in advance of 
numerous record-breaking severe weather events, such as 4-month 
advanced warnings for emergency managers and citizens about severe 
flooding in the mid-west. These accomplishments set the stage for our 
FY 2013 request.
    The FY 2013 budget request focuses on three core mission areas, 
beginning with the need for a Weather-Ready Nation.
Weather-Ready Nation: Communities that are Ready, Responsive, and 
        Resilient
    Record weather and climate disasters occurred in 2011, including 
extreme drought, heat waves, floods, unprecedented tornado outbreaks, 
hurricanes, wildfires, a tsunami, and winter storms. Tornadoes, hail, 
and severe thunderstorms caused an estimated $46.5 billion in economic 
losses ($25.8 billion in insured losses) in the United States. Sadly, 
2011 was the deadliest tornado season since 1936, with 552 direct 
fatalities.
    More and more sectors of the U.S. economy are looking for ways to 
increase their resilience to severe weather and reduce the potential of 
significant societal and economic impacts. Even though NOAA was able to 
provide advanced warning of many severe events this year, the loss of 
life and property was still too high. To address these issues, NWS 
launched a new initiative this year called Weather-Ready Nation. NOAA 
envisions a Weather-Ready Nation as a society that is prepared for, and 
responds to, weather-related events. The FY 2013 President's Budget 
supports the highest priority core requirements necessary to address 
NOAA's Weather-Ready Nation goal, requesting $972.2 million for the 
NWS. The request allows the NWS to produce and deliver accurate and 
timely forecasts, provide services in a cost-effective manner, continue 
to work with communities and emergency managers to reduce weather-
related fatalities, and improve the economic value of weather, water, 
and climate information.
    A nationwide survey indicates that 96 percent of the U.S. public 
obtains, either actively or passively, 301 billion forecasts each year. 
Based on an average annual household value of $286 placed on weather 
information, the American public collectively receives $31.5 billion in 
benefits from forecasts each year.\2\
---------------------------------------------------------------------------
    \2\ J. K. Lazo, R. E. Morss, J. L. Demuth, 300 billion served: 
sources, perceptions, uses, and values of weather forecasts. Bulletin 
of the American Meteorological Society, 90(6). (June, 2009).
---------------------------------------------------------------------------
    The FY 2013 budget includes an increase of $7 million to support 
the critical upgrade and update of the NWS Telecom Gateway, the 
backbone of NWS's information delivery system, and an increase of $12.4 
million for ground system readiness to ensure that the NWS is prepared 
to ingest data coming from NOAA's new weather satellites. While these 
increases are required, NWS has developed a new more cost-effective IT 
service delivery solution for maintaining the IT systems at the 122 
Weather Forecast Offices (WFOs). NWS requests a decrease of $9.7 
million to consolidate Information Technology Officer positions at each 
WFO into regional IT collaboration units reducing staffing requirements 
by 80 percent without affecting the quality of services including 
warnings and forecasts. Reducing staff is never easy and NOAA is 
committed to making every effort to reduce staffing through attrition 
and explore offering buyouts or early retirement.
    NOAA's Office of Oceanic and Atmospheric Research (OAR) oversees 
the scientific investments that ensure NOAA's weather and climate 
information is state of the art. The FY 2013 request of $413.8 million 
for OAR focuses on the highest priority and most essential services for 
building a future Weather-Ready Nation. OAR research continually 
improves our warning systems and predictive capacity with programs such 
as the on-going development of the next generation of weather radars, 
Multifunction Phased Array Radar, and hurricane models that are now in 
operation at the National Hurricane Center. One of the largest 
investments NOAA is making in FY 2013 is an increase of $28.1 million 
for a total of $212.7 million in climate research in OAR (A total of 
$342 million is proposed to support the U.S. Global Change Research 
Program). These funds--much of which will be competitively awarded to 
academic institutions--will improve our understanding of the changing 
climate system and its impacts through more sophisticated climate 
modeling, national assessments, external and private-sector 
partnerships, as well as regional climate information and delivery. 
Easily accessible and relevant information is required to help 
communities better prepare for these events and make informed 
decisions. Within that funding level, continued development and use of 
state-of-the-art Earth System Models to address urgent climate issues, 
including sea level rise and Arctic climate change, will be supported 
by an investment of $8 million, and an increase of $4.6 million in 
Arctic monitoring and full ocean depth profiling floats will improve 
seasonal forecasts, as well as our ability to chart ocean and sea ice 
levels. The OAR request also includes an investment of $855 thousand to 
support research into wind boundary layers, a fertile area for clean 
energy generation.
    Further support for a Weather-Ready Nation is found in the FY 2013 
budget request for NOAA's fleet, with a request of $241.1 million for 
the Office of Marine and Aviation Operations. These vessels and 
airplanes are data acquisition platforms crucial to providing 
scientific observations and maintaining our observing systems. This 
budget requests an increase of $2.0 million to provide for more flight 
hours that will be used for hurricane reconnaissance and research 
missions aimed at improving hurricane intensity forecasts, as well as 
observations for accurate and reliable winter storm warnings and 
forecasts, snow pack surveys, and ocean wind data.
    NOAA missions, from issuing accurate hurricane warnings to 
providing timely weather forecasts and accurate seasonal predictions, 
depend on data from an integrated suite of observing systems. These 
systems provide a global picture of the atmosphere and oceans, as well 
as high-definition 3-dimensional views of individual storms. I turn 
next to a crucial component of the suite--NOAA's geostationary and 
polar-orbiting satellites.
Satellites: High-tech Environmental Observations that Help Protect 
        Lives and 
        Property
    One of the greatest challenges facing NOAA today is ensuring 
continuity of satellite operations. NOAA's satellites provide the data 
and information for forecasts and warnings that are vital to every 
citizen. From safe air, land, and marine transportation to emergency 
rescue missions, Americans rely on satellite observations daily. Timely 
and accurate information supports the NWS, Federal and state agencies, 
and local emergency management agencies, enabling advance warnings of 
emerging severe weather such as hurricanes, flash floods, tsunamis, 
winter storms, and wild fires. Along with the skill of NOAA 
meteorologists, NOAA's satellites are critical to the success of 
national forecasts and are the backbone of the global earth observing 
system and the global weather prediction capability. Satellite 
observations also assist NOAA's National Ocean Service (NOS) in 
monitoring coastal ecosystem health, such as coral bleaching, and 
identifying and monitoring potential maritime hazards from sea ice--key 
issues addressed in the National Ocean Policy. Although satellites do 
not observe fish stocks directly, the National Marine Fisheries Service 
(NMFS) can utilize satellite measurements such as sea-surface 
temperature, sea-surface height, ocean color, ocean winds and sea ice 
to characterize critical habitat that influences marine resources.
    The FY 2013 President's Budget Request of $2.0 billion for NOAA's 
National Environmental Satellite Data and Information Service (NESDIS) 
supports the highest priority and most essential services for 
developing, acquiring, and managing satellite and satellite data 
operations. The Joint Polar Satellite System (JPSS) and the 
Geostationary Operational Environmental Satellite-R Series (GOES-R) 
programs are two of NOAA's highest priorities. The FY 2013 request 
reflects the need for increases within the satellite portfolio 
necessary to maintain these crucial instruments. This includes a 
planned increase of $186.4 million for the GOES-R program, as well as 
an investment of $9.4 million for data processing and distribution for 
the Suomi-National Polar-orbiting Partnership mission and the same 
support for the follow-on program, JPSS.
    The next generation of GOES-R is expected to be launched by 2015, 
and will become fully operational by 2017. The increase in FY 2013 
President's Budget for GOES-R is necessary to secure the launch vehicle 
and support further development of the satellite and its instruments. 
This series of satellites will include upgraded technology, such as an 
improved Advanced Baseline Imager (ABI), which will provide faster and 
higher-resolution image scans, covering a larger geographic area. 
Enhanced ABI capabilities will help decrease forecast error and expand 
the list of geostationary products NOAA offers. Improved tropical 
forecasts from GOES-R products are expected to prevent annual losses to 
the recreational boating industry valued at $31 million in 2015.\3\ The 
new ABI technology will also enhance volcanic ash plume tracking, so 
pilots can receive advance warning and be routed around the damaging 
and deadly plumes. The annual net economic benefit to the airline 
industry from these enhancements is estimated to be $58 million in 
2015.\4\
---------------------------------------------------------------------------
    \3-6\ Centrec Consulting Group, LLC. An Investigation of the 
Economic and Social Value of Selected NOAA Data and Products for 
Geostationary Operational Environmental Satellites (GOES). Report to 
NOAA's National Climatic Data Center. Savoy, IL. (February 27, 2007; 
http://www.centrec.com/resources/reports/
GOES%20Economic%20Value%20Report.pdf).
---------------------------------------------------------------------------
    NOAA satellites also help forecast energy demands for communities, 
largely based on temperature forecasts. GOES-R data will allow for more 
accurate temperature forecasts, thereby enabling energy providers to 
better prepare for changes in energy demand. Annual savings for the 
energy sector are expected to be $256 million in 2015.\5\ Finally, 
improved information from GOES-R will enable researchers and 
forecasters to produce more accurate forecasts. That, in turn, will 
result in irrigation water being used more efficiently by farmers. The 
projected annual net economic benefit for the agricultural sector is 
valued at $30 million in 2015.\6\
    Thanks to the Committee's support, the FY 2012 appropriation 
provides a foundation for NOAA to make significant progress towards 
developing the Nation's next generation polar orbiting satellite 
system, the JPSS, and we understand that the overall cost of this 
program needs to be contained. The FY 2013 President's Budget proposes 
to cap the total life cycle cost of JPSS at $12.9 billion and target a 
launch date for the second quarter of 2017 to minimize the duration of 
any gap between the recently launched Suomi NPP satellite and JPSS. 
However, we are still at significant risk. We are almost certain that a 
gap in polar observational satellite data will occur from the projected 
end of life of the current polar mission to the beginning of the 
operational JPSS mission. The loss of NOAA's polar-orbiting satellite 
data would result in an immediate degradation to weather forecast 
models, impacting NOAA's ability to provide advance warnings of severe 
weather that help to protect lives and property.
    NOAA is conducting a comprehensive reevaluation of its space-based 
observation requirements with a goal to maintain and acquire critical 
services that meet the Nation's national environmental data needs. 
NESDIS will continue to pursue collaborative opportunities with other 
national and international agencies and organizations and partner with 
industry, academia, and other research and development agencies. These 
partnerships will bring robust information and service delivery to our 
customers and invest in effective relationships with stakeholders. In 
particular, NESDIS will continue participating in global partnerships, 
such as with the European Organization for the Exploitation of 
Meteorological Satellites, to help the United States and Europe provide 
increased capability to monitor global weather and climate.
    The third core mission area I wish to highlight grows out of NOAA's 
services, stewardship, and scientific work to restore vitality to the 
Nation's coastal population and economy.
Vibrant Coastal Communities
    The Nation's coastal population is expected to increase by more 
than 13.6 million by 2020.\7\ In addition, over half of the U.S. Gross 
Domestic Product is generated in coastal counties.\8\ To meet the 
demands of a burgeoning coastal population and a productive economy, 
NMFS and NOS play critical roles in supporting sustainable resources 
that in turn support sustainable industries and jobs and also provide 
services that make businesses more efficient and safe. NMFS serves the 
Nation through a science-based stewardship of living marine resources, 
while NOS activities support sound decision-making for human, 
ecological, and economic health.
---------------------------------------------------------------------------
    \7\ NOAA's State of the Coast, http://stateofthecoast.noaa.gov.
    \8\ State of the U.S. Ocean and Coastal Economies, NOEP 2009.
---------------------------------------------------------------------------
    The FY 2013 President's Budget reflects some difficult choices. The 
budget proposes reductions to or closures of programs in order to 
support core coastal and ocean stewardship programs. Our coastal 
economies provide the Nation with goods through our ports, food from 
the sea, and vacation destinations for our families and international 
travelers. Our coastal communities help make our economy strong. 
Despite the cuts in this area, NOAA's commitment to providing services 
that support, protect, and serve our coasts is strong.
    The commercial and recreational fishing industries depend on 
healthy and abundant fish stocks, habitats, and marine ecosystems to 
provide lasting jobs, food and recreational opportunities. In total, 
our Nation's fisheries supported 1.5 million full and part-time jobs 
and contributed $79 billion to GDP, $183 billion in sales in 2010.\9\ 
Further, the jobs supported by the commercial fishing industry 
increased from 2009 to 2010 by 16 percent, from 1 million to 1.2 
million.\10\ Fully rebuilt, U.S. fisheries are anticipated to 
contribute $92 billion to GDP and support 2 million jobs.\11\ 
Recreational fishing is also an important industry as trip related 
expenditures contributed $23 billion to GDP, $50 billion in national 
sales impacts, and supported more than 326,000 full and part-time jobs 
across the U.S. in 2010.\12\ In 2010, an estimated 11 million 
recreational saltwater anglers took 73 million saltwater fishing trips, 
spending $4.3 billion on trips and $15 billion on durable fishing 
equipment, such as rods and reels, boats, second homes and other 
goods.\13\
---------------------------------------------------------------------------
    \9,10,12\ Fisheries Economics of the United States, 2010 
(forthcoming, not yet published).
    \11\ NOAA Fisheries internal analysis based upon NMFS Commercial 
Fishing and Seafood Industry Input-Output Model (see: https://
www.st.nmfs.noaa.gov/apex/f?p=160:1:9167963708
01116::NO).
    \13\ Fisheries Economics of the United States, 2010 (forthcoming, 
not yet published).
---------------------------------------------------------------------------
    NOS products and services, which are derived from surveys and 
observations, are perhaps the most visible example of NOS support for 
the American economy and workforce. More than 78 percent of U.S. 
overseas trade (by volume) and 43.5 percent (by value), including nine 
million barrels of imported oil daily, transits through our 
seaports.\14\ Port activities alone are responsible for 8.4 million 
American jobs and nearly $2 trillion in economic output.\15\ NOS 
navigation charts, tide data, and other tools serve as the marine 
transportation ``information infrastructure'' that enables marine 
transportation users to optimize economic opportunity.
---------------------------------------------------------------------------
    \14\ 2003 Pocket Guide to Transportation Table 5-5, U.S. Department 
of Transportation.
    \15\ http://www.economics.noaa.gov/.
---------------------------------------------------------------------------
    NOAA serves as the trustee for thirteen national marine 
sanctuaries. Across all national marine sanctuaries, about $4 billion 
is generated annually in local coastal economies from diverse 
activities which include: commercial and recreational fishing, 
research, recreation-tourist activities such as whale watching, 
snorkeling and diving on coral reefs and recreational boating. The 
National Marine Sanctuaries support about 50,000 jobs in diverse 
activities ranging from fishing and diving to research and 
hospitality.\16\ A study completed in 2000 estimated that Massachusetts 
alone accounted for nearly 80 percent of New England whale watching 
tour totals, generating $31.3 million; virtually all of Massachusetts 
whale watching occurs in Stellwagen Bank National Marine Sanctuary.\17\
---------------------------------------------------------------------------
    \16\ http://sanctuaries.noaa.gov/science/socioeconomic.
    \17\ Hoagland, Porter and Andrew E. Meeks. The Demand for Whale 
watching at Stellwagen Bank National Marine Sanctuary. Marine Policy 
Center, Woods Hole Oceanographic Institution. 2000.
---------------------------------------------------------------------------
    With the FY 2013 budget request of $880.3 million for NMFS, NOAA 
remains committed to putting America's fishing industry on a 
sustainable and profitable path through targeted investments in 
fisheries science, observer, and enforcement programs. Additional 
targeted funding for NMFS includes increases of $4.3 million to expand 
stock assessments and $2.3 million for Survey and Monitoring projects. 
Funds will be targeted at high priority commercially and recreationally 
valuable stocks, those that limit the catch of these valuable stocks 
due to high scientific or management uncertainty, and those that were 
previously experiencing overfishing to verify that overfishing has 
ended. Funds will be used to improve fishery-independent surveys using 
advanced sampling technologies such as optical and acoustical methods. 
The FY 2013 President's Budget includes an increase of $4.2 million for 
the NMFS National Observer Program. The requested increase will support 
observing and monitoring for fisheries currently under catch share 
management and those expected to transition to catch shares in FY 2013. 
This funding will allow NOAA to provide coverage in approximately 47 
fisheries nationwide. Investment in enforcement activities will sustain 
the hard work to implement reforms following the 2010 Inspector General 
Report while also maintaining focus on the important work of 
enforcement. To make these targeted investments, the FY 2013 budget 
proposes to consolidate and streamline certain activities to reduce 
costs and decrease or terminate funding for lower priority programs. 
For example, NOAA's request includes a $5.0M reduction across numerous 
programs to consolidate and reconfigure NMFS' West Coast regional 
management offices. Under this proposal, the Southwest and Northwest 
Regional Offices will be reconfigured into a single West Coast Regional 
Office. NOAA also proposes to close the James J. Howard Lab at Sandy 
Hook and the Pacific Environmental Research Lab at Pacific Grove, 
relocating staff to other facilities. Activities that are supported at 
these facilities are necessary for the NMFS mission, however it can be 
conducted more cost-effectively at other NOAA facilities.
    In the FY 2013 Budget, NOAA requests $478.1 million for NOS to 
support the economic sustainability of coastal communities. NOAA has 
made a few targeted investments in the FY 2013 budget submission for 
NOS including a $10 million increase to develop and improve marine 
sensors that will monitor changing conditions in the oceans, coasts, 
and Great Lakes. This, along with our existing observational 
capabilities, will enhance our stewardship capabilities across a wide 
range of objectives outlined in the National Ocean Policy. A $2.0 
million increase to expedite the restoration of polluted sites subject 
to natural resource damage assessments. Some of these cases represent 
hundreds of millions of dollars in potential settlements. Finally, a 
$2.0 million investment in extramural research is requested to 
strengthen our continued focus on harmful algal bloom, hypoxia, and 
ecosystem research.
    NOAA's fleet is crucial to providing scientific platforms in 
support of NMFS and NOS. An increase of $10.7 million will allow NOAA 
to perform a Major Repair Period on the Thomas Jefferson, NOAA's 
primary hydrographic survey vessel. Major Repair Periods are critical 
to ensuring the ongoing health and well-being of NOAA's fleet; without 
these periodic refurbishments, ships would be taken out of service. 
Finally, an additional $1.5 million is requested to complete the post-
construction evaluation of FSV 6, our newest fisheries survey vessel.
Conclusion
    Overall, NOAA's FY 2013 Budget Request reflects the commitment that 
Secretary of Commerce Bryson and I have made to the President to 
contribute to growing a strong economy that is built to last while 
being fiscally responsible and helping to reduce the Nation's deficit. 
As we make tough choices, we remain committed to our core mission 
because we know that Americans rely upon us each and every day. The 
resources that are requested in this budget are critical to the ongoing 
success in creating a Weather-Ready Nation, ensuring access to reliable 
scientific data, and achieving vibrant coastal communities. I look 
forward to working with the Members of this Committee and our partners 
and constituents to achieve the goals I articulated through the 
implementation of the FY 2013 budget. Thank you for the opportunity to 
present NOAA's FY 2013 Budget Request. I am happy to respond to any 
questions from the Committee.

    Senator Begich. Thank you very much, and thank you for your 
opening statements.
    And what we will do is we will start with five minute 
rounds, and we will probably additional because we have few 
people here. So we will be able to go through maybe a couple of 
times, and I appreciate you all being here.
    Let me, if I can, start with Admiral Papp, and I want to--
this is kind of a broad question in regards to your 11 
statutory missions that you are required or that you have under 
your command. When you put your budget together, there is kind 
of a give and take. Can you give me a sense of some of the 
areas that you maybe had to take from in order to keep your 
kind of missions in place that we need to reexamine or at least 
have insight on what that tradeoff was?
    Do you have some commentary in regards to that? Based on 
the budget, it is always tight, and I understand that.
    Admiral Papp. Yes, sir. And it is difficult on any given 
year because we never, as you well know, have all the resources 
to do 100 percent of each one of those 11 statutory missions. 
That is a judgment that we make on a day-to-day basis. Our 
operational commanders do that, based upon the resources that 
we allocate out to them.
    So, on any given day, our Atlantic area or Pacific area 
commander may very well be allocating, for instance, the HEALY 
to science research, but then a higher priority mission comes 
up, like the resupply of Nome.
    Senator Begich. Right.
    Admiral Papp. And we take time away from another mission in 
order to devote it there. That is the only way we can survive.
    So we have finite resources, and we apply them against what 
we appear--or what appears to us to be the greatest threat. 
Usually, we plan out across a year, but sometimes it is on a 
day-to-day or week-or-week basis, depending upon what the 
circumstances are, whether it is a disaster or something like 
that.
    So what I see is not only is the threat arising in the 
transit zones in terms of narcotics, but we also--this year a 
great example is the fact that drilling will start off the 
North Slope in the Chukchi and Beaufort Seas. And since we do 
not have permanent infrastructure on the North Slope of Alaska, 
what we will need to do is take one of our national security 
cutters, which can launch helicopters, can launch boats, has 
worldwide command and control capability, and it will be like a 
movable Coast Guard sector for us that will go up there and 
compensate for the lack of infrastructure that is up in Barrow 
right now.
    But that comes at a cost. That ship, otherwise, we would 
probably use for high seas driftnet fisheries patrols in the 
Western Pacific. It could be used for drug interdiction in the 
East Pac. It could be used for security operations at other 
places, and what we are doing is making a reasoned risk 
assessment that the drilling operations off the North Slope are 
a higher priority for us this year.
    So we know we are never going to get 100 percent of all we 
need to do it all. So we take what we have, and then we make 
reasoned decisions within our budget lines, within the top line 
on what is the highest priority for us, whether it is 
acquisition purposes or frontline operations.
    Senator Begich. If I can follow up on the national security 
cutters? Remind me what the cost per unit is on those.
    Admiral Papp. I think that is a tremendous success story. 
Sir, to give you a direct answer, right now, roughly, it is 
about $690 million for long lead items, production and post-
production. This was a ship that a number of years ago people 
were saying was going to be $800 million or perhaps higher than 
that.
    And what we have done is we have developed a very 
disciplined and skilled acquisition staff, which has worked 
hard to get a fixed-price contract with Ingalls shipyard, and 
we, in fact, were able to award two ship contracts in the same 
year last year for Number 4 and Number 5. And everybody 
predicted that 5 would come in more expansive. Five came in at 
$2 million, only $2 million more than Number 4, and that was 
due to the hard and talented work of our acquisition folks.
    So this is a project that has got its costs controlled. It 
is mature. It is demonstrating that it is performing up to 
standards, and we are really grateful that we have Number 6 in 
this year's budget coming up because that puts us 75 percent of 
the way toward completing the program of record.
    Senator Begich. Let me--that is great, and I sit on the 
Armed Services Committee, and we struggle all the time with 
fixed-cost issues because for all the reasons you just said. 
When you get to fixed costs, the contractor gets motivate 
because they only get so much, and they have got to make sure 
it is done to the standards of quality. So I think that is a 
huge move.
    How do we get to the next stage, which I know your long-
term capital investment plan for a number--because I think the 
plan was for eight, if I remember, on the national security 
cutters?
    Admiral Papp. That remains the program of record, yes, sir.
    Senator Begich. OK. So is the plan still to kind of keep 
moving forward? Because I am trying to remember in the 
documents if I saw funding in those out-years, is that still 
the plan to try to get the Number 7 and Number 8 and get to the 
completed eight units in a period of time of what?
    Admiral Papp. Well, sir, therein lies the challenge. 
Originally, we had planned on putting money for Number 7 in the 
2014 budget and then money for Number 8 in the 2015 budget. We 
have worked out with the administration a 5-year plan, the 
capital investment plan. And right now, that reads zero in 2015 
and zero in--I am sorry. Zero in 2014 and 2015 for national 
security cutters Numbers 7 and 8.
    But it is still the program of record. We have many 
priorities, one of which is a polar icebreaker, which I have 
been asking for since I have been Commandant, and the Coast 
Guard has been asking for longer than that.
    Senator Begich. Right.
    Admiral Papp. So we are very grateful that the 
administration now has fit that money into our budget.
    The challenge is under the constraints of the Budget 
Control Act, we are getting less money each year. Our 
acquisition funding was reduced by nearly 20 percent, as 
Senator Snowe pointed out, and we are really at the point now 
where all we can do at the current funding level is order the 
minimum quantity for each one of the items in our acquisition 
portfolio, including the national security cutter.
    Senator Begich. Very good. Let me end there. I will have 
some questions for Dr. Lubchenco on the next round.
    But let me go to Senator Snowe now.
    Senator Snowe. Thank you, Mr. Chairman.
    Admiral Papp, I would be interested in knowing to what 
degree the Coast Guard has responded to the GAO recommendations 
that were issued in the July 2011 report on the Deepwater 
program and what actions that they saying are necessary in 
order to ensure that the program achieves its goals.
    Have you updated the current baseline on these assets?
    Admiral Papp. No, ma'am, we have not. We did a mission 
needs statement, which goes back to 2004, and our requirements 
remain the same as of right now. We have not updated that.
    Senator Snowe. One of the issues that GAO raised in their 
recommendations the Coast Guard has developed baselines for 
some assets, and these indicate the estimated total acquisition 
program cost could be as much as $29.3 billion, about $5 
billion over the $24 billion baseline, though the Coast Guard 
has yet to develop a revised baseline for all assets, one of 
which is the Offshore Patrol Cutter, the largest cost driver of 
the program.
    Admiral Papp. Yes, ma'am. I misunderstood your question a 
little bit.
    But we are revising the baselines, and it is no surprise 
that when you stretch this project out over time in any 
acquisition project, if you are buying the minimum numbers and 
you are only doing as much as you can, you absorb a higher cost 
per copy over time, which then over time increases your 
baseline. So it is sort of a Catch-22 situation.
    We come up with what we believe to be a baseline for the 
project, and while we were doing that and as we were 
reconstructing and retraining our acquisition staff, the 
project gets expanded out over time, which increases the cost 
as we go along. And then you have to revise it again.
    So GAO was absolutely right. When you look at what the 
original baseline cost for what we called the Deepwater 
project--it has gone beyond that right now. But we no longer 
have that Deepwater project because we saw the folly in doing 
it that way. And what we have done is we have deconstructed it, 
disaggregated it into clearer projects--surface craft 
replacement, the national security cutter, aircraft, and 
others--which makes it a little bit easier for us to redefine 
and give a better accurate count of what the baseline is.
    So we continuously work and working with the department to 
come up with the baseline for those projects.
    Senator Snowe. And do you not anticipate that there would 
be problems in future years? Is the program cost overly 
optimistic now, or are you not calculating the risk in the 
future that it is going to cost more?
    Admiral Papp. I am sure it is going to cost more because we 
are stretching this out over time. And I think part of the GAO 
report, as I read it, was also saying maybe we need to 
recalculate getting fewer ships or whatever else.
    But what I do not have is people taking, giving us fewer 
missions. Our missions continue to increase. So I remain 
committed to the original baseline of the 8 national security 
cutters, the 25 OPCs, and others as they are in the projects.
    Senator Snowe. Yes, so you are still adhering to the same 
number of ships and I agree with you. I understand exactly what 
the problem is. The question is on the budgeting side. And then 
I notice the administration's proposed request, which is 18 
percent below the 2012 level----
    Admiral Papp. Yes, ma'am.
    Senator Snowe.--for acquisition. So----
    Admiral Papp. It will make it difficult for us because we 
have to do minimum order quantities on each one of those things 
in our portfolio. The good news, though, and I appreciate GAO 
urging us along, and this subcommittee has urged us along in 
acquisition reform, I will accept that part of the problem was 
us.
    When we started getting the money after September 11, 2001, 
our acquisition professional staff was not up to where it 
needed to be in terms of executing that amount of money. And I 
think you know very well that we made some errors along the 
way.
    But what I would say now is our demonstrated--our 
demonstrated performance in getting the national security 
cutter under a fixed-price contract and awarding two ships in 1 
year; the fact that we are now producing the fast response 
cutters and we have with this budget, we will put 20 on 
contract; our aircraft production and other projects; we have 
got our acquisition act in order, and I would stack up our 
acquisition professionals against any similarly sized agency 
within the government.
    Senator Snowe. So do you think that you have effectively 
planned for the out-years on the acquisition program?
    Admiral Papp. I think that now we are much better at 
predicting the costs. The largest project in all this is the 
offshore patrol cutter, which is coming up. And I have actually 
accepted and I take responsibility of the fact we have pushed 
that project to the right a little bit because we need to get 
that right.
    And when I came in as Commandant, we had not confirmed our 
requirements for that yet. We were looking for something that 
was going to cost way too much. I have reemphasized 
affordability while still keeping a capable ship, and I am 
confident now that we are on the right track with that project 
because it is going to be hugely expensive to build out those 
25 ships. And we want to make sure we get it right, and 
affordability is the driving factor for us.
    Senator Snowe. And on your fleet mix analyses, you have 
assumed that it is correct for what you need to do in 
responding to the numerous missions and demands?
    Admiral Papp. Well, what we have done is in fleet mix 
analysis one, which was unconstrained, it demonstrated a need 
for more ships than the project baselines. So we had to do a 
more realistic look, which was mix analysis two, which is in a 
more constrained environment.
    And then we recently did the Department of Homeland 
Security Cutter Study. Every report that comes back 
substantiates our original baseline of 8 national security 
cutters and 25 offshore patrol cutters.
    You can come up with different mixes of that, but the fact 
of the matter is we do not know what the OPC is going to be at 
this point. But what we do know is we have a stable price on 
the NSC, and we know what the NSC is doing in terms of 
operational performance. And we have a yard that is ready to 
produce it so we are pushing forward in that.
    Senator Snowe. Thank you.
    Admiral Papp. Yes, ma'am.
    Senator Snowe. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Let me go to Senator Lautenberg next.
    Senator Lautenberg. Thank you, Mr. Chairman.
    Dr. Lubchenco, the budget that is offered proposes closing 
NOAA's laboratory at Sandy Hook, New Jersey. Now this lab is 
unique. It is located near, as I said earlier, the giant urban 
center, helps scientists to develop approaches to managing the 
fisheries that are in those impaired water bodies. It has 
lasting partnerships with local universities and fishermen, and 
it has a 50-year record of scientific achievement.
    Now we have to look pretty hard to replicate the conditions 
there, but yet I think it is fair to say that it is essential 
that we find out or monitor what happens in coastal waters that 
are near large urban centers to see whether we can produce the 
kind of nutrition that we would like to have near at hand, or 
the refuges for fish and sea life.
    What do we do to measure the quality of and value of one 
site to the other? How do we determine that a move might or 
might not be worthwhile?
    Dr. Lubchenco. Senator, let me just give you a sense of how 
we were thinking about some of the challenges that we face this 
year in our budget. Because we had--we put a very high priority 
on saving lives and property and in acknowledging how very 
important the satellites are to that end, over 90 percent of 
the data that are used to create our weather models for 
forecasts and disaster warnings come from satellites, and they 
are clearly important.
    Because those satellites are very expensive and despite the 
fact that we have done everything possible to keep those costs 
down, we needed to request a very significant increase in the 
satellite budget this year. You note that the increase in our 
overall budget is about $154 million overall, but the increase 
in the satellite budget is $164 million.
    And that, in turn, puts pressure on a lot of the other very 
important programs within NOAA. And one thing that we decided 
to do is to try to take a good, hard look at where can we find 
administrative savings, administrative efficiencies to protect 
programs as much as possible.
    And among the many things that are in this budget toward 
that end of administrative efficiencies, the Sandy Hook lab 
came under intense scrutiny in part because the per square foot 
cost of the lease, which is a 20-year lease that expires at the 
end of 2013, is very, very high. It is $36.30 per square foot.
    The other labs that are in the same general part of the 
country, our Northeast regional office is $19.94 per square 
foot. The Southeast regional office is $24.00. So that really 
stood out, per square foot, as being very, very expensive.
    The next analysis suggests that much of the research that 
is done at that lab can, in fact, be done elsewhere. It is not 
unique to that particular location. That does not mean it does 
not benefit from being there. It is just that much of the 
research can actually be done in other labs.
    And there is no doubt but that the research that is there 
is very valuable. And so, in an attempt to preserve as much of 
the programs as possible, the proposal is to achieve some 
administrative efficiencies, and this is not the only lab that 
we are proposing to consolidate.
    Senator Lautenberg. That is little comfort for us, as you 
can imagine.
    Dr. Lubchenco. I understand completely.
    Senator Lautenberg. One of the things I want to ask, 
Admiral Papp, that is the delay in fully complementing the 
fleet, ships 7 and 8. What missions will be impacted?
    I mean, you have said that you will not be able to carry 
out the same level of mission involvement as you have had. What 
kind of missions might be affected by the inability to order up 
and get the eight ships going?
    Admiral Papp. Well, Senator, first of all, if there is a 
delay in building the ships, one of the options that I will 
look at is extending the life of the 378-foot high-endurance 
cutters that are out there right now. I do not want to do that 
because they are very expensive. They are obsolete. The 
berthing, the habitability conditions for the crews are not 
good, and they are quite clearly not as effective as the new 
ships we are building.
    But they are ships, and they are out there. And they are 
filling the hole, and they are doing the missions. It is just 
very expensive to keep them going. So I have to look at some 
option of keeping the 378s going for a number of years longer 
rather than take a cutback in missions.
    Now, if we did not have the budget room to be able to do 
that, then we would have to look at the potential for cutting 
back in missions. And as I said earlier, it varies. We would 
have to set priorities.
    Clearly, we have got a lot of ships devoted to the traffic 
zones in the Eastern Pacific and the Caribbean where the 
cocaine is flowing. We could perhaps put fewer ships down 
there.
    Right now, we are down to almost the bare minimum in terms 
of our presence in the Bering Sea and the Gulf of Alaska to 
protect the fisheries and to rescue fishermen. We are involved 
in the Western Pacific doing high seas driftnet. It is a 
potential for cutting back there. And those are the types of 
things that we would have to look at.
    My job is to come up with a plan of keeping enough ships 
out there running within the budget so that we do not have to 
cut back on those missions.
    Senator Lautenberg. Yes. Mr. Chairman, just an aside here 
for a moment. In 1989, I and members of my family christened 
the Coast Guard cutter MOHAWK in Rhode Island. And it is not 
fair to tie this room up finding out whether our ship is still 
afloat and still doing that job, Commandant, that we expected 
it to do.
    So if you can give me that information when you have a 
spare moment, please, I would like that.
    Admiral Papp. Oh, it is definitely out there, and we are 
going to have to get many more years out of the MOHAWK. The 
MOHAWK is one of our newer ships. I think MOHAWK is only about 
probably about 23 or 24 years old, which by Navy standards is 
about time to get rid of them. But by Coast Guard standards, 
that is about half life.
    [Laughter.]
    Admiral Papp. So that will be one of the last of our 
current ships that we have out there right now to be 
decommissioned after we have produced the offshore patrol 
cutter.
    Senator Lautenberg. I am comforted by that. Thank you very 
much.
    Senator Begich. Thank you.
    Let me say, Admiral, I might use that line when I am in the 
Armed Services Committee when the Navy is front of us in the 
reverse. That is a good line.
    Before I go to Senator Ayotte, I know, Senator Wicker, you 
are under a time constraint? Is that right or----

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. I am. I know that we all are, but I really 
am.
    Senator Begich. If I can ask----
    [Laughter.]
    Senator Wicker. It is the first time I have ever----
    Senator Begich. He did ask multiple times before the 
Committee meeting started, and I want to give him a little 
leeway, if I could, and then I will go right to Senator Ayotte, 
then Senator Cantwell.
    Senator Wicker. Well, you are both very kind, and I will 
try to be brief.
    Admiral Papp, let me just follow up on a line of question 
that Senator Lautenberg was pursuing. The Coast Guard's program 
of record maintains that 8 national security cutters are the 
minimum required to replace the 12 aging high-endurance 
cutters.
    Of course, I was dismayed to see that the plans--that there 
are no plans to fund NSC 7 and 8 in the President's budget. You 
know, you work for the chain of command, and I understand that. 
But I think you have testified just a moment ago that the 12 
high-endurance cutters cannot be replaced by only 6 NSC 
cutters. Is that correct?
    Admiral Papp. Not without a degradation in some mission 
area that they are performing now. That is correct. Yes, sir. 
Or unless we keep some of the older ships going.
    Senator Wicker. And that would involve the expensive 
process of taking this older cutter that we really need to move 
on from and going to a great deal of additional expense to keep 
them together with band-aids and baling wire and make them work 
when we really need to move to NSC cutters. Is that correct?
    Admiral Papp. The older ships are increasingly expensive. 
Just a couple of years ago, when I was the Atlantic area 
commander, we actually had to shut down two of them. The 
decision at the time was made to put it back in service. The 
Gallatin, it took 2 years and $20 million to get the ship back 
into service because it was in such poor condition. The other 
one took about a year and $8 million to get back into shape.
    If I had to make that decision today, I would say we are 
not going to spend the money. We will just lay the ships up and 
not use them anymore. But that is the type of condition the 
remainder, the other 10 are getting to be as well, and it 
just--we only get about $1 million a year for each one of those 
to support them. And if one takes $2 million to do repairs, 
then it is taking away from the rest of them.
    Senator Wicker. And just to reiterate, to do the mission of 
the 12 older cutters, we need the 8 NSC cutters?
    Admiral Papp. We need----
    Senator Wicker. To do the current mission?
    Admiral Papp. That is absolutely correct. And sir, I am 
going to tell you I am an optimist. And the fact----
    Senator Wicker. Well, I am, too. I hope this committee is.
    Admiral Papp. Well, the Secretary has said it remains the 
program of record. Eight NSCs remains the program of record.
    The capital investment plan is troubling, but what I think 
that means is the Secretary and I are going to have to work 
extra hard, both going to the Navy and making sure that the 
Navy is not building something that is redundant to what we 
want to do. And I am hopeful that we can do something about 
this as we go forward. But----
    Senator Wicker. I have toured the cutter Number 3 a few 
months ago. It was very, very impressive. So would you like to 
comment on Secretary Napolitano's statement last week that she 
would be examining DOD's force laydown before making any 
decisions on how to proceed with NSC 7 and 8?
    I did not quite understand what that meant. And it seemed 
to me that there is a different mission for the Navy and for 
the Coast Guard, and if anything, we probably need additional 
cutters, if we could afford them.
    Admiral Papp. Well, I would say I agree with you, sir. But 
I think the Secretary is doing exactly what she needs to do 
and, in fact, what I need to do. In the constraints of the 
budget that we are facing that not just the Coast Guard, but 
the entire Government is facing, I think each and every year we 
need to take a hard look at each and every item that is in our 
portfolio and in our budget.
    And we are being good public servants when we justify and 
document that, yes, in fact, this thing is still needed. Both 
the Secretary and I share responsibilities under Title 14, 
which tasks us with making sure that we are ready as a service 
to be interoperable with the United States Navy in times of 
conflict. And part of that is making sure that the Navy is not 
building something that is redundant to what we are building, 
and vice versa.
    Now I am pretty confident the Navy is not building 
something that is redundant because I meet with the Chief of 
Naval Operations on a regular basis, and in fact, he is having 
to review his fleet. So I think it is a good time for the 
Secretary to meet either with Secretary Mabus or Secretary 
Panetta and for me to continue to work with the CNO and 
determine that, yes, in fact, we need these ships. And then we 
take it to the next step.
    Senator Wicker. Well, thank you very much.
    Dr. Lubchenco, let me just say briefly, because I am 
intruding on other people's time, I am concerned that NOAA is 
continuing to make a low priority of Gulf of Mexico programs. 
And I want to visit with you about proposed actions, in 
particular regarding the regional geospatial modeling grants, 
the National Undersea Research Program, NOAA laboratories and 
cooperative institutes, programs that utilize the expertise of 
universities and external entities, to help us get the better 
bang for our buck.
    And so, I am very concerned about NOAA proposals in this 
regard, and perhaps you would like to respond in general. But 
also be aware that we need to have an extended conversation 
about that.
    Dr. Lubchenco. Thank you, Senator. And I am more than happy 
to sit down and talk with you at greater length about this. I 
think there is no doubt that there are some very painful 
aspects of this budget, things that are personally painful to 
me because there are important programs that we are not able to 
continue. And that is, you know, simply a reflection of the 
fact that there are just really tough choices that we had to 
make.
    I would say that we have not differentially discriminated 
against our partnerships with the academic community. And, in 
fact, the percentage of extramural funds, the percent of the 
total amount of funding that we do for R&D that is going to the 
extramural community is actually increasing in this budget.
    I also would like to just tell you in no uncertain terms 
that we have very high regard for the Gulf, and have been 
acting--spending a huge amount of time, and appropriately so, 
in working to restore the Gulf in the aftermath of Deep Water 
Horizon. We have been working diligently with trustee counsel, 
both the other Federal agencies as well as the Gulf States, and 
are very delighted that we had the $1 billion in early 
restoration funds from BP.
    We are continuing to prepare for trial and will do our 
utmost to hold the responsible parties responsible, and to get 
the resources required to really do that restoration.
    So, there--please do not think that there is any 
differential or any discrimination against the Gulf. That is 
certainly not the case. I think many of the tough decisions 
that we have had to make are playing out in every different 
part of the country, and it is because this is just a tough 
time.
    Senator Wicker. Well, thank you very much, and thank you, 
Mr. Chairman. I would point out for the record that the 
National Institute of Undersea Science Technology researchers 
were the first on the scene during the Gulf oil spill. They 
were the first to detect the undersea plumes. And we need to 
protect that valuable program.
    Thank you so much for your testimony.
    Senator Begich. Thank you, Senator Wicker. It is noted.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Senator Cantwell----
    Senator Cantwell. I think you were here before I was.
    Senator Ayotte. Thank you, Mr. Chairman. Thank you.
    I wanted to, first of all, thank you, Admiral Papp, for 
your service to our country, and thank you, Dr. Lubchenco, for 
being here before the Committee.
    And, Dr. Lubchenco, I would like to ask you, one of my 
colleagues, Scott Brown, has recently in February has asked for 
a report from the inspector general from the Commerce 
Department that raised some very serious concerns, and I want 
to ask you about those.
    And so, I want to, first of all, want to commend my 
colleague, Scott Brown, for pursuing this issue, but then also 
want to ask you what you are doing about it in particular. And 
that is that the Commerce Inspector General reported that NOAA 
used the asset forfeiture fund, which is, as you know from 
fines taken from fishermen, and over the course of the last few 
years, there has been concerns raised also by the Inspector 
General that some of those fines have been overly punitive for 
things that were civil type offenses. So, that is an initial 
concern.
    But that that fund was actually used to purchase a $300,000 
basically party boat, luxury fishing boat that does not have 
any reasonable official purpose. In fact, it is a situation 
where the boat has been used for trips to docksides 
restaurants, hamburgers and hot dog barbecues, alcohol parties, 
and pleasure cruises.
    And I have a real hard time going particularly to the 
fishermen, many of them who have gone out of business in some 
instances because of these fines, when we hear things like 
this, and those types of monies being misused and abused.
    So, I guess my question to you, number one, would be, what 
actions have we taken regarding, number one, the employees who 
purchased and utilize this boat? Have we held them accountable 
for their actions? And then, second, what steps have you taken 
to correct the abuse of the asset forfeiture fund, and what 
steps have NOAA taken? And what steps can you let us know to 
assure our constituents that these funds are not being misused 
in a way that is obviously irresponsible? And, in fact, the 
boat itself was purchased in violation of Federal procurement 
laws.
    Dr. Lubchenco. Senator, thanks for the opportunity to talk 
about this because it is an area that I feel very, very 
strongly about. I think that you may remember that when I first 
took this job, I heard from members of Congress as well as 
fishermen directly that we had some problems with our law 
enforcement. And because of those concerns, I went to the 
Inspector General and I asked him to do a review of our law 
enforcement program, which he did, and he uncovered a number of 
problems.
    As a result of that report, we have undertaken pretty much 
a top to bottom overhaul of our entire law enforcement program. 
We have new leadership in place. We have implemented new 
policies to ensure consistent enforcement practices nationwide. 
We have put in place much better accounting and oversight 
systems for the asset forfeiture fund. And we are in the 
process of delivering on those new practices and policies.
    A subsequent investigation by the IG uncovered this 
purchase of the boat, which was done in 2008, so before I was 
on board, before we did all these things. I was appalled when I 
heard about this. We took immediate action. The boat is--was 
initially prohibited from further use. It is currently being 
surplussed. And we have taken a number of additional steps on 
top of the earlier ones, one to establish a new review process 
for any vessel acquisitions, and re-training personnel to 
ensure compliance with the appropriate things.
    The Privacy Act constraint or Privacy Act constraints 
preclude me from commenting on actions to individuals, so I 
cannot do that. I would love more than anything to be able to 
talk about some of the things that we have done, but that is 
simply not possible.
    Senator Ayotte. OK.
    Dr. Lubchenco. But I can tell you this is an area that we 
take very, very seriously, and we have gone to extraordinary 
lengths to make things right.
    Senator Ayotte. Well, good. And I hope that you hold people 
accountable. And I appreciate that, and this is very important.
    Real quick, the one concern I have is the 2008 stock 
assessment of NOAA conducted found the fishery on track in 
terms of if you looked at the New England Gulf of Maine Cod 
Fishery. And yet the 2011 assessment showed it not on track.
    As you know, this created a big issue for fishermen in New 
Hampshire, a huge issue. In fact, it would eventually result in 
a 90 percent revenue loss for New Hampshire fishermen, killing 
the industry.
    As you know, all of our delegation on a bipartisan basis, 
from Maine, New Hampshire, the New England delegation, and 
Massachusetts as well, wrote to you, wrote to the Secretary, 
urging you to set an interim measure for 2012. And I appreciate 
that NOAA appears to be moving forward on that interim action.
    But it raises the question, what happens in 2013 when these 
devastating reductions, if just the interim measure is put in 
place, what will happen where 90 percent of the fishermen 
essentially in my state will be killed. And it is a very noble, 
noble pursuit obviously.
    So, a lot of questions it raises for me on how accurate, 
and how can you ask the fishermen in my state to trust the 
stock assessments when you get such disparities? And also, what 
are we going to do about 2013 to make sure we do not put them 
all out of business?
    Now, I know my time is up, and I know that others are here. 
And so, I appreciate if you do not want to address this here, 
if you can address this for the record, because, to me, this is 
a core issue for the fishermen in my state.
    Dr. Lubchenco. Mr. Chairman, could I give just a very brief 
response?
    Senator Begich. Very brief, and then extended into the 
record. But go ahead, and then I will go to----
    Dr. Lubchenco. And then I can also follow up.
    Senator Begich. Excellent.
    Dr. Lubchenco. Senator, this is an issue that has occupied 
a huge amount of time and energy because it is so important. 
And we have gone to extraordinary lengths to work with the 
fishermen in New England and try to help identify the options 
that are available to us. I think we are on path for options 
for this year because the law allows us some flexibility.
    You are absolutely right to focus on 2013, and that is 
going to be a major challenge. We will continue to do 
everything possible we can, including cooperative research, to 
try to understand why there was a difference between those 2 
years, and also to really understand what is out there, and to 
identify ways to lessen the economic consequences of this.
    We care deeply about the fishermen and the fishing 
communities that depend on them, and we will continue to work 
with them on this.
    Senator Ayotte. Thank you.
    Senator Begich. Thank you very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Administrator Lubchenco, Admiral Papp, thank you for being 
here.
    Administrator Lubchenco, I want to go over the budget. And 
one of the things that we are very concerned about in 
Washington State--we have already had a lot of news about 
this--is the tsunami debris issue. And you have probably seen 
your own analysis about this. But this chart shows the debris 
starting in--where the debris field is now in 2000, where it is 
expected to be in 2013 and what the impact in the northwest is 
by 2014.
    So, that is something that is a great concern to us, and we 
think we need more data as to what the impact is. Our coastal 
region employs over 160,000 people and is a huge economic 
impact to our state, over $10 billion in economic activity. So, 
we want to make sure that we have a plan for how to deal with 
this tsunami debris.
    And I am assuming--well, why don't I get a yes or a no 
answer. Do you believe that this 100 million tons of debris 
that has been part of the Japanese tsunami is a threat to the 
West Coast of the United States?
    Dr. Lubchenco. We believe that the debris that is coming 
across the ocean is--some of it is going to wash ashore. Some 
of it will sink. It is not at this point clear how much of it 
is still in play, and we have very active programs to try to 
track and measure what is out there, and to understand what is 
likely to arrive when. We are working closely with both states 
and as well as international partners and a lot of fishermen 
and others.
    We have redirected a number of our satellites to look at 
more finer resolution images to try to see what we can see.
    Senator Cantwell. Is that----
    Dr. Lubchenco. It is not yet clear that it is going to have 
a devastating impact by any stretch of the imagination.
    Senator Cantwell. So, the answer to that is no, you don't 
think it is, or----
    Dr. Lubchenco. I think we do not have enough information to 
know for sure yet, but it is something that we are watching 
very closely.
    Senator Cantwell. Well, we are very concerned, and we think 
it is going to have an impact. But we certainly would love the 
data to understand the level of that impact. And without 
knowing that, we certainly want to make sure that we are 
prepared.
    So, my concern is that the President's budget already cuts 
the existing marine debris program----
    Dr. Lubchenco. Yes.
    Senator Cantwell.--by 25 percent. This was before the 
tsunami even happened. This is a program that you have to deal 
with marine debris. And it is being cut now 25 percent before 
you are even dealing with this level.
    So, my question is, how are you going to be able to deal 
with this with the 25 percent cut?
    Dr. Lubchenco. I think the cut to this program is going to 
be a challenge. It is one of the very important programs that 
in other circumstances we would not have chosen to cut.
    And I think it is also important, Senator, to realize that, 
you know, although when the debris washed into the ocean in the 
aftermath of the tsunami, it was a mass. But it spreads out and 
is not a concentrated big batch of stuff anymore. You could see 
it initially from satellite images. It is very difficult to see 
now because it is so distributed and because of a lot of it has 
sunk.
    That said, there is still a lot of stuff that is probably 
out there. It is just not clear what impact it is going to be 
having.
    Senator Cantwell. Are you--do you have enough resources to 
analyze and tell us what kind of impact it will have?
    Dr. Lubchenco. We will do the best with what we have. If we 
had more, we would be doing more.
    Senator Cantwell. Well, that is not a good answer for 
someone trying to represent a state and an economy that is 
going to be impacted. We do want to hear now, you know, well, 
we could do better if we had more money. It is the President's 
budget that is recommending the cut, and if you do not have 
enough money to get the analysis, we would rather hear that 
today so that we can do something about it. But we do not want 
to hear later that you did not have the resources to understand 
this problem.
    It is a threat, and we are already seeing some--can I just 
go to a related point to this? The National Tsunami Hazard 
Mitigation Program and DART Warning Buoy System--OK. Let us put 
the trash aside for a second now and just say that the warning 
system, which the Buoy System is part of, the technology is 
great, and it has been improved with time. But that is also 
being cut $4.6 million. And so, how is that going to affect the 
warning system for the State of Washington?
    Dr. Lubchenco. Senator, the funds form the Warn Act, which 
expire this year, were--enabled us to get ahead of the curve in 
terms of putting in place training for communities and 
implementing the DART buoys, et cetera. And that has actually 
been a real boon to us.
    The cut that you see in the program is a reflection of the 
fact that the Warn Act funds are expiring. And the consequence 
of that is going to be the following: we will still be able to 
issue all of the warnings that we do because those are not 
dependent on the DART buoys. Those warnings are issued well 
before the wave passes a DART buoy. Those DART buoys are key in 
helping us fine tune our warnings as the tsunami is moving 
across the ocean.
    The fewer funds will play out in the following way: we will 
not be able to maintain those buoys at the rate we now maintain 
them. And it would be nice to be able to retain--to maintain 
them at the same rate. It is not something that we think is 
going to seriously jeopardize our ability to warn communities 
and to issue the kinds of warnings that we do today.
    Senator Cantwell. Japan had 30 minutes, so 30 minutes of 
warning, and if you think about the amount of damage that was 
done. So, we are trying to build a more integrated system. And 
I am certainly aware of the impact that the buoy system plays 
in giving you more updated information. The former chairman 
from Hawaii could tell you many stories about there are also 
economic impact from issuing warnings and then having nothing 
happen, and not being able to tell people about that.
    Dr. Lubchenco. Right.
    Senator Cantwell. So, the system is building a smarter 
network to monitor all across the ocean. So, I would like to 
get from your agency how many are currently operational, and 
how many do you think are needed to make sure that we have a 
functioning system. So, if we could get that information from 
you.
    Dr. Lubchenco. Absolutely. Certainly.
    Senator Cantwell. And then similarly, but a different piece 
of information, is the cut to the program for monitoring ocean 
acidification. So, this is vital information that helps us, and 
I think there is a chart that shows where these buoys have been 
that help, you know, thousands of jobs in Washington State 
because what you are doing on the identification of 
acidification is allowing people to shut down valves that 
protect those kinds waters from coming in and killing crops.
    So, very, very important for a very key industry in our 
state, and yet you are cutting that program as well.
    Dr. Lubchenco. Senator, this is one of those choices that I 
am not happy about because we--it is a program that is very, 
very important. We will continue to do monitoring. It is not 
that we are not doing anything. We will not be able to do it at 
the scale that we would like to do it.
    Senator Cantwell. It is $250,000 for a return investment of 
an industry that is $270 million. I would think that that 
amount of money would have the agency thinking hard about a 
program that is helping an industry do the seeding that allows 
shellfish to grow.
    I hope that we will--Mr. Chairman, we are going to keep 
pushing on these issues. I think for us as we look at the 
budget and, you know, having been the Chair of the 
Subcommittee, I know exactly how much deep water Coast Guard 
acquisition program takes up in the debate or should take up in 
the debate. But cutting back on science that is important for 
jobs and the economy can't be substituted. And so, we are going 
to make sure that if there is a shortfall here as it relates to 
science that are protecting jobs and protecting lives, that we 
are going to make sure that they get addressed in the budget 
and in appropriations bills going forward.
    So, thank you, Mr. Chairman.
    Dr. Lubchenco. Senator, I appreciate your shining a 
spotlight on these programs because they are very important.
    Senator Cantwell. Thank you.
    Senator Begich. Thank you very much, Senator Cantwell. And 
we will have--if you are still here, we will still have another 
round here before we close out.
    Let me--I want to follow up on a couple of things here, Dr. 
Lubchenco, and that is in regards to the debris that was talked 
about here because it not only affects--it could affect 
Washington, it could affect Alaska, too.
    Have you done--I understand there is the budget process you 
have gone through, but have you done since this process, 
because your budget started so far in advance, and, of course, 
the tsunami came and so forth. Have you done an analysis or a 
recommendation or something that has gone to the White House or 
OMB to detail out, here are the ranges of risk, of impact, and 
potential associated mitigation that could be done and/or costs 
that are related to it?
    And why I am asking this is because of such of a large 
international natural disaster. I am assuming that your agency 
was called upon. I do not know this--I am just assuming this--
called upon by the Secretary or the White House or both to say, 
give us our risk analysis of low probability, high probability, 
costs associated, what do we need to do?
    And I am driving this question because I think it is 
important for us to understand that because I think that is the 
question that Senator Cantwell is getting to is, do you have 
the resources? Understanding you have a budget you have 
presented, but that is not the real question. The real question 
is, somewhere in the mix, I know I would have asked this, you 
know, as mayor, I would have asked after a disaster what are 
the ranges and so forth.
    Is there such a document? Is there such material available 
that could be supplied to the Committee here so we can then 
make an educated analysis of what we think the budget should 
be, not what you have had to present and get, you know, 
screened by OMB, but actually what you would have --what you 
think might be the risk factors? Is there such a thing that 
exists?
    Dr. Lubchenco. What we did was extensive modeling not only 
using NOAA's models, but also University of Hawaii's models, 
about where the debris field would likely go. And then we have 
been tracking its spread across the ocean.
    What is very difficult to know is what the fate of much of 
that material will be. We know that a lot of it has sunk. We 
think that some of it--that more will sink as it comes across. 
Some of it is floating. Some of it floats fairly high up. You 
know, buoys would float from an aquaculture facility.
    Senator Begich. Well, if I can interrupt you. On that 
information that you provided, within that information did you 
do an analysis of, in order to monitor this and analyze this 
properly, or keep track of it, or potential cleanup, here are 
the ranges we should be having in mind of the cost factors 
related to this?
    Dr. Lubchenco. We have not done the calculation of economic 
costs of cleanup.
    Senator Begich. Not economic costs, agency cost.
    Dr. Lubchenco. Of cleanup, no.
    Senator Begich. OK. I think that is where you were getting 
to, and I will leave that kind of as an open-ended question if 
you want to respond or add to it now. But do you see where I 
was--I think where you were going----
    Senator Cantwell. Mr. Chairman, yes, exactly. Having 
analysis of, I would assume at this point in time, of no 
impact, some impact, major impact, and the costs associated 
with that would be something that would provide all of us an 
understanding of what we need to do to plan. What our major 
concern is, and we have had this addressed in a hearing, in a 
markup here before this committee is that when it is here, it 
will be too late to have a plan. And when it starts impacting 
the fishing industry and people cannot fish because they have 
too much debris, or it affects tourism, or many other things, 
it is too late.
    So, we want to make sure that we are ahead of the situation 
and we have a plan for whatever those three scenarios occur.
    Dr. Lubchenco. So, we would be happy to follow up with you 
on that.
    Senator Begich. Fantastic. That, I think, is where we want 
to get to, to help plan for this potential. And, again, the 
risk factor, we will weigh that, but if we know the numbers and 
what it means, then we can weigh that and judge that.
    Let me ask you, and you brought it up and I will just a few 
more seconds of my time here, and then I will ask Senator Snowe 
if she has additional questions. But the satellites, which, you 
know, I think a lot people do not realize how much of your 
budget is consumed by satellite not only purchased, but 
management and maintenance and everything else, and I know as 
it continues to kind of crowd out other elements because of 
cost increases and so forth in maintaining them.
    Have you--I guess, do you have a kind of a long-term 
strategy of how to manage that, because, of course, the concern 
I am going to have, satellites are very important, but if you 
start taking, for example, stock assessments, diminishing that 
workload, which means then will have an effect on the economy 
because then fishermen do not have accurate assessments, which 
means you will go to a lower common denominator because you 
want to protect the fisheries, but if you do not have the good 
information, you have to take the more conservative approach, 
which could jeopardize, so forth and so on. Very similar to 
what we just kind of had a discussion over here because I know 
your Mid-Atlantic and your Atlantic assessments are not as 
frequent as what we do in Alaska.
    But all that in mind, what steps are you taking--NOAA is 
taking--to kind of prepare and kind of control that cost of 
satellite? Is there block purchasing? Is there longer term 
contracts? Are there things that you are doing or things we can 
do to assist you in that endeavor to get some more management? 
I mean, similar to what--we just had the Coast Guard talk about 
how they have got fixed pricing on certain things. That has 
helped them save money. Are there things that you are doing or 
things we could do in conjunction to help you?
    Dr. Lubchenco. We have in place a number of mechanisms to 
contain the costs of this program. In fact, we have, speaking 
of JPSS for a moment, we have committed to capping the costs at 
$12.9 million. And that is a reflection of our intent to do 
just that, to keep the costs down as low as we possibly can.
    Senator Begich. Put a lid on the total amount.
    Dr. Lubchenco. Put a lid on the total amount. That creates 
some additional challenges, but I think is the responsible 
thing to do.
    As you know, JPSS is about two satellites and the 
instruments that would be on both of those satellites. And we 
do not quite have the luxury of buying fours, and eights, and 
twelves. You know, we are dealing with just two. That said, you 
know, it is easier to buy--it is cheaper to buy two of 
something than one of something.
    So, we are--I think have in place mechanisms to keep the 
costs down as much as possible, but we do not--we are not 
really in a situation where we can do multiple buys----
    Senator Begich. I understand.
    Dr. Lubchenco.--other than two.
    Senator Begich. Very good. Thank you, Dr. Lubchenco. Let me 
move to Senator Snowe for additional questions.
    Senator Snowe. Dr. Lubchenco, I am looking over the budget 
request, and one of my concerns which I mentioned in my 
statement was the trend within the budget to eliminate or to 
reduce substantially many of these competitive grant programs 
that leverage matching dollars, you know, from the State and 
other partners. And I know my constituents have expressed 
concern that some of these programs are going to be so 
substantially reduced that essentially they are not going to 
have any value, or that they will then be zeroed out 
ultimately.
    Can you explain to me why we have focused on reducing those 
grant programs, because they do maximize Federal dollars 
because you can leverage them for matching dollars and so on. 
So, Federal dollars go further under these types of programs, 
rather than perhaps reductions in the agency's workforce or 
throughout the country in the Federal workforce.
    Dr. Lubchenco. Senator, can you help me understand what 
programs you are talking about? I mean, if it is something like 
the Prescott grants, I can address that. But there is no 
systematic attempt to eliminate matching grant programs.
    Senator Snowe. On these competitive grants and partnership 
programs overall.
    Dr. Lubchenco. So, again, many--I mean, we do have a lot of 
competitive grant programs and existing relationships. And, as 
I mentioned, the amount of funds going to extramural entities 
is actually, the percentage is increasing in this budget. But 
maybe----
    Senator Snowe. The percentage overall?
    Dr. Lubchenco. So, the funds that are extramural now are 
about 25 percent of our budget in Fiscal Year 2012, and they 
are going to go to 27 percent--they would in the proposed 
Fiscal Year 2013 budget. But somehow I think that may not be 
what you are referring to, so----
    Senator Snowe. My staff mentioned the Interjurisdictional 
Fisheries Act, for example, because our Department of Marine 
Resources has indicated that they rely oftentimes on these 
programs. But the state will not have the value once these 
programs are reduced to such a low level.
    Dr. Lubchenco. So, I think there are--I mean, I think that 
is an example of where there are areas that are good things 
that we are not able to do in this budget. And it is a 
reflection of the larger challenges that we face, and it is--
you know, it is not a reflection on those programs at all. It 
is simply the realities that we cannot --you know, we had to 
make really, really tough choices on a lot of these things.
    Senator Snowe. I guess we are saying I know you have to 
make choices, but could some of those choices be workforce 
reduction as well?
    Dr. Lubchenco. We are looking in this budget at 
downsizing--eliminating a number of FTEs, downsizing our 
workforce, and a number of different programs. So, that has 
absolutely been on the table unfortunately.
    Senator Snowe. In another area, I noticed that in the 
budget, the navigational response teams are proposed to be 
eliminated. Is that correct?
    Dr. Lubchenco. Correct.
    Senator Snowe. I know that in Maine just 2 years ago in 
Cobscook Bay these teams were charting the coastline which is 
so significant to maritime commerce and the Coast Guard's work 
obviously, and really is an important navigational service. So, 
how is that service going to be provided if not by the 
navigational response teams?
    Dr. Lubchenco. This is an area--this is a very important 
program. It is small, it is lean, it is mean, it has done 
spectacular things. It is very painful to propose it for 
elimination. We are hopeful that there will mechanisms to work 
with other agencies and with states to try to accomplish some 
of the same functions that the navigational response teams have 
provided. But it is yet another thing in our program that is--
you know, in a better world we would not be proposing a number 
of these things.
    Senator Snowe. You know it is truly part of NOAA's heritage 
from the agency's inception.
    Dr. Lubchenco. I understand.
    Senator Snowe. The early 1800s. So, it just seems to me it 
is a crucial obligation of NOAA to provide that service. I do 
not know if that could be done on an ad hoc basis by other 
agencies.
    Dr. Lubchenco. So, Senator, are you talking about just the 
basic navigation mapping and charting that we do?
    Because that will--is still part of NOAA. That is not what 
these navigation response teams, no.
    Senator Snowe. But the navigation response provide 
additional services in between emergencies.
    Dr. Lubchenco. So, the navigation response crews come in, 
let us say, after Hurricane Irene came through.
    Senator Snowe. Right.
    Dr. Lubchenco. And, you know, scope out where there is new 
stuff that does not belong, and when it is clear for 
navigation. So, that function does not need to be supplied by 
NOAA. It has been. It does not have to be. It is an important 
function without any doubt.
    Senator Snowe. But these teams did provide that service.
    Dr. Lubchenco. They did.
    Senator Snowe. Yes, right. OK.
    Dr. Lubchenco. But we will still be doing----
    Senator Snowe. So, without these teams, who will be 
providing that service?
    Dr. Lubchenco. We are working on that to see--to identify 
what the other possibilities might be.
    Senator Snowe. Alright.
    Dr. Lubchenco. But I want to be clear that we will still be 
providing basic navigation charts, just not----
    Senator Snowe. Yes, I understand, but you are not going to 
be recharting the coastline as frequently. For example, along 
the segment of the coastline in this instance back 2 years ago 
in Cobscook Bay where the tides were as high as 22 feet. It had 
not been recharted from 1899 until 2 years ago. And the point 
is, this is an area that can be very hazardous to navigation. 
So, that type of work is no longer going to be conducted by the 
agency?
    Dr. Lubchenco. That is correct.
    Senator Snowe. I think that is serious.
    Dr. Lubchenco. I am not happy about this either.
    Senator Snowe. What is the cost of that savings, would you 
know?
    Dr. Lubchenco. So, the navigation response teams----
    Senator Snowe. And they helped to open the Hampton Roads 
following Hurricane Irene.
    Dr. Lubchenco. So, it's $2.3 million.
    Senator Snowe. Yes, $2.3 million.
    Well, it seems to me that that would be a critical function 
that should be ongoing within NOAA.
    Dr. Lubchenco. I would like it to be. We were simply unable 
to manage everything that we wanted to have in there.
    Senator Snowe. It is a central function, is it not?
    Dr. Lubchenco. We often partner with local entities and 
with Coast Guard and with others in doing that. So, again, it 
is not a sole function of ours, but it is an important one.
    Senator Snowe. Yes. I think it is crucial. We will have to 
address it.
    Senator Begich. Yes. Let me say--I just want to echo that. 
I actually had it in my line of questioning because of the 
costs for--when you see in some of the areas the value of cargo 
moving in and out of a port and little this is. I understand 
your budget issues, but I guess I am going to hold comment 
here. I will see if Senator Cantwell has some additional, but I 
think one of the things I would ask you to do is probably 
supply over the last two, three, 4 years what new programs have 
been added to NOAA when this one seems to be a pretty basic 
core program, and help us understand what those priorities have 
done, because this one, to me----
    You know, at the rate we go in mapping our coastline, you 
know, they will be four generations dead before they are all 
redone.
    Senator Begich. And the Coast Guard will have brand new 
ships that might be running aground, not that your crews would 
do that, just you may not know--have the right maps.
    So, let me just pause there and just go to Senator 
Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Administrator 
Lubchenco, last March, one of the assistant administrator for 
NMS, Administrator Schwab, testified in front of this 
committee. And he said, ``We'll do everything in NOAA's power 
to make sure the West Coast ground fish form--the fishery is 
supported with adequate catch share coverage and funding.'' And 
obviously the industry is taking the large share of this.
    But I wanted to ask you about your commitment to make sure 
that that is a vital catch share program and that NOAA is doing 
everything it can to support that.
    Dr. Lubchenco. It is a vital program. We are doing 
everything we can to support it. It has even after just a 
single year--you know, it went into operation, came into effect 
just about a year ago--actually a year ago January. And it is 
already by all accounts transforming the industry. There have 
been huge increases in revenues as a result, and I think people 
are pleased with it.
    That said, there are many challenges that remain and 
continuing to cover the observer cost is one that many in the 
industry have flagged. We are working with them on what is 
possible on that front.
    There are a number of other aspects that we are working 
with them. I think we have a good rapport and we are really--I 
think it is a good success, but we need to make it even better.
    Senator Cantwell. But in a sense of having observers catch 
shares, you play a vital role in making that system work, so--
--
    Dr. Lubchenco. We do, and the original plan of all of these 
programs was to--for the Federal Government to fund 100 percent 
of the observer coverage for a period of time, and then ramp 
down so as the industry is recovering, it can take on more and 
more. What we have done is push that to the right because of 
the economy, because of the increase complexities with the 
program that were not fully anticipated.
    So, we are still continuing to provide observer--to fund 
the observer coverage. We have extended by a year the timeframe 
for which we will do that, and then we will begin a ramp down 
where the industry will begin to take on more of it.
    Senator Cantwell. If you could provide those numbers to our 
office, that would be great.
    And then the last question I had, Mr. Chairman, is 
something that you and I and many others are very interested in 
is the proposed budget as it relates to salmon and the Pacific 
coastal recovery impact, and the dollars.
    And so, I am not exactly sure what your thinking as it 
comes to the budget, and I know Congress will have a lot to say 
about this. But what do you think the impacts are on the 
regional councils and the fisheries from this budget?
    Dr. Lubchenco. So, clearly we are not funding the regional 
fishery management councils and commissions at the level that 
we have in the last couple of years. We did everything we could 
to protect the funding to the councils and commissions in 
previous years when other things were taking a hit. They are 
taking a hit this year, and it is not--we are working with the 
councils to try to identify exactly what the consequences will 
be. We do not know that yet. That relates to all of the fishery 
management councils, not just the ones that are of interest to 
your fishermen.
    The salmon--the proposed funding for salmon in the Fiscal 
Year 2013 budget is down from what it was last year, as you 
know, and I think there will be some serious consequences to 
that because many of those programs are very good. It is pretty 
much the same thing that is happening across the board in so 
many of the other areas where there are good things that we are 
simply not able to do.
    Senator Cantwell. But there are laws on salmon, like the 
Endangered Species Act, that we have to comply with. Are you 
saying it will have impacts on that?
    Dr. Lubchenco. We will not be in violation of any laws, but 
the rate at which we can do a variety of activities will not be 
the--you know, what will not--it is a question of pace. But I 
do not think that there is something that is actually--any 
violation of the law that is resulting.
    Senator Cantwell. Well, I am sure we will have a lot to say 
about this moving forward, Mr. Chairman. Thank you very much, 
and I look forward to working with you on a lot of these 
issues.
    Senator Begich. Thank you very much.
    Let me--Senator Snowe, do you have some additional 
questions? I have just about two that I will end up with at the 
last. Go ahead.
    Senator Snowe. Thank you.
    Dr. Lubchenco, I also wanted to ask you about electronic 
monitoring, as you probably discerned at the fisherman's forum 
the importance of the whole question.
    Dr. Lubchenco. Yes.
    Senator Snowe. I just want to get an understanding from you 
where does the issue stand currently with respect to fishing 
year 2013, because it is such a major issue. I know there are 
indications about studying it further, but there have been 22 
studies on this question, and the industry is very concerned 
that they will be required to do the more expensive approach 
with observers.
    I just want to understand what is the status of this 
requirement.
    Dr. Lubchenco. Senator, we--it is clear that the electronic 
monitoring works for some kinds of fishing better than for 
others. And what we are trying to do is identify where we can 
cut down on the number of monitors by using electronic methods, 
but in a way that is easy to track and easy for everybody to 
have the kind of information that is--can be validated.
    We have programs under way to continue to look at this in 
this year, Fiscal Year 2012, and based on those we will make 
decisions about what we can implement for subsequent years. It 
is our hope that we could speed that up, but it is also clear 
that it works in some kinds of fisheries much more easily than 
others.
    Senator Snowe. Right. Yes, I understand that. I just really 
hoped that we could come to an understanding on this question. 
It really is worrisome for the industry because it is a much 
more expensive requirement if they are not allowed to use the 
electronic monitoring.
    Dr. Lubchenco. I understand.
    Senator Snowe. So, I would just hope that there would not 
be a mandate or requirement on this question without a great 
deal of input from the industry regarding other alternatives 
rather than requiring onboard observers, because that really is 
an expensive proposition, especially at this time with the 
economy and the fisheries struggling.
    Dr. Lubchenco. I understand. And I--you know, it is my 
understanding that we are working closely with the fishermen on 
these experiments to try to figure out what the best way is. 
And, in fact, they have offered a lot of very useful 
suggestions into how to make this as effective as possible.
    Senator Snowe. OK. Let us stay in touch on that question.
    Dr. Lubchenco. Absolutely.
    Senator Snowe. Thank you very much. And thank you, Admiral 
Papp, for being here today. I appreciate it. Thank you.
    Senator Begich. Thank you both.
    Admiral Papp, I just have a couple of quick ones.
    Last year, I think it was in the Coast Guard, it was 
appropriated I think in the 2012 budget--well, actually this 
year--last year for this year, $20 million in Fiscal Year 2012 
for military family housing as a line item in there. I did not 
see anything this year. Can you give me just a sense of the 
housing that is always--I know when I visit, you know, maybe in 
Kodiak or wherever it might be, Sitka and other coast guard 
facilities, housing always is a point of stress for the 
families. Can you tell me kind of what your plan is there?
    Admiral Papp. Yes, sir. And that is disappointing for me. 
Our shore ACNI in the 2012 budget was about $200 million, and 
it has gone down to, I think, $70 million in the proposed 
budget. And that includes both housing, improvements to piers, 
boat launch areas, a whole range of shore structures.
    Senator Begich. Repair facilities, things like that.
    Admiral Papp. Yes, sir. And my estimate is we need about 
$200 million a year to keep up with the capital plan that we 
have, and we are down to $70 this year. So, unfortunately, some 
of the housing projects that we would ordinarily do are not 
within the 2013 budget.
    However, we have taken it on as a high mission for both my 
wife and me. We declared the year of the family.
    Senator Begich. Right.
    Admiral Papp. And one of the three areas we are looking at 
is housing. So, we did get some housing money last year, but 
one of the thing that we are also doing is we are doing a 
complete survey of all 4,000 units that we own. We are going to 
determine whether we need to keep all of them, whether the 
money could be spent better otherwise. We are leveraging 
Department of Defense authorities that they have for public/
private ventures, and leveraging them wherever we can.
    We got authorities from this committee 2 years ago, which 
allowed us to sell properties. We have sold the Commandant's 
house, the Vice Commandant's house, the Chief of Staff's house, 
the 13 district commanders house, and other properties.
    Senator Begich. I wondered why your folks brought a cot 
over to my office. I was not clear on all that.
    Admiral Papp. Right. So, we have got almost $9 million 
there in a fund that we are going to devote. And then we have 
also encouraged lots of self-help projects across the Coast 
Guard, which are showing improvements for our people. We are 
fighting on all fronts to improve the housing for our people. 
It is discouraging that we cannot fit it in with in our 
appropriation this year, but we will look to continue in the 
out years.
    Senator Begich. Very good. Let me say to both--first to 
Admiral Papp, I want to thank you and especially the investment 
or the start of investment in an ice breaker. Important. You 
know, we saw, as you noted, with the fuel, to know the value of 
it. We will see additional value. And the Arctic development 
activity and why that is important. So, I want to say thank 
you. I know it is in your long-term plan. I think it is on both 
of us to make sure it is funded. A plan is as good as the money 
that goes along with it; otherwise, it is just another plan we 
revise next year.
    So, I recognize that. I think the Committee recognizes 
that. And I just really want to say thank you for recognizing 
that as an important aspect in the sense of getting the money 
on the table so we can keep the motion moving.
    Along with that, I want to say thanks to your crew. I had 
an opportunity to call them on Christmas Eve on their extended 
mission for Nome. It was great to be able to wish them happy 
holidays, but also just to hear from them and thank them for 
the extraordinary work they did. And it really was a 
combination between the two organizations. And, again, shows a 
unique need for Ice Breaker capacity, but also incredibly 
dedicated crews, may they be the Coast Guard or the NOAA folks 
working from on shore and others.
    It really was a sight to be seen. And I will tell you, 
wherever I traveled, not in Alaska, but outside, people asked 
me what is the latest, you know, because people were tracking 
it and watching it.
    So, I want to thank you. And I also just saw, if you have 
not seen it, a time lapsed video of the whole activity from 
the--from one of the ships or the--I think it was the tanker 
itself. So, it shows that whole activity as it is moving and 
breaking. It was an amazing time lapsed video, and if you 
could--if you have not seen it, you should. It is amazing, to 
say the least.
    Admiral Papp. Sure. We will look for it.
    Senator Begich. Great.
    Dr. Lubchenco, you--as I think we have all just noted, you 
probably felt a little more under pressure. I think the Admiral 
was thinking, geez, I am glad you are getting all the questions 
for the moment. But you have a tough budget.
    Dr. Lubchenco. We do.
    Senator Begich. We know that. And we are concerned, as you 
can probably sense here. And as I wanted to follow up on 
Senator Cantwell's concern. It is a 14 percent reduction in 
those management councils, which is critical to keep, I say in 
Alaska, people happy and satisfied, that there is engagement. 
Without that, we end up with situations that we pay for later.
    And so, I think you are going to see us ask a lot of hard 
questions, and ask additional questions of how you can help us 
understand the budget implications, the value of it, and what 
we can do to ensure that the long-term science is there, 
because without that, our fisheries, as an example, are not 
going to be able to be sustainable. And you know that better 
than anyone.
    But I want you to know, the questions are hard because we 
are concerned. And we are concerned because these are long-
terms jobs and economic impact to our respective communities 
here. So, I think it is important that we do what we can to 
make sure that you have the right tools on hand. And part of 
that is budget.
    So, I thank you for weathering--there is no satellite here 
to warn you what to prepare for--but weathering the 
opportunities. And, again, there are some--I do have--I think 
we are going to keep the record open for--do we keep the record 
open for this? Ten days?
    Voice. Two weeks.
    Senator Begich. Two weeks? We will keep the record open for 
2 weeks for additional questions and commentary.
    We also have many stakeholders who have written us in 
regards to committee budget issues. We are going to enter that 
into the record.
    We will share that with you obviously.
    But, again, thank you both for being here, being part of 
this. I know our schedules are difficult to put together, but 
thank you for doing what you are doing. And thank you to the 
people behind you every day making your organizations as 
successful as they are. Thank you all very much.
    This meeting is adjourned.
    [Whereupon, at 4:29 p.m., the hearing was adjourned.]
                            A P P E N D I X

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Thank you, Mr. Chairman for holding this important hearing on the 
NOAA budget for Fiscal Year 2013.
    Welcome, Dr. Lubchenco, glad you could join us today. As you know, 
NOAA's work has tremendous importance to the Massachusetts economy. 
From our fishing communities to our tourism industry to our ocean 
research institutions, our connection to the ocean is an integral part 
of our economy and our cultural history.
    I was also encouraged to see the increase in funding for stock 
assessments and fish surveys. As you well know, these form the basis of 
our fisheries management and it is critical that we get enough 
resources so that the science is where we need it to be before we make 
these management decisions.
    Over the years, I have frequently called for increased quantity and 
improved quality of stock assessments and for NOAA and NMFS to take 
tangible steps to collaborate with our local institutions. The current 
Gulf of Maine cod assessment issue is a clear demonstration of the need 
for more scientific resources. We saw a 2008 assessment that showed a 
healthy stock, management decisions were made accordingly, and then the 
most recent assessment shows such a drastic decline that we're looking 
at dramatically lower catch limits this year. That level of uncertainty 
is a direct result of the infrequency of assessments and I will keep 
fighting to get appropriate funding for increased research and data 
collection.
    The interim rule offers an opportunity to work together with our 
fishermen to get the science right, once and for all. Given the time 
constraints, partnering with local research institutions and our 
fishermen offers the best opportunity to develop a comprehensive new 
assessment that will be accepted in the fishing communities. The 
outreach from NOAA and NMFS during the GOM cod crisis has been an 
important first step but I want to see that level of engagement 
wherever possible in fisheries management, from enforcement to science.
    I know that the current budget climate means that tough choices 
need to be made. I know that you have made NOAA's satellite programs a 
priority and I'm glad to see the increased funding for many crucial 
programs. As we look to more fully understand the impacts of climate 
change and shifting weather patterns, these satellites are a key piece 
of the puzzle.
    I also want to take this opportunity to highlight some programs 
that are important to Massachusetts that didn't fare as well in the 
President's budget. First is the Prescott Marine Mammal Stranding Grant 
program, which offers grants to members of national marine mammal 
stranding networks. The Prescott program has received attention in 
Massachusetts over the past months as Cape Cod has been inundated with 
stranded dolphins, at last count a total of 179. Our local network 
managed to successfully return 53 of these animals to the ocean. 
Elimination of the Prescott program means the elimination of the sole 
source of Federal funding for these dedicated volunteer organizations.
    The Coastal and Estuarine Land Conservation Program is another 
Massachusetts priority that is slated to be eliminated in the 
President's budget. CELCP provides grants to eligible state agencies 
and local governments to acquire coastal property or conservation 
easements from willing sellers. Grants have been highly competitive and 
Massachusetts has been lucky to receive just over $4 million from the 
program and hopes to increase that total if the Nasketucket Bay project 
receives FY12 funding.
    Dr. Lubchenco, thank you again for being here. I look forward to 
continuing to work with you on these issues that hold so much 
importance for Massachusetts.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Admiral Robert J. Papp, Jr.
    Question 1. Please provide the Committee on Commerce, Science, and 
Transportation an updated backlog list of prioritized shore 
Acquisition, Construction, and Improvement (AC&I) projects, including 
military housing needs. What is the total cost of this AC&I backlog?
    Answer. The Coast Guard performs an annual review of Shore AC&I 
projects and updates construction priorities as part of the five-year 
Capital Investment Plan. The below list, updated on May 21, 2012, 
reflects the Coast Guard's current $664.9 million prioritized backlog 
of Shore AC&I projects, including projects requested in the President's 
FY 2013 request.

           Prioritized Shore and Military Housing AC&I Backlog
------------------------------------------------------------------------
                                                              Estimated
          Location                 Project Description         Project
                                                              Cost ($K)
------------------------------------------------------------------------
         Projects included in President's FY 2013 Budget Request
------------------------------------------------------------------------
Air Station Kodiak, Alaska   Protect Arctic Operations in          5,000
                              Cold Bay Alaska
Air Station Kodiak, Alaska   Recapitalize Sitkinak                 1,100
                              Refueling Site
Air Station Barbers Point,   Construct Aircraft Rinse Rack         5,000
 Hawaii
Station New York, New York   Construct Boat Ramp                   1,900
Various                      New AtoN/Waterways                    1,000
                              Construction
Various                      Minor Shore AC&I Projects             5,000
------------------------------------------------------------------------
                      Out-year Prioritized Projects
------------------------------------------------------------------------
Sector SE New England,       Replace ANT/STA/WPB Woods Hole       23,000
 Massachusetts                Buildings
MSST Pacific Taclet,         Consolidate DOG Facility in          34,000
 California                   San Diego
Various                      New AtoN/Waterways                   26,000
                              Construction
Various                      Minor Shore AC&I Projects            55,000
Academy New London,          Construct Indoor Firing Range        21,500
 Connecticut
CG Sector Columbia River,    Construct Unaccompanied              11,000
 Oregon                       Housing
Base Kodiak, Alaska          Consolidate Aviation/ISC             18,500
                              Support Phase II
Sector Buffalo, New York     Recapitalize Moorings Phase I        10,000
Academy New London,          Chase Hall Barracks                  50,000
 Connecticut                  Renovations--All Remaining
                              Phases
Station Vallejo, California  Provide Permanent Station             7,400
                              Facilities
Air Station Cape Cod,        Construct Fuel Farm                     850
 Massachusetts
Station Marathon, Florida    Construct Upper Keys Family           7,000
                              Housing Phase II
CG Sector Columbia River,    Greater Astoria Family                6,000
 Oregon                       Housing, Phase I
CG Air Station Cape Cod,     Renovate Unaccompanied                8,000
 Massachusetts                Personnel Housing
Training Center Petaluma,    Replace Existing Water Main           9,800
 California
Sector Honolulu, Hawaii      Construct Sector Honolulu            36,300
                              Facilities
Sector Buffalo, New York     Recapitalize Moorings Phase II       19,000
Sector Field Office Valdez,  Construct Station Facilities         42,000
 Alaska
Sector Guam                  Recapitalize Facilities              42,100
Air Station Borinquen,       Construct Fuel Farm                   4,000
 Puerto Rico
Training Center Cape May,    Renovate Recruit Barracks &          10,000
 New Jersey                   Classroom Phase I
Air Station Los Angeles,     Relocate Air Station                 21,000
 California
Station Tillamook, Oregon    Replace Boat Haulout Pier            19,000
Base Elizabeth City, North   Recapitalize Airfield Pavement       23,000
 Carolina
Base Miami, Florida          Replace Waterfront Bulkhead           3,000
Training Center Cape May,    Renovate Recruit Barracks &          10,000
 New Jersey                   Classroom Phase II
Air Station Elizabeth City,  Consolidate Air Station/             30,500
 North Carolina               Station Facilities Phase I
Base Kodiak, Alaska          Recapitalize Fuel Pier               26,800
Marine Safety Office         Establish Facilities                  2,000
 Pittsburgh, Pennsylvania
Station Morro Bay, Oregon    Construct New Station Building        6,600
Aviation Training Center,    Recapitalize Unaccompanied            7,000
 Mobile, Alabama              Personnel Housing
Training Center Yorktown,    Construct Additional Berthing         4,500
 Virginia
Training Center Petaluma,    Recapitalize Housing                 41,000
 California
Sector Columbia River,       Greater Astoria Family Housing       10,000
 Oregon                       Phase III
------------------------------------------------------------------------
                             Prioritized Major Shore AC&I        664,850
                              Backlog Total:
------------------------------------------------------------------------


    Question 2. According to the Capital Investment Plan, there is no 
funding in the out years for NSC #7 or NSC #8. Yet the Coast Guard 
maintains that the acquisition program of record still remains eight 
NSCs. The Five Year Capital Investment Plan suggests the remaining two 
NSCs may be impacted by the Department of Defense's Strategy, 
Sustaining Global Leadership: Priorities for the 21st Century Defense. 
What is the acquisition strategy for the remaining two NSCs?
    Answer. Recapitalization of the Coast Guard's surface fleet is a 
top Departmental priority and the FY 2013 budget fully funds National 
Security Cutter #6. The Coast Guard's FY 2013-17 out-year Capital 
Investment Plan portrays acquisition priorities for the next five years 
assuming the limits of budgetary growth set by the Budget Control Act 
of 2011. Risk-based execution of Coast Guard's core missions is the 
fundamental driver of these priorities and specifically informs the 
ongoing DHS review of Coast Guard's major cutter acquisition programs. 
This review is looking at the trade-offs necessary to fund requirements 
within a constrained top-line. The DHS Cutter Fleet Study, the Coast 
Guard's Fleet Mix Analyses, and other relevant studies are contributing 
to this review. DHS will also work very closely with the Department of 
Defense and other partners to determine impacts to operational planning 
on the National Fleet Plan as threats evolve, and evaluate acquisition 
priorities of all Homeland Security and National Security policies to 
ensure we are building complementary, non-redundant capabilities.

    Question 3. What would be the added costs if the Coast Guard delays 
the production of NSC #7 and #8?
    Answer. Our priority is NSC #6 in FY 2013 and we're focused on 
following the path set with NSCs #4 and #5 which are on schedule and 
within budget. As DHS continues its oversight of Coast Guard's major 
cutter acquisition programs in 2012, we are evaluating the most cost 
effective way to ensure recapitalization achieves the Coast Guard's 
long-term performance requirements.

    Question 4. What happens to the Coast Guard's offshore capability 
if the sixth, seventh, and eighth National Security Cutters are not 
funded?
    Answer. Coast Guard's offshore surface capabilities are primarily 
provided by major cutters. The legacy High Endurance Cutters and Medium 
Endurance Cutters are currently operating beyond their economic service 
life and experiencing decreased operational availability and increased 
maintenance costs. Under the recapitalization program, National 
Security Cutters and Offshore Patrol Cutters will provide enhanced 
capability, essential for performing long range missions in today's 
high-threat environment, including transit zones for narcotics, the 
Bering Sea, and the Arctic. As recapitalization proceeds, the Coast 
Guard will continue to assess the balance of the Service's assets and 
how to best achieve the necessary long-term capability with a mix of 
assets.
    The FY 2013 budget fully funds National Security Cutter #6. Beyond 
2013, DHS is currently looking at the fleet mix alternatives that would 
fund requirements within a constrained top-line while maintaining long-
term performance objectives. Under the assumptions of the DHS Cutter 
Fleet Study, the analysis suggests some alternatives, such as trading 
more Offshore Patrol Cutters for fewer National Security Cutters, would 
slow the rate at which performance increases, but sustain or increase 
performance from the current level. The goal of all alternatives is to 
achieve the required end state capability.

    Question 5. S. 1665, the Coast Guard Authorization Act for Fiscal 
Years 2012 and 2013, has a provision to permit the Coast Guard to enter 
into multi-year contracts for the procurement of the National Security 
Cutter (NSC). How would authorization for multi-year funding for the 
National Security Cutter (and other ships), improve the Coast Guard's 
ability to recapitalize its aging fleet? How much savings do you think 
the Coast Guard would achieve, if multi-year contracts were an option 
for the NSC?
    Answer. Multi-year procurement is not applicable to the NSC 
project.

    Question 6. Over the previous budget cycles the need to address 
critical housing shortfalls and recapitalize Coast Guard military 
family housing facilities was highlighted to ensure military members 
have access to housing in areas where there is a lack of affordable 
accommodations. The Coast Guard was appropriated $20 million in fiscal 
year 2012 for military family housing. Military housing was a separate 
line item in the Congressional Justification last year. For FY 2013, 
there is no separate line item military family housing. How much 
funding is proposed for military housing improvements in FY 2013? Is 
military housing a priority this year?
    Answer. Addressing the condition of military housing remains a high 
priority for the Coast Guard. The FY 2013 budget proposes approximately 
$11.5 million of maintenance money (OE) for family housing and barracks 
at Bases, Air Stations, Training Centers, and personnel accession 
points.

    Question 7. Media reports have stated that the Air Force has 
offered the Coast Guard 21 brand new C-27J airplanes for free. What is 
the cost savings in initial acquisition costs compared to the HC-144?
    Answer. The Coast Guard is currently evaluating the cost to convert 
the C-27J into a suitable maritime search platform, costs for pilot and 
crew training, and operating and sustainment costs; a business case 
analysis is in progress. After the analysis has been completed and 
reviewed, further details regarding costs will be available.

    Question 8. The Administration has requested $8 million to initiate 
survey and design activities for a new Coast Guard polar icebreaker. In 
terms of the Major Systems Acquisition Process as outlined in the Major 
Systems Acquisition Manual, where does this survey and design fall? 
What acquisition phase is this?
    Answer. ``Survey and Design'' is a pre-acquisition activity in the 
``Project Identification'' and ``Need'' phases of the Major Systems 
Acquisition Process. ``Survey and Design'' for the Polar Icebreaker is 
part of the $8 million requested for the Polar Icebreaker Program, 
Project and Activity in the FY 2013 President's Budget and is intended 
to assist with the completion of the Mission Needs Statement and the 
Concept of Operations, which are two ``Need'' phase activities.

    Question 9. The Administration has requested $8 million to initiate 
survey and design activities for a new Coast Guard polar icebreaker. 
Explain how the High Latitude Mission Analysis Report and the U.S. 
Polar Icebreaker Recapitalization Business Case Analysis will be used 
in the acquisition of the new Coast Guard polar icebreaker.
    Answer.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Coast Guard Major Systems Acquisition Manual (MSAM), Commandant 
Instruction M500.10B, lays out a lifecycle framework for each 
acquisition project.
    Project Identification Phase: The primary objective of the Project 
Identification Phase is to prioritize ongoing mission analyses that 
review or endorse current and emerging needs. Before a major systems 
acquisition formally begins, a capability gap must be identified. The 
High Latitude Study and subsequent High Latitude Mission Analysis 
Report (HLMAR) were conducted to identify the Coast Guard's 
requirements in the Polar Regions. The Polar Icebreaker project is 
currently in this phase.
    Need Phase: During the Need Phase, the HLMAR will inform the 
Mission Needs Statement (MNS) and Concept of Operations (CONOPS) that 
describe specific functional capabilities required to address 
capability gaps in Coast Guard Mission Performance. In the case of the 
Polar Icebreaker, the HLMAR suggested that ``a mix of forward operating 
locations, aircraft, communications infrastructure and ice-capable 
ships (including some classified as icebreakers) could be required, 
depending on the level of mission demand and performance desired.''
    Analyze/Select Phase: Identifies and explores alternatives through 
Alternatives Analysis (AA) to fill validated user mission capability 
gaps identified in the MNS. Feasible alternatives are evaluated and 
system requirements are identified to provide a basis for assessing the 
relative merits of the alternatives and ultimately determine a 
preferred solution. The ``Polar Icebreaker SLEP vs. Replacement'' Polar 
Icebreaker Recapitalization Business Case Analysis (BCA), which was 
mandated by Congress and has already been completed, is a key input to 
the AA.

    Question 10. The Administration's Fiscal Year 2013 budget request 
for includes $30 million for the Offshore Patrol Cutter for, among 
other thing, Preliminary and Contract Design (P&CD) evaluation and the 
award of three P&CD contracts. The Coast Guard's FY 2013 congressional 
justification for the OPC notes that the OPC ``will possess the 
endurance, sea-keeping, and persistent presence to complete missions at 
the outer extent of the EEZ and coastal approaches,'' and will have 
``updated command and control systems . . . [which] will aid in the 
detection, classification, and identification of targets of interest 
(TOIs), while the use of well-equipped deployed aircraft and small 
boats coupled with adequate cutter speed will provide the requisite 
capacity to intercept and prosecute TOIs.'' Given anticipated OPC 
mission demands, safety of flight considerations associated with OPCs 
operating in conjunction with aircraft, why isn't a 3D radar, with its 
ability to independently determine aircraft altitude, explicitly 
specified for the OPC design?
    Answer. The Coast Guard is collaborating with the Navy to identify 
a Navy-Type/Navy-Owned (NT/NO) multi-mode radar to be included as 
Government Furnished Equipment to the shipbuilder. This multi-mode 
radar would have the capability to detect and track air and surface 
contacts. The requirements outlined in the OPC ORD meet the Coast 
Guard's operational requirements.

    Question 11. Considering that establishing separate and new 
logistics infrastructure for disparate systems adds considerable life 
cycle cost to the government in a budget environment that dictates 
prudence, why are OPC system design requirements not directed to be 
common with those of the NSC in areas such as C4ISR and sensors such as 
3D radar?
    Answer. Commonality with other Coast Guard Surface fleet assets 
(National Security Cutter (NSC) and Fast Response Cutter (FRC)) and 
Navy Type/Navy Owned (NTNO) equipment has been considered and 
incorporated.

  <bullet> The current draft OPC System Specification requirements 
        reflect commonality with the C2/Navigation systems being 
        deployed on the FRC.

  <bullet> The OPC requirements for a medium caliber weapon system are 
        common to the NSC.

  <bullet> The OPC shares common sensor requirements with the NSC; 
        however, not all of the capabilities provided on the NSC will 
        be included on the OPC.

  <bullet> The OPC's multi-mode radar is expected to be NTNO equipment. 
        Through collaboration with the USN, cost savings for this radar 
        will be realized via common procurement and logistics support 
        throughout the radar's life cycle.

  <bullet> The Coast Guard will continue to aggressively seek 
        commonality across its cutter classes and DOD where cost 
        effective.

    Question 12. To what extent is the Coast Guard cooperating with the 
Navy to realize potential OPC program cost savings via common 
procurements, infrastructure investments, and logistics support of 
systems such as C4ISR and 3D radar?
    Answer. The Coast Guard is working closely with the Navy to realize 
affordability through common systems and support. Lessons learned from 
Navy procurements (e.g., Spearhead class Joint High Speed Vessel, 
Freedom and Independence class Littoral Combat Ships, Lewis and Clark 
class Dry Cargo/Ammunition Ships) have been analyzed and applied, where 
appropriate, to the OPC Acquisition Strategy. Use of Navy Programs of 
Record and NTNO systems have reduced projected development costs, Total 
Acquisition Costs and Operating and Sustainment costs for the OPC 
through common logistics and training.

    Question 13. In testimony before the House of Representatives in 
October, 2011, the Government Accountability Office noted its concern 
that, of the major assets and systems being acquired as a part of Coast 
Guard's Recapitalization Program, not all had revised baselines 
completed. Most notably, the OPC acquisition project, which 
contemplates the acquisition of 25 new hulls and is expected to be a 
prime cost-driver in the Recapitalization Program, has yet to have its 
baseline revised. Admiral Papp, when asked by Senator Snowe at this 
hearing whether the Coast Guard has revised or will soon revise the 
project baseline for the OPC, seemed to respond in the negative. Is 
there a plan to revise the project baseline for the OPC, as Coast Guard 
has done for the National Security Cutter, the Fast Response Cutter, 
the HC144A, the H-130H, the H-130J, the MH-60T upgrade, the MH-65D 
upgrade, the Medium Endurance Cutter sustainment program, the Patrol 
Boat sustainment program, and other major acquisition programs?
    Answer. An asset specific Offshore Patrol Cutter (OPC) Acquisition 
Program Baseline (APB) was developed for the Acquisition Decision Event 
(ADE) 2A/B, Analyze/Select phase transition to Obtain phase, and 
approved by the Coast Guard Component Acquisition Executive (CAE) on 
February 27, 2012. The OPC Project APB was approved by the DHS 
Acquisition Decision Authority on April 20, 2012.

    Question 14. In testimony before the House of Representatives in 
October 2011, the Government Accountability Office noted its concern 
that, of the major assets and systems being acquired as a part of Coast 
Guard's Recapitalization Program, not all had revised baselines 
completed. Most notably, the OPC acquisition project, which 
contemplates the acquisition of 25 new hulls and is expected to be a 
prime cost-driver in the Recapitalization Program, has yet to have its 
baseline revised. Admiral Papp, when asked by Senator Snowe at this 
hearing whether the Coast Guard has revised or will soon revise the 
project baseline for the OPC, seemed to respond in the negative. What 
is the current estimated total cost and completion date for the Coast 
Guard Recapitalization Program (formerly known as the ``Integrated 
Deepwater Systems Program'')?
    Answer. It is difficult to develop an analogous Total Acquisition 
Cost for projects that originated under the ``Integrated Deepwater 
Systems Program.'' There have been a number of program changes since 
the 2001 baseline including Airborne Use of Force and the National 
Capital Region Air Defense Rotary Wing Air Intercept capability. 
Moreover, the timeframe to completion for many projects has been 
extended resulting in inflationary costs. Also, some projects are 
undergoing revisions to their Acquisition Program Baselines, some up 
and some down, and some major asset quantities and capabilities may be 
changed to optimize competing priorities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                      Admiral Robert J. Papp, Jr.
    Question 1. An increase in tar sands oil production in British 
Columbia, Canada will almost certainly increase traffic of vessels 
transporting crude oil both adjacent to and inside U.S. waters in the 
Puget Sound, the Strait of Juan de Fuca, and the Georgia Strait. 
According to Kinder Morgan, Vancouver, Anacortes, and Ferndale could be 
the exit point for 700,000 barrels of Asia bound tar sands oil a day. 
Admiral Papp, how many more oil tankers, barges, or supertankers would 
be required to transport that volume of oil? What does that mean for 
ship traffic in our already congested waterways? How does this 
increased traffic increase the probability of a marine casualty or 
accidental discharge?
    Answer. One average size crude oil tanker can carry 700,000 barrels 
of tar sands oil. This is roughly the same as the daily throughput of 
the Valdez, Alaska Oil Terminal. Valdez typically has 25 laden tanker 
movements each month. If the same monthly average increase in traffic 
were to occur in Puget Sound, the Strait of Juan de Fuca, or the 
Georgia Strait; the consequent increase in navigation risk over the 
current level of risk would be negligible.

    Question 2. If the vessels are departing from or arriving at a 
Canadian port without stopping at a U.S. port, these vessels would not 
necessarily have to meet all the post-OPA 90 construction requirements, 
as well as the relatively new tank vessel response plans. However, they 
would certainly have to meet all of Canada's requirements. Regarding 
U.S.-Canada relations, an effective oil spill Joint Contingency Plan is 
in place. Finally, Puget Sound already has a requirement in place for a 
pre-positioned response tug. What additional oil spill assets (boom, 
tugs, etc) would the Coast Guard need to protect our waterways if this 
vessel traffic increase does occur?
    Answer. The Coast Guard is not responsible for maintaining and 
operating spill response equipment, but rather sets planning 
requirements and provides oversight and approval of industry Vessel 
Response Plans (VRP) and Facility Response Plans. VRP requirements are 
based upon the worst-case discharge scenario for an individual vessel 
and require the plan holder to have access to a minimum amount of 
response resources, including vessels, in order to respond to an oil 
spill from their vessel or facility. Most often, these resources are 
provided by Oil Spill Response Organizations at a cost to the plan 
holder. If vessel traffic increases on a route that already serves 
vessels with similar oil carrying capacity, the required infrastructure 
and resources would already be in place to deal with the current vessel 
traffic. If vessels with a significantly greater capacity are added to 
the route, their VRPs will require them to have access to spill 
response resources commensurate with their worst-case discharge 
scenario.

    Question 3. Will tankers coming out of Vancouver to China cross 
into U.S. waters? If yes, are they required to have an oil spill 
response plan? Will they then be helping fund our local oil spill 
response system (Neah Bay Tug, forward deployment of response 
equipment, etc)? Is there a cost sharing agreement outlined between the 
two countries? What document, agreement or treaty outlines this cost 
sharing agreement? Please supply my office with a copy of this 
agreement.
    Answer. All inbound traffic to the Strait of Juan de Fuca travels 
U.S. waters as a result of a traffic separation scheme (established in 
33 CFR 167.1310-1315). All outbound traffic travels within Canadian 
waters.

  1.  All oil tankers 150 gross tons and greater are required to carry 
        a Shipboard Oil Pollution Emergency Plan (SOPEP) mandated by 
        the International Convention to Prevent Pollution from Ships 
        (MARPOL) and included in U.S. regulations at 33 CFR 151.26.

  2.  A foreign flagged vessel bound for a Canadian port is engaged in 
        innocent passage and exempt from U.S. Coast Guard Vessel 
        Response Plan requirements by 33 CFR 155.1015(c)(2).

  3.  The Neah Bay Emergency Response Towing Vessel (ERTV) and Neah 
        Bay's forward deployed response equipment are mandated by 
        Washington State regulations administered by the Washington 
        Department of Ecology. Washington State law also authorizes the 
        establishment of the ``Washington State Maritime Cooperative'' 
        (WSMC)--a non-profit group that coordinates industry spill 
        response planning. The ERTV is supported by industry user fees 
        paid to WSMC or directly to the ERTV operator. WSMC and 
        Canadian response organizations have a cooperative agreement, 
        whereby vessels transiting to U.S. ports (and covered by a WSMC 
        plan/response gear) receive Canadian coverage for their 
        outbound transit through Canadian waters. Vessels headed to a 
        Canadian port covered by Canadian response organizations 
        receive reciprocal coverage for their transit through U.S. 
        waters. Discussions to develop more formal cost sharing 
        relationships are being conducted at the state/provincial 
        level.

  4.  Cooperative Agreement: (http://www.wsmcoop.org/nss-folder/
        fieldguide/WSM
        C1Burrard%20Agreement.pdf).

  5.  Washington Department of Ecology: (http://www.ecy.wa.gov/
        programs/spills/preparedness/)

    Question 4. In the event of a spill in the Haro Strait, how long 
would it take for oil to reach the beaches of the San Juan Islands? 
Please describe the impacts tar sands oil (compared to other types of 
crude) would have on the San Juan Islands and the sensitive marine 
ecosystems which thrive there.
    Answer. NOAA provides both trajectory and oil fate and effect 
modeling to the U.S. Coast Guard's Federal On-Scene Coordinators as 
Scientific Support Coordinators under the National Contingency Plan 
(NCP). As such, this question is best referred to NOAA for additional 
information.

    Question 5. I understand that U.S. Coast Guard regulations limit 
the size of oil tankers transiting east of Port Angeles. Can you 
provide a specific description and citation for this regulation? Would 
it apply to Canadian tar sand ships either coming to or leaving 
Vancouver through the Strait of Juan de Fuca?
    Answer. The tanker size limit is established in a Regulated 
Navigation Area per 33 CFR 165.1303. Tankers of greater than 125,000 
deadweight tons bound for a port or place in the United States may not 
operate east of a line drawn between New Dungeness Light (just east of 
Port Angeles, WA) and Discovery Island Light (just east of Victoria, 
BC). A corresponding limitation does not exist in Canadian law or 
regulation.

    Question 6. How does Canadian oil spill response capability compare 
with ours? Do you think the Canadian system and level of response 
assets are adequate? In the event of an oil spill in Canadian waters 
adjacent to the Puget Sound, oil could flow into U.S. waters from 
outside our maritime border. Do we have an adequate agreement with 
Canada to respond to a spill in Canadian waters before it enters U.S. 
federal waters? Please provide my office the most recent version of the 
oil spill response plan(s) for my region.
    Answer. The Canadian regulatory regime concerning response capacity 
for transiting vessels is similar to the U.S. system. Vessels are 
required to identify oil spill response assets in vessel response 
plans. In practice, this means that vessels in Canadian waters have 
contracts with Oil Spill Response Organizations (OSROs) which are 
certified by the Canadian Government to provide the resources and 
personnel assets for spill response. Canadian OSROs are certified by 
Transport Canada, and are bound to provide the contracted capacity to 
the vessel plan holders.
    The United States Coast Guard (USCG) and the Canadian Coast Guard 
(CCG) have a long history of cooperation in executing our 
responsibilities to prepare for and respond to oil and hazardous 
substance events under the auspices of the Canada-United States Joint 
Marine Pollution Contingency Plan (CANUS JCP). The JCP is comprised of 
a base CANUS Plan and five Regional Annexes. Each of these Regional 
Annexes are exercised annually to ensure the ability of the spill 
response teams on both sides of the border to conduct an effective 
cooperative response. The ultimate goal of the CANUS Plans is to 
respond to a spill as near the source as possible to prevent 
transboundary migration of any spilled product. CANUS Pacific was most 
recently updated in 2008. A copy of the 2008 CANUS PAC JCP is attached.

    Question 7. What types of permits must be obtained before oil is 
transported via barge, tanker or supertanker in or adjacent to the 
Puget Sound, the Strait of Juan de Fuca, and the Georgia Strait? What 
types of permitting and other legal processes must be completed in 
Canadian waters where a large oil discharge has the potential to impact 
United States natural resources? Please describe how the United States 
Coast Guard is involved in discussions on oil barge, tanker, or 
supertanker regulations in Canadian waters.
    Answer. Prior to transporting oil in waters subject to the 
jurisdiction of the U.S., a tank vessel must apply and pay user fees to 
obtain a Federal Certificate of Financial Responsibility (COFR) as 
described in 33 CFR 138 Subpart A. Washington State has additional COFR 
requirements, and Canada's Marine Liabilities Act also has similar 
provisions.
    A U.S.-flagged tank vessel will maintain a Certificate of 
Inspection as a means of demonstrating compliance with the safety and 
construction requirements of 46 CFR Subchapter D. A foreign-flagged 
tank vessel will maintain similar documents issued by its flag state 
and the vessel is subject to U.S. Coast Guard or Canadian port state 
control exams to verify compliance with international safety and 
construction standards while in the U.S. The U.S. Coast Guard conducts 
annual examinations of every foreign flag tank ship and barge calling 
at U.S. ports, and issues a Certificate of Compliance attesting to the 
vessel's compliance with international and U.S. standards.
    The U.S. Coast Guard and the Canadian Coast Guard, as the primary 
Federal maritime spill response agencies for each nation, maintain a 
joint oil spill contingency plan (called CANUSPAC for the Strait of 
Juan de Fuca area) outlining mutual support arrangements and exercises. 
The U.S. Pacific states and British Columbia provincial government also 
maintain an Oil Spill Task Force to facilitate cooperation on trans-
boundary spill response.

    Question 8. With the Coast Guard's aging fleet, the United States 
had to rely on additional foreign vessel assistance outside of the EEZ 
during the Deep Water Horizon oil spill response. Admiral Papp, Lt. 
Erik Halvorson, a Coast Guard spokesman said, ``These offers are not 
typically offers of aid . . . Normally, they are offers to sell 
resources to BP or the U.S. Government.'' Is there an oil spill 
response vessel cost sharing agreement between the United States and 
Canada? As Coast Guard vessels are continuing to age, and the Deep 
Water Program has been ended, what will the United States be forced/
willing to pay in an emergency if our aging vessels cannot respond to a 
spill in our own waters?
    Answer. There is not a cost-sharing agreement between the United 
States and Canada for oil spill response vessels. In the case of a 
transboundary spill, the response is coordinated across the border in 
accordance with the Canada-United States Joint Contingency Plan (JCP). 
The JCP provides the mechanism for coordinating the independent 
responses of each nation so as to maximize response resources and 
minimize the damage to the environment and the likelihood of 
transboundary contamination. In the event of a spill which is not 
transboundary, the U.S. or Canadian FOSC may request the use of Oil 
Spill Response Organizations (OSROs) from across the border, at the 
expense of the responsible party or the requesting government.
    The spill response system in the U.S. is based on industry vessel 
and facility response plans (VRPs and FRPs). The industry plan holder 
is required to have access to a minimum amount of response resources, 
including vessels, in order to respond to an oil spill from their 
vessel or facility. Most often, these resources are provided by OSROs 
at a cost to the plan holder. The USCG does not provide response 
resources to cover the response requirements of individual plan 
holders. In the case of large scale responses such as Deepwater 
Horizon, USCG vessels may be used to assist with response efforts. For 
spills which exceed the capabilities of the OSROs identified in the VRP 
or FRP, the responsible party is required to pay for all additional 
actions necessary to mitigate the spill. This includes paying for US 
Coast Guard assets which deploy boom and personnel to the incident.

    Question 9. Admiral Papp, As the Arctic waters open for offshore 
oil exploration and development, is the Coast Guard prepared to patrol, 
enforce, and perform rescue missions as needed in the Arctic? If not, 
what does the Coast Guard need to prepare for this mission?
    Answer. The Coast Guard continues to prepare to patrol, enforce, 
and perform rescue missions as needed in the Arctic.
    For this summer, in response to increasing levels of human and 
maritime activity in the Arctic, the Coast Guard is conducting 
Operation Arctic Shield 2012. This operation will be supported by a 
mixture of Coast Guard flight-deck equipped cutters, sea-going buoy 
tenders, fixed-wing aircraft and helicopters, and shore forces.
    Operation Arctic Shield 2012 will expand the Coast Guard's presence 
in the region over prior years. It will help the Coast Guard to 
evaluate, within the Arctic region, the capabilities of existing 
assets, validate the concept of operations, and conduct outreach and 
engagement with local populations.
    The FY 2013 request includes funding to recapitalize and expand 
helicopter hangar facilities in Cold Bay, Alaska and recapitalize 
aviation re-fueling facilities at Sitkinak, Alaska. These investments 
will enhance the Coast Guard's ability to maintain effective presence 
in the Bering Sea and Aleutian Chain--the ``gateway'' to the Arctic.
    Using the lessons learned from this summer's operations, findings 
of our Polar Capabilities Integrated Planning Team, and recommendations 
of the DHS/DOD Arctic Capabilities Assessment Working Group the Coast 
Guard will continue to work to implement and execute our missions in 
the Arctic region in a manner commensurate with the level of Arctic 
activity.

    Question 10. The Coast Guard's Deep Water Horizon disaster response 
consisted of dozens of aircraft, thousands of vessels, and tens of 
thousands of responders both in the Coast Guard and collaborating with 
the Coast Guard. Is there existing infrastructure to support such an 
effort if there is a similar disaster in the Arctic? If not, what does 
the Coast Guard need (vessels, infrastructure, research) to respond and 
restore ecosystems if there is an oil spill in the Arctic Ocean?
    Answer. The Gulf of Mexico is home to the largest reserves of oil 
spill response equipment and expertise in the country, commensurate 
with the density of drilling activity. The remote nature of the Arctic 
makes it a challenge to provide the same level of resources in the 
region as was in the Gulf of Mexico during the DWHZ Incident.
    However, exploratory drilling in the Arctic is at much shallower 
depth, with significantly lower well pressures and a resulting smaller 
worst case discharge (WCD) as compared to DWHZ. Shell has committed to 
bring substantial resources to the region to fulfill their mandate to 
provide spill response equipment.
    For multi-contingency planning purposes, the Coast Guard is 
planning to stage ships and aircraft in 2012 the vicinity of the Arctic 
drilling sites to respond to and provide command and control for a 
number of contingencies including, search and rescue, law enforcement, 
and oil spill response incidents.

    Question 11. Has the Coast Guard developed an oil spill response 
procedure for the unique sea state, shoreline terrain, and minimal 
infrastructure present in the Arctic? If so, please outline these 
procedures and how the vary from oil spill response procedures 
elsewhere.
    Answer. As defined in the National Contingency Plan, Regional 
Contingency Plans (RCP) provide for regional coordination with states 
and local Area Committees in response to oil and hazardous material 
incidents. Area Contingency Plans, which represent oil spill planning 
at the local level, should contain the description of the geographic 
area, areas of economic and environmental importance that require 
protection, and a description of the equipment, personnel, and 
resources available for effective removal of a discharge.
    In Alaska, the Coast Guard conducts oil spill planning efforts at 
the Regional Response Team and Local Sub-Area Committee levels. The 
Alaska RCP is referred to as the Alaska Unified Plan. The North Slope 
and the Northwest Arctic Subarea Contingency Plans are two of ten 
subarea plans of the Alaska Federal/State Preparedness Plan for 
Response to Oil and Hazardous Substance Discharges/Releases. These 
plans represent a coordinated and cooperative planning effort between 
members the Environmental Protection Agency, Coast Guard, Alaska 
Department of Environmental Conservation, Department of Interior, and 
numerous other federal, state, local, tribal, and industry 
participants. These plans include site-specific response strategies 
known as Geographic Response Strategies that are tailored to protect 
sensitive areas threatened by an oil spill. The Alaska Unified Plan and 
its Sub-Area Contingency Plans contain extensive guidance on response 
procedures that have been developed for the challenges specific to 
Alaska and the Arctic. On December 8, 2011, members of the Coast Guard 
and the state of Alaska conducted a table top exercise and Incident 
Command Post workshop with Shell personnel to improve oil spill 
preparedness. More recently, Shell sponsored a spill management team 
tabletop exercise for Chukchi Sea on May 24, 2012. Federal on Scene 
Coordinator and Sector Anchorage staff participated; the Coast Guard 
Seventeenth District simultaneously exercised its incident management 
team.

    Question 12. As we have learned from the Deep Water Horizon Oil 
Spill Disaster, clean up can take months, or even years. Does the Coast 
Guard have the assets, infrastructure, training, and technology to 
conduct a year-round oil spill cleanup operation in the Arctic?
    Answer. Under the National Contingency Plan of the Federal Water 
Pollution Control Act, as amended by the Oil Pollution Act of 1990, the 
plan holder is responsible for providing all response resources to 
mitigate the effects of an oil spill. The Coast Guard, as pre-
designated Federal On-Scene Coordinator (FOSC) in the Coastal Zone, 
provides the necessary resources to direct and coordinate oil spill 
response operations. Caches of private sector oil spill response 
equipment exist on the North Slope. Additional response equipment is 
located throughout Alaska and the U.S., and can be cascaded into the 
affected area in the event of a spill.
    The FOSCs and their staffs at Sector Juneau, Sector Anchorage & 
Marine Safety Unit Valdez are ready to provide incident management 
expertise & have access to Coast Guard pre-positioned oil response 
equipment. The Coast Guard Pacific Strike Team based in Novato, CA, 
maintains response equipment and specially trained personnel, which can 
be deployed on short notice to response to an oil spill. An Aerial 
Dispersant Delivery System is staged in Anchorage. Coast Guard C-130 
crews from Air Station Kodiak are trained in its operations to augment 
commercial resources.
    Shell's exploration plans for 2012 are limited to offshore drilling 
between the summer months of July--Sept. Shell and private sector 
resources will be pre-positioned and ready to respond to any oil spill 
incident that occurs during this warmer, ice-free operating period. Any 
cleanup operation that occurs beyond that period into the Arctic winter 
months would present significant challenges due to extremely harsh 
operating environment, including adverse weather, cold temperatures, 
ice, and periods of extended darkness.

    Question 13. Does the Coast Guard conduct oil spill response drills 
in ice conditions? If so, please describe the exercises, locations, and 
lessons learned over the last three years. Does the Coast Guard have 
adequate funding to train personnel to respond to oil spill drills in 
ice conditions?
    Answer. In the past three years, the Coast Guard has conducted 
several drills/exercises for regions where ice conditions exist (e.g. 
Beaufort Sea, Canadian Arctic, and the Great Lakes). The intent of 
these exercises was to address spill response planning and preparedness 
as a whole, not exclusively related to oil in ice.
    In November 2009, the Coast Guard First District (Northeast United 
States) and Transport Canada conducted a tabletop exercise (TTX) to 
evaluate the Atlantic Geographic Annex to the U.S./Canada Joint 
Contingency Plan. This TTX evaluated the ability to effectively deploy 
people and resources to a respond to a 430,000 barrel oil spill 
incident near the U.S./Canada border. The purpose of the exercise was 
to facilitate productive discussion and reach agreement on topics such 
as mutual aid, commercial resources, health and safety, and wildlife 
rehabilitation. The lessons learned from this exercise included 
developing equipment mutual aid agreements between the two countries 
and to advance aerial remote sensing equipment and procedures.
    In March 2010, the Coast Guard Seventeenth District (Alaska, 
Arctic) and Transport Canada conducted a TTX to provide an opportunity 
to increase awareness of the challenges associated with an oil spill 
response in the Beaufort Sea. Participants from federal, state, 
territorial, tribal, and local communities collaborated during the two-
day event to address a joint oil spill response in this remote region. 
The major lessons learned during this TTX included: identifying optimal 
locations for Incident Command Posts, Forward Operating Bases, Joint 
Information Centers and logistics associated with each; identifying and 
prioritizing sensitive areas; identifying and defining initial response 
capabilities; and planning for response surge options for shore side 
recovery based on forecasted impacts.
    In January 2012, the Coast Guard conducted a research and 
development exercise on the Great Lakes focused on oil in ice equipment 
capabilities. This demonstration exercise focused on deployment and 
testing of oil spill response equipment capabilities in and near ice 
conditions. The various tools (ice toughened skimmer, remotely operated 
vehicles and oil spill in-situ burn containment boom) proved that many 
Oil Spill Response Organizations have some oil in ice response 
capabilities but also showed that several shortfalls remain. The most 
important lesson learned was in regards to work platforms (vessels) 
that would be used to deploy response equipment during the management 
of an oil spill in ice. Another important issue identified was that the 
extremely cold weather conditions create issues for both the equipment 
and responders exposed to subfreezing temperatures that would need to 
be mitigated during an actual incident.
    Over the past three years, the Coast Guard has conducted eight oil 
spill response exercises in the Arctic. These Coast Guard lead National 
Preparedness for Response Exercise Program exercises were conducted in 
areas where oil in ice could have been an issue that would add an 
additional complexity to response activities. As part of the ongoing 
efforts to plan and prepare for incidents in the Arctic, the Coast 
Guard has twelve exercises planned in this region over the next six 
years.
    In regards to oil spill planning, preparedness and exercises, the 
Coast Guard also works closely with Bureau of Safety and Environmental 
Enforcement (BSEE) on offshore drilling activities such as those 
planned by Shell for the Beaufort and Chukchi Seas. BSEE has the 
primary responsibility to regulate these offshore facilities and to 
conduct plan reviews and exercises. The Coast Guard participates in 
many of these BSEE lead exercises to further enhance oil spill 
preparedness and coordination throughout the offshore environment.

    Question 14. In the event of an oil spill in the Arctic, is the 
Coast Guard prepared to respond to oil spills in or near ice 
conditions? Please list technologies that the Coast Guard is prepared 
to deploy in the event of an oil spill in ice conditions. How do these 
technologies compare to technologies used elsewhere?
    Answer. Tools for responding to oil in ice are limited. Response 
strategies to all spills including those with the additional complexity 
of ice are considered in local and regional planning efforts. The North 
Slope Subarea Contingency Plan contains links to the Alaska Clean Seas 
Tactics Manual, which outlines strategies that could be employed during 
an oil spill response in ice conditions. These strategies include: 
mechanical recovery, in-situ burning, and use of dispersants.
    Mechanical recovery effectiveness in ice conditions is limited by 
several factors such as freezing temperatures which can cause 
components of mechanical recovery systems to freeze, as well as surface 
ice, which can prevent mechanical recovery devices from making contact 
with the oil. Examples of recovery tactics outlined in the Alaska Clean 
Seas Tactics Manual are the mechanical recovery of oil in ice through 
ice slotting, the recovery of oil under ice, and ice mining.
    In-situ burning (ISB) and the application of surface dispersants 
are alternative technologies that may also be used during a response if 
deemed a viable response option by the Federal On-scene Coordinator 
(FOSC), the EPA, and the State, in consultation with natural resource 
trustees. In addition to FOSC approval for incident specific use of 
these strategies, ISB and dispersants require specific environmental 
conditions to be safe and effective. Tactics for dispersant application 
as well as for ISB of oil pools on any solid surface (including ice) 
are outlined in the Alaska Clean Seas Tactics Manual.

    Question 15. The Coast Guard's FY13 budget request includes funding 
to operate only two polar icebreakers, the Healy and the soon-to-be 
renovated Polar Star, and to start the process of designing a new polar 
icebreaker to replace the Polar Star. The Coast Guard is continuing its 
efforts to dry-dock POLAR SEA to prepare the vessel for scrapping. Such 
an action would directly contradict the will of the Senate Commerce, 
Science, and Transportation Committee, which approved language 
prohibiting such action last year. Admiral Papp, Would repairing and 
operating the POLAR SEA bring the United States closer to the number of 
Polar Icebreakers recommended by the High Latitude Study? What would 
that cost in FY13 and beyond? I understand that the Coast Guard is 
under severe budget pressure, but why would the United States continue 
to export its polar icebreaking work and the jobs by continuing to 
contract with foreign vessels?
    Answer. Repairing and operating POLAR SEA would cost at least $100 
million to refit for 7-10 years of service plus at least $30M per year 
to operate; this would only address the addition of one icebreaker to 
the U.S. fleet out to 2025. It would be a stop-gap measure at best, and 
leave the Coast Guard in the same position in 10 years, except POLAR 
STAR would then be at the end of its service life as well. It is more 
prudent to spend available resources on the acquisition of a new 
icebreaker.
    The Coast Guard has not contracted foreign vessels to conduct its 
missions.

    Question 16. On September 30, 2011, an urgent Coast Guard (CG) 
Search-and-Rescue response near the mouth of the Columbia River was 
jeopardized when a Motor Life Boat (MLB) ran aground within the Baker 
Bay navigation channel. Although some dredging was performed, shoaling 
has subsequently taken place and is once again a navigation hazard that 
hampers essential Coast Guard functions. Already, on February 8, 2012, 
another MLB ran aground, forcing the CG to temporarily suspend use of 
the vessel to assess the channels condition and reducing critical 
emergency response capabilities. Currently the Coast Guard is using 
Aids to Navigation to help its fleet navigate around the shoal, which 
is costly and doesn't address the problem at its source. Requesting the 
Army Corps of Engineers to dredge only after an emergency response is 
needed because of grounding, and only enough to allow passage for a 
short period of time, is an unsustainable solution that jeopardizes the 
Coast Guard's capabilities and mission at the mouth of the Columbia 
River. What measures will you and are you taking to ensure that the 
Army Core of Engineers is informed of the needs of the Coast Guard to 
maintain an adequate channel at Baker Bay in advance of an actual 
grounding as happened in February, and to prioritize the need for 
dredging to a degree that is sufficient to prevent shoaling that 
threatens the Coast Guards missions on a more permanent basis? What 
steps will you take to ensure that the Army Core of Engineers will 
dredge when necessary in anticipation of shoaling rather than as an 
emergency response to a vessel grounding that puts the Coast Guard and 
public at risk?
    Answer. The Army Corps of Engineers (USACE) has contracted Hickey 
Marine Enterprises to dredge the problematic areas of the Ilwaco 
Channel (Baker Bay). The dredging operations started on April 6, 2012 
and are expected to continue until April 26, 2012.
    Building on the existing partnering efforts of the field units, the 
Coast Guard and the USACE have held staff discussions on how to better 
share information on dredging requirements, coordinate programming 
requests, and timely execution to avoid impacts to operational units in 
the future.

    Question 17. As you know, the U.S. Coast Guard recently raised 
concerns about the new proposed Columbia River Crossing (Interstate 5) 
between Washington and Oregon. This project has undergone years of 
planning and state and federal agency involvement and received a 
federal Record of Decision in December 2011. I understand that the U.S. 
Coast Guard was unable to formally accept or reject the proposed 
clearance level until an official application for a Section 9 permit, 
which must occur after the Record of Decision. That said, I am also 
aware of multiple meetings where concerns about the bridge clearance 
could likely have been more clearly articulated to the CRC Project 
Team. To that end, in the ``INTERSTATE 5 COLUMBIA RIVER CROSSING 
Navigation Technical Report'' released in May 2008, the Columbia River 
Crossing (CRC) Project Team indicated in Section 3.2 USCG meetings 
that: January 25, 2007 CRC meeting with USCG--USCG has jurisdiction 
over channel modifications. They agreed that 95 feet of clearance above 
zero (Columbia River Datum) CRD was in the ballpark of what may be 
acceptable. The USCG cannot accept or reject proposed clearances until 
a Record of Decision (ROD) is issued for the project. Recreational 
vessels that cannot meet this clearance at all times of year must 
justify why they need to have this clearance at all times of year. 
Likewise, cranes unable to make the proposed clearance must justify why 
they need clearance all times of the year.
    Did the U.S. Coast Guard provide written comments on the Navigation 
Technical Report after its release in May 2008?
    Upon review of the draft Navigation Technical Report, did the U.S. 
Coast Guard express specific concerns about the characterization of the 
January 25, 2007 meeting between the CRC Project Team and U.S. Coast 
Guard regarding the bridge clearance?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 18a. Admiral Papp, your staff in District 13 has indicated 
that the U.S. Coast Guard was unable to formally accept or reject the 
bridge clearance for the Columbia River Crossing (CRC) project until 
the application for a Section 9 permit, which was to occur after the 
issuance of the federal Record of Decision. Did U.S. Coast Guard legal 
counsel indicate it was against your authority to accept or reject the 
bridge clearance for the Columbia River Crossing prior to the Record of 
Decision--for instance, during the comment period on the Draft 
Environmental Impact Statement--or was that a staff assumption? If so, 
please provide documentation.
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 18b. Will you commit the U.S. Coast Guard to examining its 
processes to allow for earlier decision-making to prevent future 
conflicts, or do you need authority from Congress to do so?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 18c. How can the process be structured better so that 
future projects can have their Section 9 permits reviewed by the U.S. 
Coast Guard in a way that won't, at the same time, jeopardize the 
Record of Decision?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 19a. Admiral Papp, on a project with such a large regional 
significance that has the involvement of many federal agencies and two 
states, I'm sure you'll agree that coordination is critical. Making 
changes to any project once the planning is well underway can add 
unnecessary expense and threaten completion of the project on time and 
budget.
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 19b. Do you believe that the Columbia River Crossing 
Project Team adequately engaged the U.S. Coast Guard to understand your 
concerns about bridge clearance and determine whether a clearance over 
95 feet would be necessary? If not, what could have been improved?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 19c. Did the U.S. Coast Guard take every opportunity 
presented to it to provide meaningful input and formal comment on the 
Columbia River Crossing project alternatives during their development 
by the Project Team? If not, what could have been improved? If 95 feet 
was thought by the U.S. Coast Guard to be an inadequate bridge 
clearance prior to the Record of Decision, was that expressed to the 
Columbia River Crossing Project Team? If so, when?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 20a. I believe that is important that federal agencies, 
the Columbia River Crossing Project Team, and the states of Washington 
and Oregon come together to discuss how to move forward on this project 
while appropriately weighing stakeholder input and discussing possible 
mitigation steps. What will you do to facilitate these discussions to 
ensure the needs of river and bridge users are adequately addressed, in 
addition to the needs of regional aviation stakeholders?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 20b. Does the U.S. Coast Guard have recommendations for 
how this project could better address the needs of navigation users 
without invalidating the Record of Decision?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 20c. Does the U.S. Coast Guard have recommendations for 
possible mitigation steps for river users impacted by bridge clearance?
    Answer. These questions relate to matters currently in litigation 
and the Department therefore believes that it would not be appropriate 
to address them at this time.

    Question 21. Admiral Papp, On January 23, 2012, the U.S. Coast 
Guard issued an interim final rule creating a safety zone around the 
Export Grain Terminal (EGT) in Longview, Washington to facilitate 
maritime commerce during a labor dispute between EGT and the 
International Longshore and Warehouse Union (ILWU). It has come to my 
attention that the U.S. Coast Guard did not communicate with the ILWU 
prior to the issuance of rule which give the appearance of a federal 
agency taking sides in a private labor dispute. Did the Coast Guard 
communicate about the creation of the zone with EGT or the Port of 
Longview prior to the publication of the rule? If so, then why did the 
Coast Guard not communicate with the ILWU as well?
    Answer. The Coast Guard communicated its concerns over the safe use 
of the navigable waterway with ILWU (as outlined in CAPT B. Jones, 
USCG, memo dated 12 September 2011, attached), EGT, and the Port of 
Longview which eventually led to an establishment of safety zone 
published on 23 January 2012.
    The Coast Guard issued an interim rule, pursuant to authority under 
section 4(a) of the Administrative Procedure Act (APA) (5 U.S.C. 
553(b)). This provision authorizes an agency to issue a rule without 
prior notice and opportunity to comment when the agency for good cause 
finds that those procedures are ``impracticable, unnecessary, or 
contrary to the public interest.''
    The Coast Guard found ``good cause'' for not publishing a notice of 
proposed rulemaking (NPRM) with respect to this rule due to past 
protest events, threats of similar protest activity in the future, and 
the significant difficulty and impracticality of changing vessel 
arrival schedules. The Coast Guard found that it was contrary to the 
public interest to delay implementation of the safety zone during a 
notice and comment period. Postponing the promulgation would have 
created a very likely risk that protest activities would threaten safe 
navigation and the safety of persons and property on the Columbia and 
Snake rivers when vessels began arriving at EGT, Longview, WA.
    Facts supporting the ``good cause'' determination (again, all part 
of the public record for this rulemaking) are outlined below:

  a.  On September 8, 2011, a large protest occurred at Export Grain 
        Terminal (EGT) in which over 200 protestors were arrested for 
        criminal offenses including assault. These protest activities 
        resulted in damage to rail cars and the cargo they were 
        carrying.

  b.  The Longview local International Longshore and Warehouse Union 
        (ILWU) has been subject to fines for contempt of court for 
        engaging in activity that violated a temporary restraining 
        order. Subsequent protest activities aimed at blocking rail 
        access to EGT on September 21, 2011 led to further arrests.

  c.  The protest activities arose from a labor dispute between the 
        ILWU, the Port of Longview, and EGT. The dispute is ongoing 
        and, at the time of publication, picketing activities occurred 
        daily at the EGT facility in Longview, WA. EGT had not yet 
        opened for vessel traffic; however, on November 5, 2011, the 
        president of the ILWU's Local 21 threatened that protest 
        activities will be mounted when the first vessel arrived to 
        load at EGT's facility.

  d.  The schedule of vessel arrivals at EGT is controlled by a number 
        of factors over which the Coast Guard has no control. 
        Additionally, these vessels may be arriving at EGT from foreign 
        ports. Consequently, it is impracticable for grain-shipment 
        vessel arrival schedules to be changed or delayed in order to 
        accommodate a notice of proposed rulemaking and subsequent 
        comment period.

    Under 5 U.S.C. 553(d)(3), the Coast Guard also found good cause 
existed for making this rule effective less than 30 days after 
publication in the Federal Register, because to do otherwise would be 
contrary to the public interest since the protest activities associated 
with EGT were unpredictable and potentially volatile and could result 
in injury to persons and property. Delaying the effective date until 30 
days after publication would have eliminated the safety zone's 
effectiveness and usefulness in protecting persons, property, and the 
safe navigation of maritime traffic during the transit of grain-
shipment vessels arriving or departing before the 30 days had elapsed.
    Although the Coast Guard had good cause to issue this rule without 
first publishing a proposed rule, the public was invited to submit 
post-promulgation comments and related material regarding this rule 
through March 1, 2012. The public was informed that all comments would 
be reviewed as they were received, and that the comments would assist 
the Coast Guard in drafting future rules, should future rules be 
necessary. The public was also informed that comments received could 
provide a basis for changes to this temporary interim rule before it 
expired. The rule was published on 23 January 2012. The rule expired on 
01 April 2012. No comments were received from the public.
    The Coast Guard clearly communicated its responsibility to maintain 
a safe and secure navigable waterway for all users and as such would 
have assets on the water and in the air ensuring that state maintained. 
The safety zone was put in place for all waterway users. This safety 
zone was well advertised through Broadcast Notice to Mariners and 
Flyers handed out at marinas on the day of the first vessel transiting 
the Columbia River to the EGT facility.

    Question 22. Will the U.S. Coast Guard Commit to communicating with 
all parties involved including labor prior to issuing similar rules in 
similar situations in the future?
    Answer. Public comments on proposed rules are an essential 
component of the notice-and-comment rulemaking process established by 
the Administrative Procedures Act (APA). The Coast Guard rulemaking is 
done in accordance with the APA. 5 U.S.C. 553(c) requires that 
interested members of the public must be given an opportunity to 
comment on a notice of proposed rulemaking unless an exception applies. 
In this instance, the Coast Guard issued a rule on an interim basis 
because the Coast Guard determined that the action of the rule fell 
under the good cause exemption. As noted above, in this exceptional 
circumstance, the Coast Guard found that it was contrary to the public 
interest to delay implementation of the safety zone during a notice and 
comment period. Postponing the promulgation would have created a very 
likely risk that protest activities would threaten safe navigation and 
the safety of persons and property on the Columbia and Snake rivers 
when vessels began arriving at EGT, Longview, WA.

    Question 23. I have also been told the representatives of the Coast 
Guard visited the Longview ILWU hall and told members that their TWIC 
card would be in jeopardy if they interfered with the safety zone. Did 
the U.S. Coast Guard in fact makes such representations and if so on 
what grounds were such representations made?
    Answer. The Incident Commander and Enforcement Division Chief 
scheduled a meeting with the ILWU President at the ILWU Meeting hall to 
deliver the COTP letter (attached). The President was not available at 
the specified meeting time and the Coast Guard members were directed to 
the ILWU Public Relations Manager for delivery of the letter. The ILWU 
Public relations manager specifically asked if the TWIC card could be 
in jeopardy if ILWU members engaged in unlawful activity aboard a MTSA-
regulated secure facility as outlined in the Columbia River's COTP's 
letter dated 12 September 2011. The Coast Guard informed him that TSA 
is responsible for TWIC approval, issue, and suspension/revocation, and 
that TSA agents had stated that TSA would make any determinations 
regarding TWIC based on the activity conducted on an individual basis. 
The Public Relations Manager was also informed that any TWIC-related 
questions should be directed to TSA, as they are the issuing authority 
for that credential and are also the agency that would take any 
administrative action against a TWIC holder.

    Question 24. NOAA installed high frequency radar systems along much 
of the United States coastline. These radar systems measure the speed 
and direction of ocean currents. Data that has important applications 
for Coast Guard search and rescue, fish habitat modeling, and even oil 
spill response. However, there is only one high frequency radar station 
installed in Washington State--at the southernmost corner--leaving much 
of Washington State without coverage. Admiral Papp, In addition to 
applications for modeling debris trajectory, would the installation of 
high frequency radar stations lead to cost savings for the Coast 
Guard's search and rescue or oil spill response missions?
    Answer. With regards to oil spill response missions, the Coast 
Guard defers to NOAA. The Coast Guard relies on NOAA, per the NCP 
300.145 (c), for recommendations on oil spill trajectory modeling. As a 
result, NOAA is the appropriate agency to answer the question of high 
frequency radar stations leading to costs savings for oil spill 
response modeling.

    Question 25. How has high frequency radar helped the Coast Guard 
save lives in other parts of the United States?
    Answer. The surface current fields measured by HF radar provide 
hourly-updated high resolution data fields out to as far as 100 km 
offshore, depending upon the HF radar's frequency. The currents 
measured by HF radar equal or surpass the precision of estimates 
provided by numerical models. Currents are used by SAROPS to make drift 
predictions of survivors or survivors' craft during search and rescue 
cases. Improving the quality and accuracy of the surface current fields 
available to SAROPS directly improves the quality of the estimated 
drift positions and allows the Coast Guard to more accurately focus its 
search assets to locate survivors within a search area. Smaller, more 
accurate search areas lead to an increased probability of locating 
survivors. In addition, decreasing a search area can result in a 
decrease in on-scene time for Coast Guard assets.
    The Coast Guard Environmental Data Server (EDS) automatically 
gathers all available 6km HF radar data from around the continental US 
and Hawaii for direct and immediate access to SAROPS. In addition, 
special Short Term (24 hour) Predictions are made from the 6km HF radar 
fields that are provided to the EDS for inclusion into SAROPS. This 
fills the critical data gap between the time the HF radar data is 
available and the operational needs of the Coast Guard to plan 
subsequent searches for the upcoming 24 hours.

    Question 26. What other ways does the Coast Guard utilize high 
frequency radar?
    Answer. HF radar can also provide estimates of the offshore wave 
field, allowing Coast Guard response platforms the ability to perform 
operational risk assessments prior to launching to conduct a Coast 
Guard mission.

    Question 27. Would additional high frequency radar stations on 
Washington's coastline give the Coast Guard the tools they need to save 
more lives in Washington State waters?
    Answer. Additional HF radar stations along Washington's coastline 
could be included in the national system to provide more detailed 
information to Coast Guard search and rescue planners covering the 
Washington's coastline.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                      Admiral Robert J. Papp, Jr.
    Question 1. Admiral, I've recently learned that the Coast Guard is 
proposing to close the Vintage Vessel Center of Expertise in Duluth, 
Minnesota. From what I understand, the Center provides training on the 
technologies of older vessels, supporting the operation and upkeep of, 
for example, at least 12 steamships and several ships with older 
riveted hulls that operate on the Great Lakes. If the Center is closed, 
the safety and efficiency of shipping from Minnesota's ports of Duluth, 
Two Harbors, Silver Bay, and Taconite Harbor may be negatively 
impacted. Minnesotans who ship raw materials such as iron ore, 
fluxstone, cement, and coal across the Great Lakes are concerned over 
the proposal. Are you familiar with this issue and can you explain the 
rationale behind the proposed cut?
    Answer. In reviewing the Vintage Vessel Center of Expertise 
(VVNCOE) workload, their scope of responsibility was the smallest 
amongst all NCOEs and can be assumed within existing organic 
capabilities. Similar to other areas within the budget, this trade-off 
enabled the Coast Guard to reallocate available resources to higher 
priorities, including recapitalization of assets and sustainment of 
critical frontline operations.

    Question 2. Do you know how much cost savings would be generated 
from cutting the Center?
    Answer. The Coast Guard would realize savings of $278,000 in FY 
2013, and annualized savings in FY 2014 and beyond are approximately 
$600,000 annually.

    Question 3. Will anything be done to address the needs and concerns 
of shippers who operate these older vessels?
    Answer. Yes. Shippers who operate these older vessels will still be 
able to work with their local Coast Guard Sector for support. Moreover, 
the Coast Guard is prepared to absorb the technical expertise currently 
provided by the VVNCOE. Coast Guard training and competency needs are 
continually assessed. With the establishment of the Force Readiness 
Command (FORCECOM), the Coast Guard has an entity wholly focused on 
training, educating, and preparing our people to execute their assigned 
missions. Moreover, the Coast Guard has recently established a Marine 
Safety Mission Performance Support Committee (MSMPSC), thereby creating 
a direct link between appropriate Prevention Program managers at Coast 
Guard Headquarters and FORCECOM. Once identified, a performance or 
competency gap in the Marine Safety mission will be addressed by the 
MSMPSC at the strategic level and FORCECOM at the operational/tactical 
level. Finally, the Coast Guard's Traveling Inspection staff can be 
called upon to provide technical assistance in this area of vessel 
inspection expertise, if required.

    Question 4. Admiral, I recently joined Senator Al Franken and 
Representative Chip Cravaack in submitting a letter to your office 
nominating a Minnesota Coast Guardsman and hero, Boatswain Mate First 
Class Edgar Culbertson, for the honor of having a Fast Response Cutter 
named after him. Culbertson was serving in Duluth in 1967 when he lost 
his life trying to save three brothers who were swept off the pier 
during a severe storm. He was awarded the Coast Guard Medal 
posthumously and his name has been added to the National Law 
Enforcement Memorial in Washington, D.C. It's our understanding that 
the Sentinel Fleet is being named for Coast Guard heroes like Boatswain 
Mate First Class Culbertson. Can you give an update on this fleet? How 
many cutters will you seek overall, and how many in the near term? Will 
your FY13 budget request negatively impact the plans for procurement of 
this fleet?
    Answer. The first four Fast Response Cutters (FRCs), WEBBER, 
ETHERIDGE, FLORES, and YERED have been launched. WEBBER was delivered 
to the Coast Guard in Miami, FL on February 10, 2012. ETHERIDGE has 
completed Builder's Trials and Preliminary Acceptance Trials. There are 
currently eight additional FRCs under construction. Names have been 
approved for the first 14 Cutters. Boatswain Mate First Class Edgar 
Culbertson will be added to the list of names considered to be honored 
with a Coast Guard Cutter named for him.
    The FRC Acquisition Program Baseline reflects the Coast Guard's 
requirement for 58 FRCs. The Coast Guard's intention is to order four 
FRCs in FY 2012 (FRCs #13-16) and four FRCs in FY 2013 (FRCs #17-20).
    The FY 2013 budget request continues the production of four FRCs 
annually.

    Question 5. Admiral, I recently joined Senator Al Franken and 
Representative Chip Cravaack in submitting a letter to your office 
nominating a Minnesota Coast Guardsman and hero, Boatswain Mate First 
Class Edgar Culbertson, for the honor of having a Fast Response Cutter 
named after him. Culbertson was serving in Duluth in 1967 when he lost 
his life trying to save three brothers who were swept off the pier 
during a severe storm. He was awarded the Coast Guard Medal 
posthumously and his name has been added to the National Law 
Enforcement Memorial in Washington, D.C. It's our understanding that 
the Sentinel Fleet is being named for Coast Guard heroes like Boatswain 
Mate First Class Culbertson . . . Do you know the status of whether or 
not Boatswain Mate First Class Culbertson has yet been considered for a 
boat naming?
    Answer. Boatswain Mate First Class Edgar Culbertson will be added 
to the list of names considered to be honored with a Coast Guard Cutter 
named for him.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Admiral Robert J. Papp, Jr.
    Question 1. Is there consideration of an ice-capable variant of the 
OPC? If some of the OPCs were capable of handling some ice that could 
operate in the Arctic, say 8 months out of the year that might be a 
cost-effective way to get some arctic capability without building 6-10 
icebreakers. What is the Coast Guard's assessment of what Canada is 
doing with their Arctic Offshore Patrol Ships, which are being made 
ice-capable? Should the U.S. be considering a similar direction with 
the OPCs?
    Answer. The Operational Requirements Document and Concept of 
Operations for the Offshore Patrol Cutter (OPC) include a brief 
discussion of a OPC variant that could operate in areas of less than 
100% ice coverage of broken plate, pancake and sea ice ranging from 10 
to 30 inches thick (though the OPC will not conduct icebreaking as a 
mission). This capability to operate in such areas and conditions is an 
objective capability.
    The Canadian Arctic Offshore Patrol Ship (AOPS) Program is designed 
to build new ice-strengthened patrol vessels, capable of operating in 
the Arctic from July to November. The Coast Guard's acquisition process 
for assessing the needs for assets to operate in the Polar Regions will 
identify the requirements for surface vessels, and could determine that 
an ice-strengthened OPC could meet CG missions in relatively ice-free 
areas during the Arctic summer.

    Question 2. The POLAR SEA recently went through a major repair 
period which was intended to give her another 7-10 years of service 
life, before suffering an engine cylinder-liner failure. Given that the 
ship has been inactive for more than a year since the engine casualty, 
we assume the clock stopped ticking on this expected service life, 
correct? If not, why not? If not, what specific ship systems have 
continued to wear out at the same rate sitting at the pier that they 
would have in active icebreaking service? What would it cost to correct 
the engine casualty and make the POLAR SEA materially ready for active 
service? Please include the costs of replacing items removed from the 
POLAR SEA to bring the Polar Star back on line.
    Answer. POLAR SEA completed major repairs intended to extend her 
service life four to seven years in 2007.
    All active operations, maintenance and repairs of POLAR SEA ceased 
in January 2011 at which point the end of service life clock stopped.
    POLAR SEA was placed in an unmanned cold iron status at Coast Guard 
Base Seattle in November 2011 pending final disposition. Although POLAR 
SEA is not wearing out due to active icebreaking service, individual 
systems are continuously degrading over time from exposure to the 
marine environment and cessation of maintenance activities. This 
includes electrical propulsion and power systems, piping, motors, 
seals/gaskets, deck machinery/equipment and hull structure.
    The cost to complete repairs, replace items removed in support of 
POLAR STAR, and return POLAR SEA to active service is at least $100 
million. The annual operating cost to crew, operate and maintain POLAR 
SEA is at least $30 million. It is more prudent to spend available 
resources on the acquisition of a new icebreaker.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                      Admiral Robert J. Papp, Jr.
    Question 1. A GAO report released in July 2011 found that the Coast 
Guard is not fully managing the risks associated with the increasingly 
difficult fiscal environment and the likelihood that out-years funding 
will be further reduced. The GAO report goes on to state that the total 
cost of the acquisitions program formerly known as Deepwater has 
exceeded the cost and schedule baselines laid out by the Coast Guard in 
2007. When can we expect to see updated baselines and a revised, 
realistic cost and timeline for these acquisition programs?
    Answer. Acquisition Program Baselines (APBs) containing updated 
cost, schedule and performance baseline parameters will be completed to 
provide the revised cost and schedule for the applicable acquisition 
programs. All Coast Guard APB updates are anticipated to be complete by 
the end of the 2012.
    The following acquisition projects represent those previously known 
as ``Deepwater projects'' that remain in the Coast Guard's acquisition 
portfolio. Some former Deepwater projects were cancelled and not 
included. Pre-Acquisition projects (Pre-ADE-2) are also not listed 
because no AOB is required at this time.

------------------------------------------------------------------------
                                     Update
   Project        Current APB       Required             Status
------------------------------------------------------------------------
HC-130H       v 1.0 June 19,      YES*          Submitted to DHS on May
               2009                              9, 2012.
HC-130J       v 1.0 May 22, 2009  YES*
HC-144A       v 1.0 February 6,   YES           Currently in approval
               2009                              process.
HH-60         v 1.0 August 7,     YES           Currently in approval
               2009                              process.
HH-65         v 2.0 February 22,  NO            N/A
               2011
NSC           v 1.0 December 8,   YES           Currently in approval
               2008                              process.
OPC           v 1.0 April 20,     NO            N/A
               2012
FRC           v 1.0 August 25,    YES           Currently in approval
               2009                              process.
MEC-MEP       v 2.1 December 5,   NO            N/A
               2008
WPB-MEP       v 2.1 December 4,   YES           Currently in approval
               2008                              process.
C4ISR         v 1.0 February      YES           Currently in
               2011                              development.
------------------------------------------------------------------------
* HC-130H and HC-130J projects merged into one Long Range Surveillance
  (LRS) Project.


    Question 2. With regard to out-years planning, one of the most 
significant acquisition programs on the Coast Guard's horizon is the 
Offshore Patrol Cutter, which will replace the 50-year-old Medium 
Endurance Cutter fleet. These cutters are the single greatest cost 
driver in the Deepwater program, and for this reason, the GAO had grave 
concerns that the lack of an updated baseline could drive the overall 
Deepwater cost up significantly. Do you expect the first OPC to begin 
construction in FY 2016, given that the timeline has continued to be 
pushed to the right, and might it be pushed out again?
    Answer. The current Offshore Patrol Cutter (OPC) Acquisition 
Program Baseline has the exercise of the OPC 1 Detail Design and 
Construction (DD&C) option in Fiscal Year 2016. Construction of OPC 1 
is scheduled to begin in Fiscal Year 2017 with delivery projected for 
Fiscal Year 2020.
    This schedule is predicated on award of a contract for Preliminary 
and Contract Design in Fiscal Year 2013. The draft Request for Proposal 
(RFP) was released on June 15, 2012 as planned.

    Question 3. The 2007 estimate for one OPC was approximately $320 
million. However, the 2013-2017 Capital Investment Plan cites $530 
million dollars as the cost for the lead cutter in FY 2017. Please 
explain the discrepancy in the cost estimates for these cutters. Are 
there additional costs built into the estimate for the first ship, or 
do you expect that these ships will actually cost double the 2007 
estimate per ship?
    Answer. The Integrated Deepwater Systems (IDS) Acquisition Program 
Baseline (APB) v1.1 dated May 15, 2007 estimated a Rough Order 
Magnitude (ROM) Total Acquisition Cost (TAC) at $8.1 billion for 25 
Offshore Patrol Cutters (OPCs), at an average unit cost (AUC) of $324 
million. The revised OPC APB (approved May 2012) with validated life 
cycle costs, has an estimated TAC of $10.5 billion, with an AUC of $421 
million.
    The cost of the lead ship is higher then follow-on ships because no 
learning has occurred on lead ship construction and the detailed design 
cost is included in the cost of the lead ship. The $530 million for the 
OPC project in FY 2017 includes funding for detailed design and 
construction.
    There are two other reasons for the difference. First, the current 
Project Life Cycle Cost Estimate (PLCCE) reflects the Operational 
Requirements Document (ORD) threshold requirements, and the use of 
Naval Sea Systems Command (NAVSEA) cost estimating best practices that 
were validated and approved by both the CG and DHS. The original cost 
estimate was a ROM estimate.
    Second, the IDS APB v1.1 assumed a Detail Design start in Fiscal 
Year (FY) 2010 and construction start in FY 2012. The current APB is 
based on award of Detail Design in FY 2016 and construction start in FY 
2017. This is a considerable difference in cost given shipbuilding 
inflation over 5-6 years.

    Question 4. What changes has the Coast Guard made in the Request 
for Proposals process for the OPC as a result of the input from 
industry partners?
    Answer. The Coast Guard has had several industry discussions before 
and during the specification development. Several cost saving changes 
to the specifications and requirements have been made as a result. The 
release of a draft Request for Proposal (RFP) on June 15 offers 
industry the opportunity to provide feedback, and further meetings with 
industry are planned prior to the release of the final RFP. This 
careful evaluation of the RFP will result in an OPC that meets 
requirements and is affordable.
    Question 5. How did the Fleet Mix Analysis inform the FY 2013 
budget, and what impact will it have on the Coast Guard's ability to 
more effectively plan for out years?
    Answer. The Coast Guard has gained a better understanding of the 
modeled performance of the future Coast Guard fleet from several major 
studies, including the Fleet Mix Analyses and Department of Homeland 
Security Cutter Study.
    While these studies offer insight into the performance of the 
future fleet, they were not the only considerations in making capital 
investment decisions reflected in the FY 2013 budget. Requirements 
across the enterprise, including current operational resource 
requirements, are an example of other such considerations.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                      Admiral Robert J. Papp, Jr.
    Question. Can you please elaborate on the Fast Response Cutters 
that will be homeported in Key West?
    Answer. The following table shows the Fast Response Cutter (FRC) 
delivery schedule for Key West, FL:

------------------------------------------------------------------------
    Delivery Year               Hull                    Homeport
------------------------------------------------------------------------
2013                                       FRC-07          Key West, FL
2014                                       FRC-08          Key West, FL
2014                                       FRC-09          Key West, FL
2014                                       FRC-10          Key West, FL
2014                                       FRC-11          Key West, FL
2015                                       FRC-12          Key West, FL
2022                                       FRC-58          Key West, FL
------------------------------------------------------------------------

    The FRCs delivered to Key West will primarily conduct the following 
missions:

  <bullet>  Ports, Waterways, and Coastal Security (PWCS)

  <bullet>  Search and Rescue (SAR)

  <bullet>  Drug Interdiction (DRUG)

  <bullet>  Migrant Interdiction (AMIO)

  <bullet>  Living Marine Resource (LMR)

  <bullet>  Other Law Enforcement (OLE)

  <bullet>  Defense Readiness (DR)
                                 ______
                                 
   Note Regarding Written Questions for the Record Submitted to the 
         National Oceanic and Atmospheric Administration (NOAA)
    Although Committee Members submitted written Questions for the 
Record to Dr. Jane Lubchenco following the March 7, 2012 hearing, NOAA 
did not provide responses to the Committee before the hearing record 
was closed on January 25, 2013.

                                  <all>

</pre></body></html>
